<html>
<title> - MODERN PUBLIC SCHOOL FACILITIES: INVESTING IN THE FUTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
        MODERN PUBLIC SCHOOL FACILITIES: INVESTING IN THE FUTURE

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 13, 2008

                               __________

                           Serial No. 110-78

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                     U.S. GOVERNMENT PRINTING OFFICE

40-607 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 13, 2008................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    87
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut, prepared statement of................    88
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan, letter submitted........................    90
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     6
        Additional submissions:
            Cato report: ``Private Education is Good for the 
              Poor''.............................................     7
            Cato analysis: ``Money and School Performance''......     7
            Additional statements concerning the Davis-Bacon Act.     7
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Additional questions sent to witnesses...................    78
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California:
        Prepared statement of....................................    89

Statement of Witnesses:
    Boustany, Hon. Charles W., Jr., M.D., a Representative in 
      Congress from the State of Louisiana.......................    25
        Prepared statement of....................................    27
        U.S. Department of Labor report concerning the Davis-
          Bacon Act, dated March 30, 2004........................    26
    Caddick, Judi, on behalf of the National Education 
      Association................................................    46
        Prepared statement of....................................    48
        Responses to follow-up questions.........................    79
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware......................................    13
        Prepared statement of....................................    14
    Chandler, Hon. Ben, a Representative in Congress from the 
      State of Kentucky..........................................    10
        Prepared statement of....................................    12
    Cullinane, Mary, director of the innovation & business 
      development team, Microsoft Corp...........................    52
        Prepared statement of....................................    53
        Responses to follow-up questions.........................    82
    Etheridge, Hon. Bob, a Representative in Congress from the 
      State of North Carolina....................................    15
        Prepared statement of....................................    17
        Additional submission: ``Supporters of America's Better 
          Classroom Act of 2007''................................    25
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey........................................    35
        Prepared statement of....................................    36
    Hooley, Hon. Darlene, a Representative in Congress from the 
      State of Oregon............................................    28
        Prepared statement of....................................    30
        Additional submissions:
            ``Daylighting in Schools,'' condensed report, August 
              20, 1999...........................................    89
            ``Greening America's Schools Costs and Benefits''....    89
            ``Green Building Smart Market Report''...............    89
    King, Hon. Steve, a Representative in Congress from the State 
      of Iowa....................................................    31
        Prepared statement of....................................    33
        Report: ``The Federal Davis-Bacon Act: The Prevailing 
          Mismeasure of Wages''..................................    32
    Loebsack, Hon. Dave, a Representative in Congress from the 
      State of Iowa..............................................    19
        Prepared statement of....................................    23
        Letter from Governor Culver..............................    21
        Letter from the U.S. Green Building Council..............    22
    McCluskey, Neal, associate director, Center for Educational 
      Freedom, the Cato Institute................................    73
        Prepared statement of....................................    75
    Moore, Kathleen J., director of the school facilities 
      planning division, California Department of Education......    40
        Prepared statement of....................................    42
    Vallas, Paul, superintendent, New Orleans Recovery School 
      District...................................................    66
        Prepared statement of....................................    68
    Vincent, Paula J., Ph.D., superintendent of schools, Clear 
      Creek Amana CSD............................................    61
        Prepared statement of....................................    63
    Waters, Jim, director of policy and communications, Bluegrass 
      Institute for Public Policy Solutions......................    70
        Prepared statement of....................................    72


        MODERN PUBLIC SCHOOL FACILITIES: INVESTING IN THE FUTURE

                              ----------                              


                      Wednesday, February 13, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:32 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Woolsey, 
Wu, Holt, Davis of California, Sarbanes, Loebsack, Altmire, 
Yarmuth, Hare, Courtney, Shea-Porter, McKeon, Castle, Ehlers, 
Biggert, Platts, Keller, and Boustany.
    Staff present: Tylease Alli, Hearing Clerk; Alice Cain, 
Senior Education Policy Advisor (K-12); Jody Calemine, Labor 
Policy Deputy Director; Adrienne Dunbar, Education Policy 
Advisor; Denise Forte, Director of Education Policy; Lloyd 
Horwich, Policy Advisor for Subcommittee on Early Childhood, 
Elementary and Secondary Education; Lamont Ivey, Staff 
Assistant, Education; Brian Kennedy, General Counsel; Danielle 
Lee, Press/Outreach Assistant; Jill Morningstar, Education 
Policy Advisor; Stephanie Moore, General Counsel; Alex Nock, 
Deputy Staff Director; Joe Novotny, Chief Clerk; Rachel 
Racusen, Deputy Communications Director; Dray Thorne, Senior 
Systems Administrator; Daniel Weiss, Special Assistant to the 
Chairman; Margaret Young, Staff Assistant, Education; and Mark 
Zuckerman, Staff Director; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Cameron Coursen, 
Minority Assistant Communications Director; Rob Gregg, Minority 
Legislative Assistant; Susan Ross, Minority Director of 
Education and Human Resources Policy; Linda Stevens, Minority 
Chief Clerk/Assistant to the General Counsel; Sally Stroup, 
Minority Deputy Staff Director; and Loren Sweatt, Minority 
Professional Staff Member.
    Chairman Miller [presiding]. Good morning, and welcome to 
today's hearing on Modern Public School Facilities: Investing 
in the Future. All of our children deserve a modern, safe, 
clean, and healthy place to learn, regardless of what 
neighborhood they live in. But today the unfortunate reality in 
many communities is that schools are literally crumbling.
    In 1996, the U.S. Government Accountability Office said it 
would take $112 billion to bring schools into good overall 
condition. In 2000, the National Center for Education 
Statistics put that figure at $127 billion, concluding that 75 
percent of schools were in various stages of disrepair.
    In 2000, the National Education Association said the U.S. 
would have to spend $322 billion to bring all schools to where 
they are safe, well-constructed, and have up-to-date education 
technologies. And in 2005, the American Society of Civil 
Engineers gave U.S. schools a D on its national infrastructure 
report card.
    Most recently in 2006, the group Building Educational 
Success Together said that previous studies grossly 
underestimated the need for school improvement and new 
construction. According to BEST, there continue to be millions 
of students in sub-standard and crowded conditions, 
particularly in schools serving low-income and minority 
students.
    It is common sense that sub-standard conditions in our 
schools make it harder for teachers to teach and children to 
learn. And the research bears this out consistently finding 
relationships between facility quality and student achievement 
independent of other factors. It is not just learning that 
suffers, children's health can suffer also.
    In 2004, a study commissioned by the U.S. Department of 
Education found that poor environments in schools primarily 
caused by indoor pollutants adversely influence the health, 
performance, and attendance of students. In 1996, the GAO 
report found that almost 30 percent of U.S. schools have 
unsatisfactory or very unsatisfactory ventilation.
    The Environmental Protection Agency and the American Lung 
Association have reported that asthma accounts for more than 10 
million missed school days per year. Since one of the key 
factors in student learning is the time spent in class, this is 
a problem both for children's health and for their academic 
achievement.
    Finally, schools in disrepair can adversely affect entire 
communities. Poor school quality directly lowers residential 
property values and can reduce the community's ability to 
attract businesses. Meanwhile, investment in school facilities 
brings money into local communities through job creation and 
supply purchases. We all agree on the urgent national priority 
of providing every child with a worldclass education because it 
is the right thing to do and because our continued economic 
vitality depends upon it.
    It is clear that we cannot satisfy the priority unless we 
help states and school districts improve the physical condition 
of school buildings and facilities. In fiscal year 2001, the 
Congress provided $1.2 billion in emergency school repairs. But 
beginning in the following year with President Bush's first 
budget, the federal government has provided almost no direct 
help to states and schools to pay for school construction and 
repair.
    It would be wise for us to increase federal investments in 
school facilities regardless of the nation's economic health. 
But I would be remiss if I did not point out that the weakening 
economy adds more incentives for Washington to act. As state 
and local revenues shrink, states and cities will look to make 
up those budget shortfalls by cutting spending.
    Budget cutbacks will harm essential services like 
education, and they will also make the economic problems worse 
that we are seeing. We must invest in making every school a 
place communities can be proud of and where children can be 
eager to learn.
    And I want to thank our witnesses for joining us, including 
members of Congress, our colleagues who have made time to be 
here today. Congressman Chandler will discuss his 21st Century 
High-Performing Public School Facilities Act, legislation which 
I am proud to co-sponsor.
    We will hear from Congressman Etheridge who along with 
Chairman Rangel has introduced America's Better Classrooms Act. 
And we will also hear from two outstanding members of this 
committee, Congressmen Holt and Loebsack and from Congresswoman 
Hooley, co-chair of our Green Schools Caucus.
    Thank you to all of them for being here, and I look forward 
to hearing their ideas. And at this point, I would like to 
recognize Mr. McKeon, the senior Republican on our committee.

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. Welcome to today's hearing on ``Modern Public School 
Facilities: Investing in the Future.''
    All of our children deserve a modern, safe, clean and healthy place 
to learn, regardless of what neighborhood they live in. But today, the 
unfortunate reality in many communities is that schools are literally 
crumbling.
    A number of estimates over the years have revealed the magnitude of 
the problem.
    In 1996, the U.S. Government Accountability Office said it would 
take $112 billion to bring schools into ``good overall condition.''
    In 2000, the National Center for Education Statistics put that 
figure at $127 billion, concluding that 75 percent of schools were in 
various stages of disrepair.
    In 2000, the National Education Association said the U.S. would 
have to spend $322 billion to bring all schools to the point where they 
are ``safe, well-constructed'' and have ``up-to-date technologies.''
    In 2005, the American Society of Civil Engineers gave U.S. schools 
a `D' on its national infrastructure report card.
    Most recently, in 2006, Building Educational Success Together said 
that previous studies ``grossly underestimated'' the need for school 
improvement and new construction.
    According to BEST, ``There continue to be millions of students in 
substandard and crowded conditions,'' particularly in schools serving 
low-income and minority students.
    It is common sense that substandard conditions in our schools make 
it harder for teachers to teach and children to learn.
    It's not just learning that suffers; children's health can suffer, 
too.
    A 2004 study commissioned by the U.S. Department of Education found 
that poor environments in schools, primarily caused by indoor 
pollutants, do ``adversely influence the health, performance, and 
attendance of students.''
    The 1996 GAO report found that almost 30 percent of U.S. schools 
have unsatisfactory or very unsatisfactory ventilation.
    The Environmental Protection Agency and the American Lung 
Association have reported that asthma accounts for more than 10 million 
missed school days per year. Since one of the key factors in student 
learning is time spent in class, this is a problem both for children's 
health and their academic achievement.
    Finally, schools in disrepair can adversely affect entire 
communities.
    Poor school quality directly lowers residential property values and 
can reduce a community's ability to attract businesses. Meanwhile, 
investment in school facilities brings money into local economies 
through job creation and supply purchases.
    We all agree on the urgent national priority of providing every 
child with a world-class education--because it is the right thing to do 
and because our continued economic vitality depends on it.
    It is clear that we cannot satisfy that priority unless we help 
states and school districts improve the physical condition of their 
school buildings and facilities.
    In fiscal year 2001, Congress provided $1.2 billion for emergency 
school repairs.
    But beginning the following year, with President Bush's first 
budget, the federal government has provided almost no direct aid to 
help states and schools pay for school construction and repair. It has 
remained this way during the entire Bush administration.
    It would be wise for us to increase federal investments in school 
facilities regardless of the nation's economic health. But I would be 
remiss if I did not point out that the weakening economy adds more 
incentive for Washington to act.
    As state and local tax revenues shrink, states and cities will look 
to make up that budget shortfall by cutting spending. Budget cutbacks 
will harm essential services, like education, and they will also 
exacerbate the economic problems we're seeing.
    We can help mitigate the economic damage by investing in school 
construction projects that will create jobs and inject demand into the 
economy.
    We will also hear proposals for giving the federal government a 
role in helping schools make much-needed repairs and renovations and 
build new facilities.
    We must invest in making every school a place that communities can 
be proud of and where children will be eager to learn.
    I thank all of our witnesses for joining us, including a number of 
colleagues who have made the time to be here today. Congressman 
Chandler will discuss his 21st Century High-Performing Public School 
Facilities Act, legislation I was proud to cosponsor.
    We'll hear from Congressman Etheridge, who along with Chairman 
Rangel has introduced the America's Better Classrooms Act.
    We'll also hear from two outstanding members of this committee, 
Congressmen Holt and Loebsack, and from Congresswoman Hooley, head of 
our Green Schools Caucus.
    Thanks to all of you for being here. I look forward to hearing your 
ideas about how we can address this important national priority.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller. We are here today 
to examine public school facilities as part of a broader, 
ongoing review of our nation's K-12 education system. I am 
pleased to have two distinguished panels of witnesses with us 
here today.
    First we will hear from members on both sides of the aisle 
who can help articulate views on the appropriate federal role 
in this area. Public school facilities are an important issue 
in states and local communities. And I am pleased to have 
members here to represent the views of their constituents.
    We also have a panel of experts who will offer a broad and 
diverse range of perspectives on what constitutes a modern 
public school facility, how such facilities impact student 
learning, and the role of the federal government in what has 
traditionally been a state and local right and responsibility.
    Before we delve into the details of school facilities and 
financing, I want to take a step back and consider the 
historical and constitutional context. Traditionally states and 
local communities have retained control over education, 
particularly public K-12 education.
    Federal intervention has been targeted narrowly to fulfill 
a pressing need while maintaining the autonomy and authority of 
communities. For instance, the No Child Left Behind Act is 
intended to help close the achievement gap between 
disadvantaged students and their peers by providing additional 
funding and support for schools that serve low-income and 
disadvantaged students.
    And that goes back to when the Elementary/Secondary 
Educational Act was originally passed in the 1960s. The No 
Child Left Behind was a reauthorization of that act. But it 
does not replace the rights and responsibilities that lie with 
states and communities.
    For all the attention that is paid to No Child Left Behind, 
it is important to keep two things in mind. First, even under 
NCLB the federal government is responsible only for about 9 
percent of all K-12 education spending. Second, despite claims 
of NCLB mandates, the reality is that states and local 
communities continue to set curricula, academic standards, 
qualifications for their teachers, and proficiency targets for 
their students.
    The federal investment in education is important. It allows 
us to set national priorities and ensure that as a nation we 
can agree that all children deserve the chance to learn and 
succeed.
    However, although this modest targeted federal intervention 
is appropriate, there are very real concerns about extending 
the federal role. Today we are going to look at school 
facilities. This is a topic of great importance in the larger 
educational debate in terms of students' safety, economic and 
ecological impact on communities, and equitable educational 
opportunity.
    Yet while school facilities are important, I question 
whether they are the silver bullet that some believe them to 
be. We know what matters is not just where students learn, but 
what they learn. This is not to minimize the importance of 
school facilities, but rather to emphasize the questions we 
must consider when evaluating how to spend federal dollars.
    The fact is any federal intervention into school 
construction carries with it significant burdens. For instance, 
we know that the Depression-era Davis-Bacon wage mandates can 
drive up the cost of federal projects. Meaning that we get less 
bang for our buck. In a time of limited federal resources, many 
question why we would drain funds from other critical education 
priorities in order to fund an inefficient construction 
mandate.
    Just yesterday the committee received a letter from leading 
business and construction groups outlining flaws within the 
Davis-Bacon wage mandates that would be tied to federal school 
construction. The National School Boards Association joined in 
signing that letter and voicing those concerns. As a former 
school board member myself, I am keenly aware of the catch-22 
of federal funds tied to federal mandates. And I hope we are 
mindful of those concerns today.
    We also know that great strides have been made in 
partnerships between states, localities, and the private sector 
to develop state-of-the-art school facilities. Rather than 
stifling these innovative strategies with a new federal program 
and the red tape that comes with it, we should be encouraging 
these types of partnerships.
    Local schools are woven into the fabric of our communities. 
And it seems to me there is no more fundamental local 
responsibility than to ensure a safe, welcoming learning 
environment for our children.
    Mr. Chairman, we are privileged to be hearing from so many 
members who care deeply about this issue. And for that reason, 
I will limit my remarks. Let me just take this opportunity once 
again to thank the members who are here or will be here with us 
as well as the esteemed members of our second panel.
    This is an important topic, one that I look forward to 
approaching thoughtfully as part of our ongoing discussion 
about strengthening educational opportunities for all students. 
Thank you, and I yield back.

     Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior 
              Republican, Committee on Education and Labor

    Thank you Chairman Miller. We're here today to examine public 
school facilities as part of a broader, ongoing review of our nation's 
K-12 educational system.
    I'm pleased to have two distinguished panels of witnesses with us 
here today. First, we'll hear from members on both sides of the aisle 
who can help articulate views on the appropriate federal role in this 
area. Public school facilities are an important issue in states and 
local communities, and I'm pleased to have members here to represent 
the views of their constituents.
    We also have a panel of experts who will offer a broad and diverse 
range of perspectives on what constitutes a modern public school 
facility; how such facilities impact student learning; and the role of 
the federal government in what has traditionally been a state and local 
right and responsibility.
    Before we delve into the details of school facilities and 
financing, I want to take a step back and consider the historical and 
constitutional context. Traditionally, states and local communities 
have retained control over education, particularly public K-12 
education. Federal intervention has been targeted narrowly to fulfill a 
pressing need, while maintaining the autonomy and authority of 
communities. For instance, the No Child Left Behind Act is intended to 
help close the achievement gap between disadvantaged students and their 
peers by providing additional funding and support for schools that 
serve low-income and disadvantaged students. It does not replace the 
rights and responsibilities that lie with states and communities.
    For all the attention that is paid to No Child Left Behind, it's 
important to keep two things in mind. First, even under NCLB, the 
federal government is responsible for only about nine percent of all K-
12 education spending. Second, despite claims of NCLB mandates, the 
reality is that states and local communities continue to set curricula, 
academic standards, qualifications for their teachers, and proficiency 
targets for their students.
    The federal investment in education is important. It allows us to 
set national priorities and ensure that as a nation, we can agree that 
all children deserve the chance to learn and succeed. However, although 
this modest, targeted federal intervention is appropriate, there are 
very real concerns about extending the federal role.
    Today we're going to look at school facilities. This is a topic of 
great importance in the larger educational debate in terms of student 
safety, economic and ecological impact on communities, and equitable 
educational opportunity.
    Yet while school facilities are important, I question whether they 
are the silver bullet that some believe them to be. We know what 
matters is not just where students learn, but what they learn. This is 
not to minimize the importance of school facilities, but rather to 
emphasize the questions we must consider when evaluating how to spend 
federal dollars.
    The fact is, any federal intervention into school construction 
carries with it significant burdens. For instance, we know that 
Depression-era Davis-Bacon wage mandates can drive up the cost of 
federal projects, meaning that we get less bang for our buck. In a time 
of limited federal resources, many question why we would drain funds 
from other critical education priorities in order to fund an 
inefficient construction mandate. Just yesterday, the Committee 
received a letter from leading business and construction groups 
outlining flaws within the Davis-Bacon wage mandates that would be tied 
to federal school construction. The National School Boards Association 
joined in signing that letter and voicing those concerns. As a former 
school board member myself, I am keenly aware of the catch-22 of 
federal funds tied to federal mandates, and I hope we are mindful of 
those concerns today.
    We also know that great strides have been made in partnerships 
between states, localities, and the private sector to develop state-of-
the-art school facilities. Rather than stifling these innovative 
strategies with a new federal program and the red tape that comes with 
it, we should be encouraging these types of partnerships.
    Local schools are woven into the fabric of our communities, and it 
seems to me there is no more fundamental local responsibility than to 
ensure a safe, welcoming learning environment for our children.
    Mr. Chairman, we are privileged to be hearing from so many members 
who care deeply about this issue, and for that reason, I will limit my 
remarks. Let me just take this opportunity once again to thank the 
members who are here with us as well as the esteemed experts on our 
second panel. This is an important topic, and one that I look forward 
to approaching thoughtfully as part of our ongoing discussion about 
strengthening educational opportunities for all students. Thank you, 
and I yield back.
                                 ______
                                 
    [Internet address to Cato report, ``Private Education is 
Good for the Poor,'' submitted by Mr. McKeon, follows:]

              http://www.cato.org/pubs/wtpapers/tooley.pdf

                                 ______
                                 
    [Internet address to Cato policy analysis, ``Money and 
School Performance,'' submitted by Mr. McKeon, follows:]

                http://www.cato.org/pubs/pas/pa-298.pdf

                                 ______
                                 
    [Additional statements submitted by Mr. McKeon follow:]

                                                 February 12, 2008.
Hon. George Miller, Chairman; Hon. Howard P. ``Buck'' McKeon, Ranking 
    Member, House Committee on Education and Labor, U.S. House of 
    Representatives, Washington, DC.

    Dear Chairman Miller and Ranking Member McKeon: As your committee 
prepares for its hearing on ``Modern Public School Facilities: 
Investing in the Future,'' the undersigned organizations would like to 
take this opportunity to thank you for addressing this important topic. 
Like you, we believe the foundation for our future is education, and 
that foundation begins in the walls of our nation's schools. To keep 
that foundation strong, however, we urge you to refrain from imposing 
costly Davis-Bacon Act requirements on school construction projects 
until serious flaws with that law's wage determination process are 
fixed.
    Federal authorities have concluded that Davis-Bacon wage rates are 
inaccurate. A series of audits by outside agencies, as well as the 
Department of Labor's (DOL) own Office of Inspector General (OIG), have 
revealed substantial inaccuracies in Davis-Bacon Act wage 
determinations and suggested that they are vulnerable to fraud. In 
addition, DOL's OIG released three reports highly critical of the wage 
determination program. In fact, one report from 2004 found one or more 
errors in nearly 100 percent of the wage surveys reviewed. Expanding a 
wage determination process that has been proven to be flawed is unfair 
to the American taxpayer and American businesses, as well as parents 
and students who see scarce resources used inefficiently.
    Davis-Bacon's wage determination flaws harm the very employees the 
law was intended to protect. Research from the Heritage Foundation 
found that Tampa Bay area electricians are underpaid by 38 percent 
under Davis-Bacon's system when compared to the more statistically 
sound wage determination method used by the Bureau of Labor Statistics. 
Forthcoming academic research will provide further evidence from urban 
areas across the nation.
    Davis-Bacon also has a negative impact on equal access to work 
opportunities. It prevents many qualified small and minority-owned 
businesses from even bidding on public projects, because the 
complexities and inefficiencies in the Act make it nearly impossible 
for small businesses to compete. As a result, few minority firms win 
Davis-Bacon contracts, and many others give up trying. That is not a 
lesson any of us want to teach our children.
    Finally, Davis-Bacon's flaws will cost taxpayers more to provide 
students with less. Davis-Bacon has been shown to increase public 
construction costs by anywhere from 5 to 38 percent above what the 
project would have cost in the private sector. According to the 
Congressional Budget Office, the Davis-Bacon Act already costs 
taxpayers more than $9.5 billion over the 2002 to 2011 period relative 
to the 2001 appropriations and $10.5 billion relative to 2001 
appropriations adjusted for inflation. Any Davis-Bacon costs from 
legislation your committee considers will be directly passed on to the 
American taxpayers in these school districts, coming at the direct 
expense of education dollars for children in classrooms.
    We urge Congress to make sure inaccuracies and flaws in the process 
are corrected before Congress considers extending the Davis-Bacon Act 
requirements to additional areas of the law.
            Sincerely,
                       Associated Builders and Contractors,
                        Independent Electrical Contractors,
               National Federation of Independent Business,
                        National School Boards Association,
                                  U.S. Chamber of Commerce.
                                 ______
                                 

Statement for the Record Submitted on Behalf of Associated Builders and 
                              Contractors

    On behalf of the Associated Builders and Contractors (ABC) and its 
more than 24,000 general contractors, subcontractors, material 
suppliers and related firms, we write to thank the committee for 
examining an issue as important as the facilities for our public 
education system. However, ABC is concerned about possible attachment 
of Davis-Bacon Act prevailing wage regulations, which are burdened by 
systemic and fatal flaws that should be rectified before the prevailing 
wage regime is considered for expansion to cover more school projects.
    First, we wish to assure you that ABC members share your concern 
for guaranteeing the quality and affordability of creating school 
facilities that safely and securely educate our nation's children and 
prepare them for the increasingly competitive global market. Our 
members live and work in communities across the country, building and 
working on countless school projects.
    ABC is therefore troubled that Davis-Bacon's anti-competitive and 
costly bureaucracy and statistically troubled process will be 
potentially injected into the already complex issue of building 
schools. We enumerate some of the most critical problems here.
    Davis-Bacon costs taxpayers billions of dollars each year. Studies 
show that projects under Davis-Bacon are 20 percent higher than similar 
projects completed under market conditions. The Congressional Budget 
Office has estimated that the Davis-Bacon Act costs taxpayers more than 
$9.5 billion over the 2002 to 2011 period relative to the 2001 
appropriations and $10.5 billion relative to 2001 appropriations 
adjusted for inflation.
    A number of studies have examined the effects of Davis-Bacon or 
related requirements on projects that have traditionally been 
undertaken by local and state authorities, such as school construction 
efforts. For example, a 2005 study conducted by the Minnesota Taxpayers 
Association found that the state's method for calculating prevailing 
wage rates on public construction increased project costs by as much as 
10 percent. Meanwhile, an August 2003 study from the California 
Institute for County Government at California State University-
Sacramento found that federal commercial prevailing wage rates and 
state prevailing wage rates in California are, on average, 36 percent 
to 55 percent higher than market wages.
    Similar studies have specifically examined the impact of prevailing 
wage laws on school construction costs. A 2007 study from the non-
profit Mackinac Center for Public Policy concluded that Michigan's 
prevailing wage law costs state taxpayers approximately $250 million 
per year. In particular, the study found that because state guarantees 
on school district construction bonds trigger prevailing wage 
requirements, the prevailing wage law also applies to most public 
school construction. Exempting public school districts alone from the 
law's requirements would likely save state taxpayers around $125 
million annually.
    Michigan's neighboring state, Ohio, found critical monetary savings 
by exempting its public school projects from costly prevailing wage 
requirements. Ohio's Legislative Service Commission concluded in 2002 
that striking down prevailing wage requirements for school construction 
saved a total of $487.9 million. That equated to an overall savings of 
nearly 11 percent--a savings that taxpayers anywhere would welcome.
    Recent numbers show the federal cost to taxpayer remains high. This 
month, Suffolk University's Beacon Hill Institute examined the current 
Wage and Hour Division's Davis-Bacon prevailing wage determinations and 
compared them to those calculated by the Department of Labor's Bureau 
of Labor Statistics. It concluded that the current method used to 
calculate Davis-Bacon wages inflates labor costs by 22 percent. That 
leads to an additional charge to taxpayers of $8.6 billion per year.
    In addition, Davis-Bacon's wage determination process is fatally 
flawed. The Beacon Hill Institute calculated its figure by comparing 
the wage determination method currently used by the Department of 
Labor's Wage and Hour Division to outcomes from the Bureau of Labor 
Statistics, which (as its name implies) carries out professional, 
reliable, and unbiased statistical research. Current Davis-Bacon wage 
surveys are anything but reliable and unbiased.
    A 2004 report from the Department of Labor's Office of Inspector 
General found that $22 million of taxpayer money spent to fix the wage-
determination process ``resulted in limited improvements'' and that 
``problems in past audits continued.'' In fact, a sample of surveys 
found some problems had actually increased.
    Three main fundamental flaws plague Davis-Bacon wage calculations. 
First, the Office of Inspector General noted, ``the credibility of wage 
determinations remains questionable'' because an audit found problems 
in nearly 100 percent of Wage and Hour surveys examined. That is not an 
area where such consistency is admired.
    Moreover, the survey process is hampered by bad methodology. For 
example, because the survey process is voluntary, there is statistical 
bias toward a small group of self-interested respondents. The Office of 
Inspector General's report noted that the government essentially 
surveys its own wages, and ``tries to avoid surveying Federally funded 
building and residential construction already subject to [Davis-Bacon], 
but this cannot always be done due to lack of sufficient survey data.''
    Finally, the Office of Inspector General's report noted that survey 
data is untimely. A full 84 percent of wage surveys took more than a 
year and a half to complete, and 21 percent take more than three years. 
In other cases, data wasn't updated--leaving one survey in force for 
seven years.
    The Office of Inspector General report called for a 
``representative and unbiased'' survey of the Davis-Bacon wage 
determination process. That request remains unmet.
    Davis-Bacon's wage determination flaws harm taxpayers and 
employees. Davis-Bacon wage determination errors can come at a high 
cost to taxpayers, businesses, and employees. When wages are set too 
high, taxpayers foot the bill. But when wage determinations are too 
low, Davis-Bacon harms the very working Americans it was designed to 
help.
    The Department of Labor's investigation found that the flaws from 
Davis-Bacon's wage determination plan included ``inaccuracies in 
published wage determinations that ranged from overstatements for some 
crafts of $1.08 per hour to understatements of $1.29 per hour.''
    Research from the Heritage Foundation published in December 2007 
shows that ``Davis-Bacon wages vary from 38 percent below market wages 
for electricians in the Tampa Bay area to 73 percent above market wages 
for plumbers in San Francisco.'' In the cities studied by Heritage, the 
Foundation found that Davis-Bacon calculations varied ``an average of 
33 percent from market wages.''
    Recent research from the Beacon Hill Institute, noted above, 
reached similarly troubling findings. That group found that employees 
in Florida, North Carolina, Michigan Virginia, and Maine were underpaid 
using current Davis-Bacon methodology.
    Congress should not expand Davis-Bacon Act into additional areas of 
the law until it is fixed. Evidence of systemic trouble is hard to 
ignore. In addition to the additional costs imposed by taxpayers and 
discrimination against some construction employees, governmental bodies 
have provided ample alarms.
    The Congressional Budget Office estimated savings solely from 
reducing the regulatory and paperwork burden if the Davis-Bacon Act 
were repealed to be more than $4 billion in discretionary spending 
outlays over a five-year period, reports the General Accounting Office 
in a March 2000 report. The report also noted that repealing Davis-
Bacon or raising its project-value threshold ``would allow 
appropriators to reduce fends spent on federal construction'' and 
``increase the opportunities for employment of less skilled workers.''
    The Office of Management and Budget has questioned the ``outdated 
threshold'' of applying Davis-Bacon Act to projects worth just $2,000, 
writing that the low level may be ``contrary to Congress' original 
intent to have the Act govern larger purchases, but also overburdens 
small business.'' More importantly, the Office of Management and Budget 
noted: ``Historically, wage rates have been based on data that is years 
old, poorly verified, or from surveys with low response rates. These 
and other factors have resulted in wage rates that may have 
underestimated or overestimated the true local wage, thereby 
contravening the intent of the act not to undermine local wage and 
benefit standards.''
    It is difficult to disagree with the Office of Management and 
Budget, which argued that Davis-Bacon's flawed wage determinations may 
``[contravene] the intent of the act not to undermine local wage and 
benefits standards.''
    We will leave with this thought. In 1979 the General Accounting 
Office said that ``After nearly 50 years, the Department of Labor has 
not developed an effective program to issue and maintain current and 
accurate wage determinations; it may be impractical to do so.''
    Again, thank you for the opportunity to submit these comments, and 
we thank you in advance for giving careful consideration to the views 
of ABC and its more than 24,000 members nationwide who urge your 
committee to consider these flaws inherent to the current Davis-Bacon 
system before expanding it into our nation's schools.
                                 ______
                                 
    Chairman Miller. First of all, I want to thank Mr. McKeon 
for his statement and say that under committee rule 12-A, all 
members may submit an opening statement in writing which will 
be made part of the permanent record. And I know a number of 
members that have spoken to me about that. And we will recess 
for a moment until the first of our witnesses comes back from 
the floor vote. My understanding was this is one vote, and then 
they will return and we will begin then. Thank you.
    [Recess.]
    Chairman Miller. The committee will reconvene. And again, I 
want to welcome our colleagues. And we are going to hear from 
Congressman Ben Chandler, Congressman Mike Castle, Congressman 
Bob Etheridge, Congressman Dave Loebsack, Congressman Charles 
Boustany, Congresswoman Darlene Hooley, Congressman Steve King, 
and Congressman Rush Holt. And we are going to hear from you in 
that order.
    Ben, we are going to begin with you. Welcome to the 
committee. I am going to ask you all, to the extent that you 
can, to stay within the 5 minutes. We have two full panels here 
today.
    So thank you, and welcome. And thank you for the attention 
that you have given this problem and the legislation that many 
of you have introduced. I want to thank you in advance for 
that.
    Ben?

 STATEMENT OF HON. BEN CHANDLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF KENTUCKY

    Mr. Chandler. Thank you, Mr. Chairman. And I will try to go 
as fast as my slow Kentucky diction will allow me to go. 
Anyway, I also understand that we will have another motion to 
adjourn very shortly. So hopefully I can at least get through 
my testimony.
    I appreciate you bringing this matter, the matter of our 
public education, to the forefront here in this hearing and 
particularly to address the condition of our public schools. 
This hearing is about more than just bricks and mortar. It is 
about providing our children with a safe and healthy learning 
environment and the technological resources they need to 
compete in the global world.
    The U.S. Department of Education tells us that modern, 
functional school facilities are a precondition for student 
learning. Study after study links student performance with 
building conditions.
    Many of our schools are in poor health stemming from old 
and outdated buildings. The average public school building is 
over 40 years old and often contains hazards such as lead-based 
paint, asbestos, poor lighting, and ill-functioning heating and 
cooling systems.
    To compound these problems, one-fourth of our schools are 
overcrowded from trying to cram today's student population into 
yesterday's classrooms. The needs of our public schools do not 
stop with buildings. In today's world, technology is a vital 
component to a quality education.
    In classrooms across the world, interactive white boards 
make learning come alive, and computers connect what our 
children learn in history class to what is going on in the 
world today. This technology sparks their interest. It 
transforms math from mere numbers into exciting, future-driving 
fields like architecture and engineering.
    These technological capabilities exist, but only for the 
fortunate minority. U.S. schools average one computer for every 
four students. While some schools are fully equipped with 
computer and Internet access, many fall below that average.
    My own state of Kentucky has made significant improvements 
in this area in the past few years. We are now among those 
leading the nation in Internet access with 100 percent of our 
schools linked to high-speed broadband connection. But what 
good is Internet access without computers?
    Even in Kentucky where the state average is fewer than four 
students per computer, there are still numerous schools where 
as many as 15 to 20 children must share one computer. Schools 
like this can be found in every state.
    Given the condition of our children's learning 
environments, it is no surprise that our students are 
struggling to compete in this ever-globalizing world.
    Our federal government has an important role to play in 
preventing our children from falling behind. While our public 
school system is administered by the states, the education of 
our children is a national priority. Our federal government has 
validated this numerous times in the past decade through the 
creation of programs like No Child Left Behind, Head Start, and 
the federal school lunch program.
    While Congress has recognized that educational excellence 
is vital to the economy and national competitiveness, too often 
we fail to provide these programs with the funding necessary to 
make these goals a reality. I believe it is time that Congress 
invests in our school infrastructure.
    That is why I have introduced H.R. 3021, the 21st Century 
High-Performing Public School Facilities Act. This bill invests 
in matching grants and low-interest loans to schools for 
construction, repair, and modernization of school buildings and 
educational technology.
    This bill also provides funds for teachers' technology 
training, Americans with Disabilities Act compliance, and 
energy-efficient facilities, all of which are vital to our 
kids' educational environment. Each passing year it is more 
costly for states to provide schools with the money they need 
to make basic essential improvements. With rising gas prices 
and a slowing economy, states need our help. And this is why 
the federal government must act now.
    We must provide our children with safe, modern buildings in 
which to learn. We must provide our children with computers. We 
must provide them with cutting-edge facilities and technology 
so they can create the machines and the ideas of tomorrow. We 
must equip them to build the future of our country.
    Thank you very much, Mr. Chairman. And I appreciate the 
opportunity to testify today.
    [The statement of Mr. Chandler follows:]

 Prepared Statement of Hon. Ben Chandler, a Representative in Congress 
                       From the State of Kentucky

    Thank you, Mr. Chairman. I would like to commend the Committee for 
holding this hearing to address the condition of our public schools. 
This hearing is about more than just bricks and mortar, it is about 
providing our children with a safe and healthy learning environment and 
the technological resources they need to compete in a global world.
    The U.S. Department of Education tells us that modern, functional 
school facilities are a precondition for student learning. Study after 
study links student performance with building conditions. Many of our 
schools are in poor health, stemming from old and outdated buildings. 
The average public school building is over 40 years old and often 
contains hazards such as lead-based paint, asbestos, poor lighting, and 
ill-functioning heating and cooling systems. To compound these 
problems, one-fourth of our schools are overcrowded from trying to cram 
today's student population into yesterday's classrooms.
    The needs of our public schools do not stop with buildings. In 
today's world, technology is a vital component to a quality education. 
In classrooms across the world, interactive whiteboards make learning 
come alive and computers connect what our children learn in history 
class to what is going on the world today. This technology sparks their 
interest; it transforms math from mere numbers into exciting, future-
driving fields like architecture and engineering.
    These technological capabilities exist, but only for a fortunate 
minority. U.S. schools average one computer for every four students. 
While some schools are fully equipped with computer and Internet 
access, many fall far below that average. My own state of Kentucky has 
made significant improvements in this area in the past few years. We 
are now among those leading the nation in Internet access with 100% of 
our schools linked to high-speed broadband connection. But what good is 
Internet access without computers? Even in Kentucky, where the state 
average is fewer than four students per computer, there are still 
numerous schools where as many as 15 to 20 children must share one 
computer. Schools like this can be found in every state. Given the 
conditions of our children's learning environments, it is no surprise 
that our students are struggling to compete in this ever-globalizing 
world.
    Our federal government has an important role to play in preventing 
our children from falling behind. While our public school system is 
administered by the states, the education of our children is a national 
priority. Our federal government has validated this numerous times in 
the past decade through the creation of programs like No Child Left 
Behind, Head Start, and the Federal School Lunch Program. While 
Congress has recognized that educational excellence is vital to the 
economy and national competitiveness, too often we have failed to 
provide these programs with the funding necessary to make these goals a 
reality.
    I believe it is time that Congress invests in our school 
infrastructure. That is why I have introduced H.R. 3021, the 21st 
Century High-Performing Public School Facilities Act. This bill invests 
in matching grants and low-interest loans to schools for construction, 
repair and modernization of school buildings and educational 
technology. This bill also provides funds for teacher technology 
training, Americans with Disabilities Act compliance, and energy-
efficient facilities--all of which are vital to our kids' educational 
environment.
    Each passing year, it is more costly for states to provide schools 
with the money they need to make basic, essential improvements. With 
rising gas prices and a slowing economy, states need our help. This is 
why the federal government must act now.
    We must provide our children with safe, modern buildings in which 
to learn. We must provide our children with computers. We must provide 
them with cutting-edge facilities and technology so they can create the 
machines and ideas of tomorrow--we must equip them to build the future 
of our country.
    Thank you, Mr. Chairman. I appreciate the opportunity to be here 
today as you address this important matter.
                                 ______
                                 
    Chairman Miller. Thank you. And thank you very much for 
taking your time.
    And I want to say to all the panelists, I know that many of 
you have other committees that are meeting that you serve on. 
You are free to stay, or if you want to leave after your 
testimony, you can do that also.
    But again, I want to thank you very much in advance for the 
attention that you have given to this question of school 
facilities and how we provide for them and for the legislation 
that you have all introduced.
    Mr. Castle?

   STATEMENT OF HON. MICHAEL N. CASTLE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF DELAWARE

    Mr. Castle. Thank you, Mr. Chairman, Mr. Kildee, Mr. 
Keller. I am also pleased to be here.
    And I suppose I approach all this with a little bit greater 
reservations than some of the other witnesses we are going to 
hear from today. I think we can all agree that one of the 
greatest challenges the nation faces is ensuring every child 
receives the academic means they need to succeed in the future, 
which includes in a physical environment which is conducive to 
doing so.
    I think that today's hearing on modern public school 
facilities is vitally important. And I think that we do need to 
pay some attention to this. But I have other concerns about 
where we are going in education as well.
    And I would suggest that before the committee enacts 
legislation calling for new federal spending for school 
construction projects it is necessary to consider a number of 
factors. It is important to understand the need for federal 
school construction funding. The federal government has had, as 
all of us know, almost a nonexistent role in financing school 
construction projects. Just in a few isolated-type incidents do 
we do that.
    Historically, the primary responsibility for school 
construction has been at state and local levels, which have 
spent over $145 billion in just the last 7 years, according to 
construction industry reports. It is also important to 
understand the cost implications of federal funding for school 
construction.
    Both the U.S. Department of Education and the U.S. 
Government Accountability Office have attempted to project the 
needs and costs of construction on the state and local levels. 
According to a recently published U.S. Department of 
Education's National Center for Education Statistics, known as 
NCES, the unmet need for school construction renovation is 
estimated at $112 billion.
    I would surmise that the federal government gets involved 
in school construction projects that number of projects will 
increase, the costs will increase, and as a result, the need 
for funding will continue to grow. It is just sort of natural 
in terms of potential funding which could be there.
    Our decisions must be based on existing commitments and 
greatest needs such as assisting school districts and schools 
in meeting federally imposed mandates, including funding for 
Title 1, fully funding IDEA, and meeting other requirements 
imposed by the EPA as well as others. And I am one Republican 
who has fought for this funding for a number of years now. And 
I believe that we still have that commitment, and we still 
don't fund.
    In fact, Mr. Chairman, I have heard you start a lot of your 
opening statements with we haven't funded this sufficiently. I 
have heard a lot of that discussion this year. And I think 
there is a lot of truth to that, and it is something that we 
have to pay attention to. So my question is can we afford this?
    If we are not adequately funding the programs which we have 
already assumed the responsibility for, can we assume a new 
responsibility of school construction funding? As we work to 
provide our students with the best possible education and 
provide them with the tools to succeed, we must scrutinize 
whether the federal government can commit to entering yet 
another funding stream.
    And I must admit that sometimes you are affected by your 
own circumstances. But I went to Georgetown Law School over 
here, not the fancy one that exists now about half a mile from 
here, but one that was in an old red factory building. And I 
drove around it three times trying to figure out where the heck 
the school was and finally wandered into it and realized it was 
in this ramshackle old building and had a wonderful education 
because of really good professors who really understood what 
they were doing.
    There is a little more to education than just the building. 
And I am in agreement that the building is important. But I 
think we, particularly this committee, really needs to think 
carefully about the choices that we are making.
    Are we going to fund those things we have already agreed to 
fund, which we are not doing--which we, the Congress, is not 
doing perhaps to the extent that it should? Or are we going to 
enter into a whole new funding stream, which is going to be 
extremely expensive?
    So I am not saying no to anything at this point. But I am 
saying we do need to be very cautious in terms of how we 
approach this and very considerate of other obligations that we 
have. And I yield back the balance of my time.
    [The statement of Mr. Castle follows:]

   Prepared Statement of Hon. Michael N. Castle, a Representative in 
                  Congress From the State of Delaware

    Good morning. Thank you Chairman Miller, for holding today's 
hearing. As the Senior Republican Member of the subcommittee that 
oversees K-12 legislation, I welcome the opportunity to testify before 
you today and look forward to hearing from my colleagues as well as the 
other witnesses on this important issue--modern public school 
facilities, particularly, the adequacy of existing public school 
facilities and whether there is a need for a federal school 
construction program.
    I think we can all agree that one of the greatest challenges this 
nation faces is ensuring every child receives the academic means they 
need to succeed in the future, which includes learning in a physical 
environment which is conducive to doing so.
    Before this Committee enacts legislation calling for new federal 
spending for school construction projects, however, it is necessary for 
Congress to consider a number of factors.
    First, it is important that we understand the need for federal 
funding for school construction projects. Over the past decade, the 
condition of local public school facilities has become an important 
component of the education debate in communities throughout the nation. 
How much should be spent on school construction in urban, rural and 
suburban areas, along with how to modernize and renovate existing 
public elementary and secondary schools have become significant issues 
for many states and local school districts.
    In general, the federal government has had an extremely limited, in 
fact, almost non-existent role in financing school construction 
projects. Historically, the primary responsibility for school 
construction has been at the state and local levels which have spent 
more than $145 billion in just the last seven years according to 
reports from the construction industry.
    The education needs in our country are great, and many areas face 
major challenges with overcrowding and dilapidated space. In fact, we 
face similar challenges in several areas of education such as teacher 
shortages, teacher quality, educating those with disabilities, 
achievement gaps and the list goes on.
    Additionally, it is important to understand the cost implications 
of federal funding for school construction. Both the U.S. Department of 
Education and the U.S. Government Accountability Office have attempted 
to project the needs and costs of construction on the state and local 
levels based on self-reporting by school superintendents and other 
school officials. The results have been astounding.
    According to a report recently released by the U.S. Department of 
Education's National Center for Education Statistics (NCES) entitled 
Public School Principals Report on Their School Facilities: Fall 2005, 
the unmet need for school construction and renovation is estimated at 
$112 billion and three-quarters of the nation's schools report needing 
funds to bring their buildings into a ``good overall condition.'' It is 
also estimated that States and localities need $11 billion to simply 
comply with Federal mandates to remove or correct hazardous substances 
such as asbestos, lead paint, and radon.
    As we balance the current obligations of the federal government in 
educating our youth, our decisions must be based on existing 
commitments and greatest needs. While school construction is a factor, 
the federal government must continue to assist local schools and school 
districts in meeting the federally-imposed mandates, such as adequate 
funding for Title I, fully funding the Individuals with Disabilities 
Act, assisting with compliance with the Americans with Disabilities 
Act, and meeting various other requirements imposed by the 
Environmental Protection Agency.
    From my perspective, these are the needs which compel us, on the 
federal, level, to provide funding to the programs which directly help 
improve student achievement and close the achievement gaps that have 
persisted for decades between disadvantaged students and their more 
affluent peers.
    We face challenges at every corner as we work to provide our 
students with the best possible education and provide them with the 
necessary tools to succeed. I hope we can continue to work together to 
balance these needs and make decisions based on our current commitments 
and greatest needs.
                                 ______
                                 
    Chairman Miller. As always, a well-reasoned argument. That 
is our business, making those choices and trying to develop 
those partnerships.
    Mr. Etheridge, welcome.

 STATEMENT OF HON. BOB ETHERIDGE, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Etheridge. Thank you, Mr. Chairman. And good morning. 
Chairman Miller and Ranking Member McKeon, who was here just a 
moment ago, and other members of the committee, I am honored to 
be here today. And I thank you for this hearing.
    I think this is critically important to the competitiveness 
of our country. And I appreciate the opportunity to present my 
perspective on this vitally important issue.
    Prior to my service in the United States House, I had the 
privilege of serving 8 years as the elected state 
superintendent of schools in North Carolina. And I have the 
distinction, I guess, of having some perspective that others 
might not have. So I have that rare firsthand knowledge of how 
important a quality building is to the educational goals that 
we hold for our schools and the challenges that these schools 
face in inadequate facilities.
    There really is no substitute for bricks and mortar when it 
comes to quality schools. Now, let me just give you a 
perspective. Across my district, school officials are striving 
to provide first-class educational opportunities with 
infrastructure that has not kept up with the times. And it is 
not really their fault, so let me give you some examples.
    Simply put, our schools are bursting at the seams. 
Principals and teachers are waging a daily struggle to educate 
our children in overcrowded classrooms, converted restrooms, 
broom closets, and temporary trailers. For example, Harnett 
County, which is just a few miles from my hometown of 
Lillington, deals with this problem every day.
    Harnett Central has earned a record of high standards and 
outstanding achievement despite the fact that they have 
overcrowding problems. Principal Ken Jernigan and his staff 
work miracles with these young people with a main building 
originally designed for 960 people. They now enroll 1,392 
students and have 275 faculty and staff. They have been forced 
to deploy 22 trailers, which creates safety problems, security, 
and supervisor issues.
    Approximately 33 buses unload between 7:15 and 7:45 each 
morning. That leaves less than 1 minute for each bus to unload 
and move, if you use those numbers accordingly.
    These overcrowding problems are not unique to Harnett 
Central. According to the 2005 public school facility needs 
assessment by the North Carolina Department of Public 
Instruction, Harnett County needs $222 million over the next 5 
years for school construction, modernization, and renovations.
    Nearby Johnston County, my home county where I grew up, 
needs $221 million. Wake County, the capital county of North 
Carolina, needs $1.4 billion to provide quality facilities for 
our children. And those are just three counties in my district.
    And, Mr. Chairman, one would hear those numbers and think 
they are standing still. These counties are passing bond 
issues. They are borrowing money. And they have just about 
reached their limits.
    Across North Carolina local communities are crying out for 
help with school construction. During my final year as state 
superintendent, we passed a $1.8 billion statewide bond issue 
that was matched by the locals. That was the largest bond issue 
at that time ever passed in North Carolina for school 
construction.
    But even after the historic investment, the more recent 
assessment documented that we have $9.8 billion in unmet school 
construction needs just in North Carolina. It is plain as day 
that the state lacks the capacity to deal with this issue, and 
we need national attention.
    My state is not alone. The National Clearinghouse for 
Education Facilities has estimated in 1998 that the average 
public school building in the United States was 42 years old at 
that time, and obviously they have gotten older. The National 
Education Association 2000 report, Modernizing our Schools, 
estimates total school facility needs nationwide to be $300 
billion. Part of the problem we have had grappling with this 
problem from the federal level is a lack of reliable numbers in 
real time.
    Mr. Chairman, I recommend that the Education and Labor 
Committee request an updated report from the Government 
Accountability Office to provide a comprehensive assessment of 
this problem so that we will have in real time good numbers. I 
have been working now for nearly 10 years to pass the school 
construction legislation. It is one of the first bills I 
introduced in my freshman term.
    This Congress I have teamed up with my colleague, Chairman 
Charlie Rangel and Republican Congressman Jim Ramstad of the 
Ways and Means Committee to introduce H.R. 2470, the America's 
Better Classrooms Act. This creative bill enjoys the support of 
217 co-sponsors in the U.S. House from both parties, including 
many members of this committee.
    H.R. 2470 will provide a federal tax credit to the holders 
of local school construction bonds to leverage school 
construction funding for some $25 billion across America. Local 
communities are ready to take action to get these projects 
rolling as soon as they get the word.
    In North Carolina, as an example, officials estimate that 
they can begin funding projects within 30 to 60 days. They have 
them on the shelf ready to go with no money.
    Other legislative programs and proposals under the 
jurisdiction of this committee could authorize appropriations 
through the Department of Education for school construction and 
modernization. Whatever legislative vehicle is most possible, 
the need for action of this Congress could not be more clear, 
Mr. Chairman.
    Some people are saying the quality of facilities doesn't 
matter. Tell that to the chamber of commerce when they are 
trying to recruit new businesses. Some people say that schools 
can make do with what they have got. Tell that to the students 
whose God-given abilities are never realized because his or her 
schools are overcrowded and do not have the proper equipment so 
that they can reach their individual needs and the teachers can 
reach them at their level and measure and find their weaknesses 
as students.
    Some people say education is too expensive. Mr. Chairman, I 
say it is a whole lot cheaper than the price of ignorance. In 
the 21st century, America cannot afford to turn a blind eye of 
indifference to the troubles of local schools. Whether we like 
it or not, the global marketplace is a reality. And our 
national competitiveness depends on effective federal/local 
partnerships to make every school a worldclass learning 
institution.
    That effort begins with school construction. I commend this 
committee for holding this hearing. And I hope the Congress 
will pass meaningful school construction legislation in 2008 
that the president of the United States will sign into law.
    Mr. Chairman, I brought with me a single red brick to 
symbolize that our communities need help from this Congress. 
Bricks symbolize schools, the building block of our future. 
Thank you, Mr. Chairman.
    [The statement of Mr. Etheridge follows:]

Prepared Statement of Hon. Bob Etheridge, a Representative in Congress 
                    From the State of North Carolina

    Good morning, Chairman Miller and Ranking Member McKeon, and 
members of this committee. Thank you for inviting me to testify at this 
hearing. I appreciate the opportunity to present my unique perspective 
on this vitally important issue.
    Prior to my service in the U.S. House, I served eight years as the 
elected Superintendent of North Carolina's public schools. In fact, I 
have the distinction of being the only former state schools' chief 
serving in Congress, so I have rare firsthand knowledge of the 
importance of quality school buildings to the educational goals we hold 
for our schools, and the challenges those schools face in inadequate 
facilities. There really is no substitute for bricks and mortar when it 
comes to quality schools.
    But across my District, school officials are striving to provide 
first class educational opportunities with infrastructure that has not 
kept up with the times. Simply put, our schools are busting at the 
seams. Principals and teachers wage a daily struggle to educate our 
children in overcrowded classrooms, converted restrooms and broom 
closets and ``temporary'' trailers.
    For example, Harnett Central High School, up the road from my home 
in Lillington, deals with these problems every day. Harnett Central has 
earned a record of high standards and outstanding academics despite 
severe overcrowding problems. Principal Ken Jernigan and his staff work 
miracles with these young people with a main building originally 
designed for 960 people now enrolling 1,395 students and 275 faculty 
and staff. They have been forced to deploy 22 trailers which create 
serious safety, security and supervision issues. Approximately 33 buses 
unload between 7:15 and 7:45 each morning. That leaves less than one 
minute on the average to unload.
    These overcrowding problems are not unique to Harnett Central. 
According to the 2005-06 Public Schools Facility Needs Assessment by 
the North Carolina Department of Public Instruction, Harnett County 
needs $222 million over the next five years for school construction, 
renovation and modernization. Nearby Johnston County, where I grew up, 
needs another $221 million. And Wake County needs $1.4+ Billion to 
provide quality facilities for our children. And those are just three 
of the counties in my district.
    Across North Carolina, local communities are crying out for help 
with school construction. During my final year as Superintendent, we 
passed a $1.8 billion state bond issue that was at the time the largest 
bond referendum in state history. But even after that historic 
investment, the most recent Assessment documented that we have $9.8 
billion in unmet school construction needs in my state. It is plain as 
day that the states lack the capacity to deal with this issue. We need 
national leadership.
    My state is not alone. The National Clearinghouse for Educational 
Facilities estimated in 1998 that the average public school building in 
the United States was 42 years old. The National Education 
Association's 2000 Report: Modernizing Our Schools estimated total 
school facility need nationwide to be $300 billion. Part of the problem 
we have had grappling with this problem from the federal level is a 
lack of reliable numbers in real time. I recommend the Education and 
Labor Committee request an updated report from the Government 
Accounting Office to provide a comprehensive assessment of this 
problem.
    I have been working for nearly ten years to pass school 
construction legislation. It was one of the first bills I introduced in 
my freshman term. This Congress, I have teamed up with Democratic 
Chairman Charles Rangel and Republican Congressman Jim Ramstad of the 
Ways and Means Committee to introduce H.R. 2470, the America's Better 
Classrooms Act. This creative bill enjoys the support of 217 cosponsors 
in the U.S. House from both parties, including many members of this 
committee.
    H.R. 2470 will provide a federal tax credit to the holders of local 
school construction bonds to leverage school construction funding of 
some $25 billion across the country. Local communities are ready to 
take action to get these projects rolling as soon as they get the word. 
In North Carolina, officials estimate, they can begin funding projects 
within 30-60 days. Other legislative proposals under the jurisdiction 
of this committee could authorize appropriations through the Department 
of Education for school construction and modernization. Whatever 
legislative vehicle is most possible, the need for action by this 
Congress could not be more clear.
    Some people say the quality of the facilities doesn't matter. Tell 
that to the chamber of commerce when they're trying to recruit new 
business. Some people say that schools can make do with what they've 
got. Tell that to the student whose God-given abilities are never 
realized because his or her schools are so overcrowded he or she never 
got the individual attention she needed to identify her strengths and 
weaknesses and nurture her development. Some people say education is 
too expensive. I say it's a whole lot cheaper than the price of 
ignorance. In the 21st century, America cannot afford to turn the blind 
eye of indifference to the struggles of local schools. Whether we like 
it or not, the global marketplace is reality. Our national 
competitiveness depends on effective federal/local/partnerships to make 
every school a world class learning institution.
    That effort begins with school construction. I commend this 
committee for holding this hearing, and I hope the Congress will pass 
meaningful school construction legislation in 2008 that the President 
will sign into law.
    I have with me a single red brick that I brought with me to 
symbolize what our communities need from this Congress. Our communities 
need as many school bricks as we can get to them. I stand ready to help 
this committee and this Congress achieve that task.
                                 ______
                                 
    Chairman Miller. Thank you very much. Thank you again for 
the legislation you introduced.
    I am going to run through here. I will stay as long as you 
all are prepared to stay.
    So, Dave, we are going to begin with you. To the extent you 
can compress your testimony that would be appreciated by the 
people at the end of the table. Welcome. Thank you.

 STATEMENT OF HON. DAVE LOEBSACK, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Loebsack. All right. Good morning, Mr. Chairman, 
Ranking Member McKeon, who, as Mr. Etheridge said, was here 
earlier, and my fellow education and labor colleagues. It is 
truly an honor to sit on the other side of the dais today to 
testify on an issue of great importance to our nation's 
children, families, and communities. I am pleased to share this 
panel with so many of my colleagues today, especially given 
that I have only been in the Congress a little over a year.
    And Mr. Etheridge, of course, is the only former state 
superintendent serving in Congress, so I know he understands 
these issues quite well, as his testimony just demonstrated. I 
know that our country's students deserve better. They deserve 
to learn in safe environments where they can grow and thrive. 
Unfortunately, our public school facilities are not always 
safe. And more often than not, they are in disrepair.
    Problems vary region by region, state by state, and even 
district by district. In the 2nd District of Iowa, which I 
represent, 41 out of 65 school districts are rural. And rural 
education school facilities are of particular concern to me.
    According to a recent report by the Rural School and 
Community Trust, enrollment in rural schools increased by 15 
percent compared to a growth of 1 percent for all public 
schools nationally. Unfortunately, while enrollment has 
increased, high need and rural local educational agencies, or 
LEAs, face significant resource shortages.
    The tremendous growth in school construction over the past 
decade is heartening. However, the per student investments made 
in affluent districts far surpass those made in the most 
disadvantaged districts.
    That is why I have introduced the Public School Repair and 
Renovation Act of 2007, the House version of a bill introduced 
by Senator Harkin of the same title. I want to thank my 
colleagues on this committee, Congressman Hare and Congressman 
Sarbanes, for their support and co-sponsorship of this 
legislation. The legislation would take much needed steps 
toward ending the inequality of funding for schools.
    The bill provides a total of $1.6 billion in funding to all 
states through a formula based on most recent Title 1 
allocations. The grants are then awarded on a competitive basis 
to districts that are struggling the most.
    States also have the discretion to require matching funds, 
increasing the potential for more than just the federal 
investment. Finally, the bill requires the GAO to report on 
school facility spending and provide the first estimate since 
1995 for the costs needed to bring all schools up to a good 
overall condition.
    As districts plan for the modernization of school 
facilities, I am hopeful that they will look closely at the 
health needs of students, teachers, and administrators. A large 
and growing body of research demonstrates that green school 
technology can lead to increased health, learning ability, and 
productivity. This includes improved test scores, attendance, 
teacher retention, and satisfaction.
    As we begin to connect the dots between the environment, a 
student's learning ability, and the health of both students and 
faculty, we must once again direct our attention towards the 
schools that are least able to afford improvements. Yesterday I 
introduced the GREEN School Improvement Act to address these 
issues. I want to thank Congressman Hare, Congresswoman Hooley, 
and Congressman Payne for co-sponsoring this legislation.
    This bill has three objectives. First, it will help 
leverage local funds to make greatly needed green improvements, 
renovations, and repairs in high-need and rural schools while 
ensuring support for local businesses, stimulation of local 
economies, and creation of local jobs. The bill also provides 
grants to states that have a significant number of high-need 
and rural LEAs to develop guidelines, standards, and best 
practices for future improvements.
    Lastly, the bill will charge the GAO to conduct a study to 
examine the potential to meet school repair and renovation 
needs with energy efficiency, renewable energy, and 
environmental health improvements.
    Thank you for allowing me to testify today on the 
importance of federal support for school modernization. I hope 
the committee will continue to examine this issue very closely. 
And I look forward to working with all of you on both my 
legislation and the proposals of my friends and colleagues who 
share the panel with me today.
    The bottom line is that there is a need, and students 
deserve better. And we can and should do more to leverage local 
funds to fix America's crumbling school infrastructure.
    And, Mr. Chairman, I would also like to submit for the 
record letters of support from Iowa Governor Chet Culver and 
the U.S. Green Building Council.
    Chairman Miller. Without objection, so ordered.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

                                                 February 12, 2008.
Hon. Dave Loebsack,
U.S. House of Representatives, Longworth House Office Building, 
        Washington, DC.
    Dear Congressman Loebsack: I write on behalf of the U.S. Green 
Building Council, a nonprofit organization composed of leaders from 
every sector of the building industry. USGBC's core purpose is to 
transform the way buildings and communities are designed, built and 
operated, enabling an environmentally and socially responsible, healthy 
and prosperous environment that improves the quality of life.
    We are pleased to express our strong support for your Grants for 
Renewable and Energy Efficiency Needs (GREEN) for School Improvements 
Act. Improving our nation's school facilities is a vitally important 
objective, and your bill takes America one step closer to achieving 
this goal.
    One American in five attends school every day. More than a quarter 
of these students and teachers attend schools that are considered 
substandard or dangerous to occupant health. The funding your bill 
authorizes will provide critical support to aid in the rehabilitation 
of our nation's existing school facilities, encouraging improvements 
that maximize taxpayer dollars, nurture student health and performance, 
decrease demand on municipal infrastructure, protect our environment 
and put money back into the classrooms.
    By their very nature, schools are an investment in the future, 
preparing the next generation of leaders and paving the way for 
tomorrow's innovations. Because schools embody our hopes and 
aspirations for the future, we make an important statement about our 
dedication to that future by building, repairing and operating schools 
in the most responsible and sustainable ways possible.
    The U.S. Green Building Council commends your leadership and hard 
work on this issue and urges all members to vote in favor of the GREEN 
for School Improvements Act.
            Sincerely,
 S. Richard Fedrizzi, President, CEO and Founding Chairman,
                                       U.S. Green Building Council.
                                 ______
                                 
    Mr. Loebsack. Thank you.
    [The statement of Mr. Loebsack follows:]

Prepared Statement of Hon. Dave Loebsack, a Representative in Congress 
                         From the State of Iowa

    Good morning, Mr. Chairman, Ranking Member McKeon, and my fellow 
Education and Labor colleagues. It's an honor to sit on the other side 
of the dais today to testify on an issue of great importance to our 
nation's children, families, and communities. I'm pleased to share this 
panel with so many of my colleagues today. Mr. Etheridge is the only 
former state schools chief serving in Congress so I know he understands 
these issues well. I know that our country's students deserve better. 
They deserve to learn in safe environments where they can grow and 
thrive.
    Unfortunately, our public school facilities are not always safe and 
more often than not, they are in disrepair. The US Department of 
Education documented in 1998 that the average age of public school 
buildings is 42 years. At 42, it's reasonable to expect that a school 
facility, subject to daily wear-and-tear, will begin to deteriorate. In 
older buildings, we've seen problems with lead paint, and asbestos. 
We've also seen somewhat newer buildings experiencing problems with 
mold, and poor indoor air quality.\1\ These examples are just the tip 
of the iceberg. Problems vary region by region, state by state, and 
even district by district.
    In Iowa, 46 percent of schools are in rural areas. These schools 
serve close to 170,000 students. In the 2nd District of Iowa, which I 
represent, 41 out of 65 school districts are rural, and rural education 
and school facilities are of particular concern to me. According to a 
recent report by The Rural School and Community Trust, between the 
2002-2003 and the 2004-2005 school year, enrollment in rural schools 
increased by 15 percent compared to a growth of 1 percent for all 
public schools nationally. In 2006, there were almost 10 million 
students attending schools in rural areas.\2\ Unfortunately, while 
enrollment has increased, high need and rural Local Education Agencies 
face significant resource shortages. These schools can least afford to 
make the needed repairs and renovations to ensure that students attend 
have an environment where they are safe, and able to excel in their 
studies.
    Despite growing need, federal funding has been largely unavailable 
to leverage local spending. In Fiscal Year 2001, Senator Harkin 
successfully worked to secure $1.2 billion for public school repair and 
renovation. This funding had a dramatic effect on schools across the 
country. However, it happened only once, and was not enough to cover 
the extensive repair and renovation needs across the country.
    The tremendous growth in school construction over the past decade 
is heartening, however not all of the investments have been equal. 
According to a 2006 report by the BEST coalition, the per-student 
investment made in the most affluent school districts to repair or 
construct schools, was nearly double the amount of the per-student 
investment, made in the most disadvantaged school districts. The BEST 
report also found that students in school districts with predominantly 
White enrollment benefitted from about $2,000 more per student, in 
school repair and construction spending, than their peers living in 
schools districts with predominantly minority enrollment.\3\
    We are lucky in Iowa. Since 1998, Senator Harkin has secured $116 
million for the ``Harkin Grant'' program which has helped over 260 
school districts across Iowa. Dr. Paula Vincent, the Superintendent for 
the Clear Creek Amana School District in Iowa, will elaborate on the 
benefits of these grants later in the hearing, but I do want to point 
out that these grants are a perfect example of how modest federal 
investments can significantly improve and modernize school facilities. 
They are also a perfect example of how modest federal investments can 
leverage significant state resources. Since 1998, these grants have 
leveraged $900 million in construction funding.
    Unfortunately, not all states have these programs, and many 
schools, especially those in rural and high need areas, will suffer. 
That is why I have introduced the Public School Repair and Renovation 
Act of 2007, the House version of a bill by Senator Harkin, of the same 
title. I want to thank my colleagues on this committee, Congressman 
Hare and Congressman Sarbanes, for their support and co-sponsorship of 
this legislation.
    This legislation will take much needed steps toward ending the 
inequality of funding for schools. The bill provides a total of $1.6 
billion in funding to all states through a formula, based on their most 
recent Title I allocations, which means that states receive funds based 
on the number of poor children they serve. The grants are then awarded 
on a competitive basis to districts and schools that are struggling the 
most, those in rural and high need areas. States also have the 
discretion to require matching funds from the local districts 
increasing the potential for more than just the federal investment.
    Finally, the bill requires GAO to report on school facility 
spending and provide the first estimate since 1995 for the costs needed 
to bring all schools to a good overall condition.
    As districts plan for the modernization of school facilities, I am 
hopeful they will look closely at the health needs of students, 
teachers, and administrators. According to the GAO, almost two-thirds 
of schools have building features, such as air conditioning, that are 
in need of extensive repair or replacement leading to air that is unfit 
to breathe in nearly 15 thousand schools.\4\
    Air quality is increasingly important when we consider the growing 
trend in which students and faculty spend 85 to 90 percent of their 
time indoors. The concentration of pollutants indoors is typically 
higher than outdoors, in some cases by as much as 100 times.\5\ The 
significant concentration of pollutants can agitate and increase the 
likelihood of health problems.
    A large and growing body of research demonstrates that green school 
technology can lead to increased health, learning ability, and 
productivity. This includes improved test scores, attendance, teacher 
retention, and satisfaction.
    Putting green technology into schools can greatly reduce harmful 
emissions, lower energy costs, and have an extremely positive impact on 
our local economies. The average energy savings of a green school over 
a conventional school is around 33 percent, and the water savings is 
around 32 percent. In total, the financial savings is estimated at $70 
per square foot, with a $12 per square foot savings going directly to 
schools.\6\
    As we begin to connect the dots between the environment, a 
student's learning ability, and the health and well-being of both 
students and faculty, we must once again direct our attention towards 
the schools that are least able to afford improvements to their 
facilities. Yesterday, I introduced the GREEN Schools Improvement Act 
to address these issues. Like the Public School Repair and Renovation 
Act, funds are distributed to all states, and grants are then targeted 
to high need and rural Local Education Agencies.
    This bill has three objectives. It will help leverage local funds 
to make greatly needed green improvements, renovations, and repairs 
while ensuring support for local businesses, stimulation of local 
economies, and creation of local jobs.
    The bill also provides grants to States that have a significant 
number of high need and rural local education agencies to develop 
guidelines, standards, and best practices for future energy 
improvements. The guidelines and standards will again, ensure support 
for local businesses and resources.
    Lastly the bill, similar to the Public School Repair and Renovation 
Act, will charge the Government Accountability Office with performing a 
study on the current state of public school needs for repair and 
renovations. It will also examine the potential to meet this need with 
energy efficiency, renewable energy, and environmental health 
improvements.
    Thank you for allowing me to testify today on the importance of 
federal support for school modernization. I hope that the Committee 
will continue to examine this issue very closely, and I look forward to 
working with you on both my legislation, and on the proposals of my 
friends and colleagues who share the panel with me today. The bottom 
line is that there is a need; students deserve better; and we can and 
should do more to leverage local funds to fix America's crumbling 
school infrastructure.
                                endnotes
    \1\ Building Educational Success Together (BEST). Growth and 
Disparity: A decade of U.S. Public School Construction. October 2006
    \2\ Rural School and Community Trust Policy Program. Why Rural 
Matters 2007: The Realities of Rural Education Growth. October 2007
    \3\ Building Educational Success Together (BEST). Growth and 
Disparity: A Decade of U.S. Public School Construction. October 2006
    \4\ Gregory Kats ``Greening America's Schools,'' October 2006. 
Government Accountability Office Report # HEHS-95-95.
    \5\ US Environmental Protection Agency, ``Indoor Air Quality,'' 
January 6, 2003.
    \6\ Gregory Kats, ``Greening America's Schools,'' October 2006.
                                 ______
                                 
    Chairman Miller. Mr. Etheridge?
    Mr. Etheridge. Mr. Chairman, I would like to submit for the 
record about 25 national associations in support of H.R. 2470.
    Chairman Miller. Without objection.
    [The information follows:]

          Supporters of America's Better Classroom Act of 2007

American Association of School Administrators
American Federation of Teachers
American Institute of Architects
Association of School Business Officials International
Buildings and Trades Department (BCTD), AFL-CIO
California Department of Education
Californians for School Facilities
Council of the Great City Schools
International Union of Bricklayers
International Union of Operating Engineers
Laborers' International Union
Mason Contractors Association of America
National Alliance of Black School Educators
NAACP
National Association of Elementary School Principals
National Association of Federally Impacted Schools
National Association of Secondary School Principals
National Education Association
National Parent Teacher Association
National Rural Education Association
National School Boards Association
Organizations Concerned About Rural Education
Project GRAD USA
The National Construction Alliance
United Brotherhood of Carpenters
                                 ______
                                 
    Mr. Etheridge. Thank you.
    Chairman Miller. Dr. Boustany?
    Thank you very much for your testimony. I know we have a 
vote on, so we are racing the clock here.
    Yes, Dr. Boustany?

STATEMENT OF HON. CHARLES W. BOUSTANY, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Boustany. Let me begin by thanking you, Chairman 
Miller, Ranking Member McKeon, and fellow members of the 
committee for allowing me to testify on this very important 
issue. We all agree that modern public school buildings are 
important. We also know that building a modern classroom is a 
very expensive endeavor.
    In any discussion of school construction costs, I think we 
need to carefully examine one federal mandate that makes 
already expensive projects even more expensive for a local 
community. That is the requirement that construction projects 
be done using prevailing wages under the Davis-Bacon Act. I am 
hopeful that the committee will focus on the critical 
shortcomings in the way those Davis-Bacon wages are calculated 
before forcing local school districts to divert scarce funds 
away from teachers and students.
    Research makes it hard to doubt that the Davis-Bacon Act 
prevailing wages would inflate the cost of building our 
children's schools and threaten salaries for teachers, end 
class dollars for technology, textbooks, and supplies. For 
example, a number of studies have found that projects completed 
under Davis-Bacon are 20 percent more expensive than similar 
projects completed under market conditions.
    The Congressional Budget Office also estimates that the 
Davis-Bacon Act would cost taxpayers approximately an 
additional $10 billion over the 2002 through 2011 period if it 
were applied. A 2007 study from Michigan's nonprofit Mackinac 
Center found that exempting public school districts from the 
state's government-set wage scheme would reap an expected 
annual savings of approximately $125 million. And a 2002 study 
from researchers working for the Ohio legislature determined 
that rescinding prevailing wage requirements for school 
construction saved $487.9 million in aggregate school 
construction during the post-examination period, an overall 
savings of 10.7 percent.
    These are just a few examples of studies documenting the 
savings that can be achieved by not requiring this federal 
mandate. Last year I met with Bob Manuel, a local police juror 
from Evangeline Parish in Louisiana. And Bob has worked as an 
electrical contractor for 32 years and served as president of 
the Louisiana Police Jury Association.
    He estimated that Davis-Bacon mandates added a 20 to 25 
percent cost increase for sewer treatment facility projects in 
Evangeline Parish. Costly Washington mandates should not 
penalize small, disadvantaged communities that have struggled 
to rebuild after Hurricanes Rita and Katrina.
    Finally, our committee will be negligent if we overlook the 
numerous problems with Davis-Bacon wage calculations in the 
first place. In 2004, the Department of Labor's Office of 
Inspector General reported that inaccurate survey data, 
potential bias, and untimely decisions are continuing concerns. 
The OIG added that these problems affect the validity and 
usefulness of Davis-Bacon wage surveys.
    I would like to submit a copy of this report for the record 
I have here. And I challenge anyone on this committee to argue 
that Davis-Bacon wage surveys are scientific surveys that need 
no improvement.
    [Internet address to Department of Labor report, submitted 
by Dr. Boustany, follows:]

         http://edlabor.house.gov/testimony/2008-02-13-DoL.pdf

                                 ______
                                 
    Dr. Boustany. The Office of Management and Budget has 
reported that Davis-Bacon's flawed wage determinations may 
contravene the intent of the act not to undermine local wage 
and benefit standards. Some, including Department of Labor's 
OIG, have suggested there is a better way, the statistically 
superior wager determination process used by the Department of 
Labor's Bureau of Labor Statistics.
    Researchers at Suffolk University compared the current wage 
and hour divisions Davis-Bacon prevailing wage determinations 
and those from BLS and found that the current method inflates 
wages by 22 percent on average costing taxpayers $8.6 billion 
each year. But they found something else.
    Many construction employees are actually underpaid using 
the flawed determination method instead of superior BLS 
figures. Employees in Florida, North Carolina, Michigan, 
Virginia, and Maine were some of those Americans who got 
cheated by the current system's shortcomings.
    Continuing to use the current Davis-Bacon wage 
determination method would lead to a troubling situation in 
which we lose just by playing. Either taxpayers get overcharged 
by the system, or construction employees are underpaid. We 
wouldn't teach that kind of fuzzy math in school buildings, and 
we shouldn't practice it when building schools.
    I urge the committee members to fix Davis-Bacon before 
imposing it on future school construction projects. And I thank 
the committee and look forward to working with the committee on 
this issue.
    [The statement of Dr. Boustany follows:]

     Prepared Statement of Hon. Charles W. Boustany, Jr., M.D., a 
         Representative in Congress From the State of Louisiana

    Chairman Miller, Ranking Member McKeon, and Members of the 
Committee: Thank you for allowing me to speak on this important issue. 
We all agree that modern public school buildings are important. We also 
know that building a modern classroom is an expensive endeavor.
    In any discussion of school construction costs, I think we need to 
carefully examine one federal mandate that makes already expensive 
projects even more expensive for a local community: that is the 
requirement that construction projects be done using ``prevailing 
wages'' under the Davis-Bacon Act.
    I'm hopeful that the committee will focus on the critical 
shortcomings in the way those Davis-Bacon wages are calculated before 
forcing local school districts to divert scarce funds away from 
teachers and students.
    Research makes it hard to doubt that Davis-Bacon Act ``prevailing 
wages'' would inflate the costs of building our children's schools and 
threaten salaries for teachers and in-class dollars for technology, 
textbooks, and supplies.
    For example, a number of studies have found that projects completed 
under Davis Bacon are 20 percent more expensive than similar projects 
completed under market conditions. The Congressional Budget Office 
(CBO) also estimates that the Davis-Bacon Act would cost taxpayers 
approximately an additional $10 billion over the 2002 to 2011 period if 
it were applied.
    A 2007 study from Michigan's non-profit Mackinac Center found that 
exempting public school districts from the state's government-set wage 
scheme would reap an expected annual savings of approximately $125 
million. And a 2002 study from researchers working for the Ohio 
Legislature determined that rescinding prevailing wage requirements for 
school construction saved $487.9 million in aggregate school 
construction during the post-examination period, an overall savings of 
10.7 percent.
    These are but a few examples of studies documenting the savings 
that can be achieved by not requiring this federal mandate.
    Last year, I met with Bob Manuel, a Police Juror from Evangeline 
Parish, Louisiana. Bob has worked as an electrical contractor for 32 
years and served as President of Louisiana's Police Jury Association. 
He estimated that Davis-Bacon mandates added 20 to 25 percent to the 
cost of a sewer treatment facility project in Evangeline Parish. Costly 
Washington mandates shouldn't penalize small disadvantaged communities 
that have struggled to rebuild after Hurricanes Rita and Katrina.
    Finally, our committee will be negligent if we overlook the 
numerous problems with Davis-Bacon wage calculations in the first 
place.
    In 2004, the Department of Labor's Office of Inspector General 
reported that ``inaccurate survey data, potential bias, and untimely 
decisions are continuing concerns.'' The OIG added that these problems 
``affect the validity and usefulness of Davis-Bacon wage surveys.'' I'd 
like to submit a copy of this report for the record. I challenge anyone 
on this committee to argue that the Davis-Bacon wage surveys are 
scientific surveys that need no improvements.
    The Office of Management and Budget has reported that Davis-Bacon's 
flawed wage determinations may ``[contravene] the intent of the act not 
to undermine local wage and benefits standards.''
    Some--including Department of Labor's OIG--have suggested there is 
a better way: the statistically superior wage determination process 
used by Department of Labor's Bureau of Labor Statistics.
    Researchers at Suffolk University compared the current Wage and 
Hour Division's Davis-Bacon prevailing wage determinations and those 
from BLS and found that the current method inflates wages by 22 percent 
on average, costing taxpayers $8.6 billion each year.
    But they found something else. Many construction employees are 
actually underpaid using the flawed determination method instead of 
superior BLS figures. Employees in Florida, North Carolina, Michigan, 
Virginia, and Maine were some of those Americans who got cheated by the 
current system's shortcomings.
    Continuing to use the current Davis-Bacon wage determination method 
would lead to a troubling situation in which we lose just by playing. 
Either taxpayers get overcharged by the system, or construction 
employees are underpaid. We wouldn't teach that kind of fuzzy math in 
school buildings; we shouldn't practice it when building schools.
    I again urge Committee Members to fix Davis-Bacon before imposing 
it on future school construction projects. I thank the Committee and 
look forward to any questions you may have.
                                 ______
                                 
    Chairman Miller. Charles, thank you very much for your 
testimony.
    Dr. Boustany. Thank you.
    Chairman Miller. Ms. Hooley, Congresswoman Hooley?
    Ms. Hooley. I will try to go fast.
    Chairman Miller. Welcome to the committee.

STATEMENT OF HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Ms. Hooley. Thank you, Mr. Chairman and members of the 
committee, for allowing me to testify today on the topic of 
green schools and the recent creation of the congressional 
green schools caucus. I am here today on behalf of two of my 
co-chairs, Congressman McCaul of Texas and Matheson of Utah and 
over 25 members of the caucus.
    Our vision is for this caucus to educate its members and 
Congress at large on the many benefits of green schools and to 
work to impact the role the federal government has in green 
school construction and renovation. Across the country, the 
green schools movement is growing, and our nation's students, 
parents, and teachers are demanding change.
    This is not surprising when one considers that 20 percent 
of America goes to school every day. That is 55 million 
students and more than 6 million faculty and staff.
    Too many of our nation's schools are falling into disrepair 
and are potentially dangerous for both students and faculty. I 
remember visiting a couple schools in my district where there 
were holes in the ceiling, water damage on the walls, and mold 
around the windows. Green schools create a healthy environment 
that is conducive to learning while saving energy, resources, 
and money.
    Let me repeat this important point. When done correctly, 
green schools provide a healthy environment and save money.
    Green schools have plenty of natural light, high-quality 
acoustics, and air that is safe to breathe. According to 
Capital E's Greening American Schools, which I would like to 
include in the record, green schools save money on average 
$100,000 a year. In school terms, that is enough to hire two 
new teachers, buy 200 new computers or purchase 5,000 new 
textbooks.
    Greening all our schools would reduce CO2 emissions by 33.2 
million metric tons while saving schools and universities $30 
billion in energy costs over 10 years. Greening schools teaches 
the next generation about sustainability and climate change 
through their school experience.
    An example of this is schools that have installed green 
roofs that serve as a filter for storm water runoff while 
providing a natural habitat for birds and butterflies and an 
interactive learning environment for students. They also 
dramatically improve the health and productivity of students 
and teachers by reducing the incidence of asthma, colds, and 
flu among children while improving students' learning and 
performance by a documented seven to 18 percent, according to 
the 1999 Heschong Mahone study.
    I recently had a chance to visit Bush Elementary School in 
Salem, Oregon, which has incorporated many green building 
design features. The school is designed so its gym, cafeteria, 
and stage can be closed off from the rest of the school 
building when the space is being used for community events, 
conserving both electricity and heat.
    The school also uses only no VOC paint and carpet to 
protect indoor air quality. The green building marketplace is 
expected to be worth $60 billion by 2010, according to the 
McGraw-Hill 2007 Green Building Smart Market Report on 
education, which I would also like to include for the record.
    This study predicts that green schools will make up more 
than 27 percent of the commercial green building market. It is 
clear to me this issue is so important it deserves a dedicated 
group in Congress to promote and facilitate the adoption of 
green schools across this country. One of the challenges to 
green school growth is bringing other experts from many 
disciplines together to give us a fuller picture about its 
overall benefit compared to conventional construction.
    With green schools popping up throughout the country we now 
have the opportunity to quantify the benefits of green schools 
as it relates to improved test scores, increased teacher 
retention, decreased student absenteeism, and decreased 
incidents of environment illness like allergies and asthma. 
While research has been conducted, there is a gap in federally 
supported research on the direct benefits for students.
    That is why I along with Congressman Matheson and McCaul 
introduced an amendment to the Energy Independence and Security 
Act authorizing a study by EPA of how sustainable buildings 
features affect student performance K-12. We established the 
green schools caucus to continue this vital work.
    Through briefings and school tours we can learn firsthand 
what it means to go green and how these practices improve our 
students' health and performance while saving money for local 
government. I invite every member of this panel to join us on 
this educational venture and to work with us to find 
appropriate ways for the federal government to support 
decisions by our local school administrators, parents, 
teachers, and elected officials to green America's schools.
    And thank you very much for allowing me to testify. And I 
think I have to run to vote. So thank you.
    [The statement of Ms. Hooley follows:]

Prepared Statement of Hon. Darlene Hooley, a Representative in Congress 
                        From the State of Oregon

    Thank you for inviting me here today to testify before the 
Education and Labor Committee on the topic of green schools and the 
recent creation of the Congressional Green Schools Caucus.
    I am here today on behalf of my two co-chairs, Congressmen McCaul 
of Texas and Matheson of Utah and the over 20 members of the Caucus, 
including Congressmen Loebsack, Chandler, and Holt, to discuss several 
reasons we have joined together to form the Green Schools Caucus.
    Our vision is for this Caucus to educate its members and the 
Congress at large on the many benefits of Green Schools and work to 
impact the role the Federal government has in green school construction 
and renovation.
    Across the country, the green schools movement is growing and our 
nation's students, parents, and teachers are demanding change. This is 
not surprising when one considers that 20% of America goes to school 
every day. That is 55 million students and more than 6 million faculty 
and staff.
    Too many of our nation's schools are falling into disrepair and are 
potentially dangerous for both students and faculty. I remember 
visiting a school in my district a few years ago where there were holes 
in the ceiling, water damage on the walls, and mold growing in the 
corners.
    Green schools create a healthy environment that is conducive to 
learning while saving energy, resources, and money. Let me repeat this 
important point: when done correctly, green schools provide a healthy 
environment AND save money.
    Green Schools have plenty of natural light, high quality acoustics, 
and air that is safe to breathe. According to Capital E's Greening 
America's Schools, which I would like to include in the record, green 
schools save money--on average $100,000/year.
    In school terms, that's enough to hire 2 new teachers, buy 200 new 
computers, or purchase 5,000 new textbooks. Statistics and facts about 
the benefits of green schools speak for themselves.
    Greening our schools will reduce US CO2 emissions by 33.2 million 
metric tons while saving schools and universities $30 billion in energy 
costs over 10 years.
    Greening schools teaches the next generation about sustainability 
and climate change through their school experience.
    An example of this are schools that have installed green roofs that 
serve as a filter for storm water run-off while providing a natural 
habitat for birds and butterflies and an interactive learning 
environment for students.
    They also dramatically improve the health and productivity of 
students and teachers by reducing the incidence of asthma, colds, and 
flu among children while improving student learning and performance by 
a documented 7%--18% according to the 1999 Heschong Mahone study.
    The green schools movement is taking off all across the country. 
LEED for Schools, a market specific Rating System for construction and 
major renovation of green schools, launched in April 2007. Since its 
inception, an average of one new school per day has registered for 
certification under LEED for Schools.
    I recently had a chance to visit Bush Elementary School in Salem, 
Oregon which has incorporated many green building design features. The 
school was designed so that its gym, cafeteria and stage space can be 
closed off from the rest of the school building when the space is being 
used for community events, conserving both electricity and heat. The 
school also uses only no-VOC paint and carpet to protect indoor air 
quality.
    The green building marketplace is expected to be worth $60 billion 
by 2010 according to the McGraw Hill 2007 Green Building Smart Market 
Report on Education, which I'd like to also include for the record. 
This Study also predicts that green schools will make up more than 27% 
of the commercial green building market.
    School districts all over the country have made the commitment to 
green their schools, saving money while promoting student health and 
performance. The US Green Building Council has certified or registered 
629 K-12 schools under the LEED rating system, spanning 47 States, 
Puerto Rico, and the District of Columbia.
    It is clear to me that this issue is so important it deserves a 
dedicated group in Congress to promote and facilitate the adoption of 
green schools across the country. One of the challenges to green school 
growth is bringing together experts from many disciplines to give us a 
fuller picture about its overall benefit compared to conventional 
construction.
    With green schools popping up throughout the country, we now have 
the opportunity to quantify the benefits of green schools as it relates 
to improved test scores, increased teacher retention, decreased 
absenteeism, and decreased incidence of environmental illnesses like 
allergies and asthma.
    While research has been conducted, there is a gap in federally 
supported research on the direct benefits to students. That is why I, 
along with Congressmen Matheson and McCaul, introduced an amendment to 
the Energy Independence and Security Act authorizing a study by the EPA 
of how sustainable building features affect student performance in K-12 
schools.
    We established the Green Schools Caucus to continue this vital 
work. Through briefings and school tours, we can learn first hand what 
it means to go green and how these practices improve our students' 
health and performances while saving money for our local governments.
    I invite every member of this panel to join us on this educational 
venture and to work with us to find appropriate ways for the Federal 
government to support decisions by our local school administrators, 
parents, teachers, and elected officials to green America's schools.
                                 ______
                                 
    Mr. Kildee. Thank you very much. And thank you for, by the 
way, your great service to this Congress. I know you are 
leaving here voluntarily. I hope this could be part of your 
legacy here, just a great memory.
    Ms. Hooley. Thanks.
    Mr. Kildee. Thank you.
    And I think what we will do until the other members get 
back we will finish the panel members first. They should be 
back momentarily. There is kind of a parliamentary struggle 
going on in the Congress today. We used to do it, too, but now 
we are in the majority. We don't like it when the minority does 
it.
    [Recess.]
    Mr. Kildee. We will reconvene. And Mr. King from Iowa is 
our next witness.
    And welcome to the committee.

STATEMENT OF HON. STEVE KING, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman. I appreciate the 
privilege to testify here today regarding the schools and the 
funding. And I think, as you know, that I hope to focus my 
testimony on Davis-Bacon wage scales and the effect of that on 
the overall cost of our schools.
    My background is in the construction business. I have been 
in the industry since the early 1970s. I started a construction 
business in 1975. We have dealt with Davis-Bacon wage scale. I 
have done so as an employee and as an employer. And I have 
dealt with it in a number of different environments.
    So I think as a member of Congress my background on this is 
as strong as anybody that is here. But the background on Davis-
Bacon wage scale--and to refresh the committee, that is a 
requirement that prevailing wage as determined by the U.S. 
Department of Labor be paid on any construction project that 
has federal dollars, $2,000 or more in it. That would include 
by this language of the bills that are before us any 
reconstruction or any new construction of schools that have 
federal bond dollars in them.
    The history of Davis-Bacon goes back to 1931, the 
Depression era, when the trade unions, the labor unions in the 
Northeast, in particular, New York City, there was a large 
project that was lost by a local contractor for a bidder out of 
Alabama whose strategy it was to bring Black Americans from 
Alabama to New York. And the process was to undercut the wages 
of the trade unions in New York.
    So the Davis-Bacon wage scale is rooted in one of the last 
vestiges of Jim Crow law. And that seems to get lost in the 
debate. But it was established to keep southern blacks out of 
the trade unions in the North and particularly, the Northeast.
    And it is defined as prevailing wage. Now, I get those 
reports on prevailing wage, and I will tell you that union 
contractors fill out prevailing wage. Nonunion contractors do 
not fill out the voluntary forms to establish prevailing wage 
because it is a red flag for the unions to come and organize 
their company. So bright people that are surviving in that 
environment are not in the business of putting up red flags to 
ask the unions to come in and organize their operations.
    The prevailing wage then becomes union scale. And the union 
scale is also when the reports come in, you have federally 
imposed wages defined as prevailing wage that actually are 
union scale wages that then are incorporated into the next 
study. So the study that I am about to ask if it can be 
introduced into the record, the Beacon Hill study on Davis-
Bacon wage scale, this study reflects current situation of 
wages.
    The current situation of wages includes the imposed federal 
wage scale that has already inflated the cost of labor and 
still concludes that there is a 9.91 percent inflated value in 
the cost of these construction projects for federal buildings 
if you incorporate Davis-Bacon wage scales in it. And my own 
studies and other studies draw that difference for Davis-Bacon 
wage scales between a inflation value of 8 percent and 35 
percent of the overall cost of the project.
    I reduced it down to an average of 20 percent increase. And 
that just simply says that if you want to impose Davis-Bacon 
wage scales, ask the question. Do you want to build four 
schools, or do you want to build five? I would rather build 
five schools rather than four. And this keeps us from being 
able to put our dollars in the best place.
    The Beacon Hill study also sets labor cost appreciation by 
Davis-Bacon at 22 percent increase. Well, that ought to tell 
you it is not prevailing wage or you are not going to see any 
difference in a financial study of whether there are dollars 
that are appreciated because of the Davis-Bacon wage scale.
    It is not prevailing wage, or that number wouldn't be a 22 
percent appreciation. It would be zero. It would reflect the 
prevailing wage. It does not.
    I have worked under this for all of those years, for more 
than three decades. And I have filled out the spreadsheets. I 
pioneered the reporting of some of that because it takes a lot 
of tracking of the employees.
    The best way I can describe how it pits worker against 
worker is it defines some of them as being more valuable than 
others. It takes your laborer who is on the shovel and makes 
him worth less than your man sitting on a finish machine.
    And so, let us just say pick a couple of numbers from older 
years. Maybe you are paying your laborer $10 an hour and you 
are paying your equipment operator $25 an hour. Well, all of a 
sudden everybody is an equipment operator and nobody is a 
laborer.
    Your finished motor grader operator then has an incentive 
to roll quads rather than get off with the grease gun. It 
prevents me as an employer from having as many employees as I 
would have that are on year-round work because I can't afford 
to pay those kind of wages year-round. I can't guarantee 40 
hours a week or more because the wages are too high.
    So I have to hire out of the union hall. I have to put an 
employee on a machine, work him hard and push him hard to get 
my money's worth out of that high wage I am paying and then 
take him off that machine, send him home when I am not using 
him for that specific purpose. I can't put those people on 
payroll 12 months out of the year and pay them health 
insurance, retirement benefits, and vacation pay at those kind 
of wages if I am going to be competitive.
    So this interferes and upsets the relationship between 
employers and employees and it costs us schools, and it costs 
us efficiency in construction. And it discourages entrepreneurs 
to come into the construction business.
    It is in every way an interference with the free market 
system. Labor is a commodity like corn, beans or gold or oil, 
and it should be established by the competition in the 
workplace rather than by the federal government that has almost 
universally gotten it wrong.
    I thank you, Mr. Chairman. And I yield back.
    [The statement of Mr. King follows:]

  Prepared Statement of Hon. Steve King, a Representative in Congress 
                         From the State of Iowa

    Mr Chairman, I come today to discuss the ramifications of being 
forced to pay Davis-Bacon mandated wages for construction or remodeling 
of publicly funded schools. Davis-Bacon is the last Jim Crow law. It 
was enacted in 1931 to protect the white northern workers from the 
lower paid carpet-bagger workers that had come up from the Southern 
states to look for work. Union workers were threatened by the sudden 
influx of cheap labor. The Davis-Bacon Act of 1931 was passed to 
prevent them from working.
    This Act has a checkered past. Davis-Bacon was a Depression-era 
wage subsidy law, requiring that each public works contract over $2,000 
contain a clause that established certain wages to be paid. This limit 
has never been adjusted, not even for inflation. Contractors and 
subcontractors must pay workers a wage based on the so-called 
``prevailing wage.'' But that wage is not the market wage and it 
artificially inflates wages and raises the cost of public construction 
projects for taxpayers. Davis Bacon also takes work away from 
competitive workers. And, having owned and operated a small 
construction company for over 20 years, I have personal experience 
being slighted in such a way.
    A study was recently done by the Beacon Hill Institute on the 
effects of paying Davis-Bacon inflated wages in public construction 
projects. It found that when the Davis-Bacon mandated wages were 
followed, labor costs rose by 22% above the reported median wage. I 
would like to enter a copy of this fantastic study into the record.
    In total, this study reports that Davis-Bacon costs taxpayers over 
$8.6 billion annually. That is enough money to hire over 18,000 
teachers.
    I've used this education related example to illustrate the cost of 
complying with Davis-Bacon because its mandated wages would apply to 
some of the bills pending before this committee, namely those that deal 
with school renovation and new construction. In the General Education 
Provision Act, [20 USC 1232b] the law specifically states:
    ``All laborers and mechanics employed by contractors or 
subcontractors on all construction and minor remodeling projects 
assisted under any applicable program shall be paid wages at rates not 
less than those prevailing on similar construction and minor remodeling 
in the locality as determined by the Secretary of Labor.''
    Thus the Davis-Bacon mandate would apply to any bill that receives 
federal dollars for construction or renovation--even state projects 
only partially funded by federal dollars. Therefore Davis-Bacon is the 
federal government intruding in the affairs of the States as well.
    Davis-Bacon provisions artificially inflate construction labor 
costs. The Beacon-Hill study proves that. It states that by paying 
Davis-Bacon artificially high wages labor costs go up 22% and overall 
construction costs go up 9.91%. That is why I am here today, to urge 
this committee to reject legislation that would force the Davis-Bacon 
mandate on school construction and re-modeling.
    The GAO is also on record stating that economic conditions and 
labor provisions have changed significantly since the 1930's. It 
reported that the Davis-Bacon Act is, ``not susceptible to practical 
and effective administration'' by the Department of Labor. It further 
stated that Davis-Bacon has resulted in unnecessary construction and 
administration costs, inflated prices, and inaccurate wages.
    Construction costs are rising, according to a recent study by Reed 
Business information in October 2007. The 30-city construction cost 
index showed roofing and siding costs are up 20.5%; pre-cast concrete 
costs are up 14.4%; and structural and metal framing costs are up 
10.5%. Take into account price increases for energy and you can see why 
now we need to be smarter with our money.
    Davis-Bacon is anti-competitive. Non-union construction companies, 
like the one I started, are seriously hurt by Davis-Bacon provisions. 
Small businesses simply can't compete because it is TOO INEXPENSIVE to 
get a government contract. We cannot afford to use 70 year old 
methodology anymore.
    The remedy is simple: take out the provision of these bills that 
artificially inflates or skews construction labor costs. The money 
saved on labor can be used to build and remodel more and better 
schools.
    I ask you to reflect upon what this extra funding not spent on 
Davis Bacon would mean to these kids, small business owners, or to the 
taxpayers? We should spend money so much more wisely.
    The Beacon-Hill Institute study points out that the costs of the 
unfair Davis-Bacon mandate is almost 10% of the total construction cost 
of a new school. In other words, we could save a million dollars off 
the cost of a new ten million dollar school. With that savings we could 
employ over 20 new teachers to the new school. We need to get our 
priorities straight. The Beacon-Hill Institute study is a wake-up call 
for this committee and this Congress. Congress should be working to 
build as much square footage of good schools.
                                 ______
                                 
    [Internet address to report, ``The Federal Davis-Bacon Act: 
The Prevailing Mismeasure of Wages,'' submitted by Mr. King of 
Iowa, follows:]

            http://www.beaconhill.org/BHIStudies/PrevWage08/
                   DavisBaconPrevWage080207Final.pdf

                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Holt?

STATEMENT OF HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman and Mr. McKeon. My 
colleagues, Mr. Loebsack, Ms. Hooley, and others have made, I 
think, the strong point that environment and green building is 
something that is good for the students. It really is an 
educational matter, not just an energy matter.
    Several years ago, 26 of us introduced the School Building 
Enhancement Act after learning that energy costs were the 
second highest operating expenditure in schools after personnel 
costs. At the time, schools were paying about $6 billion 
annually. That has now risen to about $8 billion annually.
    And according to the EPA, 30 percent of the energy consumed 
in school buildings is used unnecessarily or inefficiently. So 
let us just say you had an extra $2 billion in savings. That 
could go for teachers, textbooks, any number of educational 
things.
    Our bill would assist schools in making improvements by 
providing grants to states and school systems for energy 
efficiency upgrades. These improvements would follow the 
guidelines of the Energy Smart schools program with the 
Department of Energy and the Energy Star school districts 
program of the EPA.
    There are plenty of examples where this works. Summerfield 
Elementary School in my home state of New Jersey saved the 
typical 30 percent, which means $41,000 annually in their 
pockets for educational use.
    And there are health and other direct educational benefits 
as well. Daylighting, for example, can dramatically decrease 
the use of energy in schools. And according to a study of the 
National Renewable Energy Laboratories, students who learn in 
daylit classrooms have five to 14 percent better test scores, 
if you like test scores, than those who learn in non-daylit 
schools. So there is a direct educational advantage.
    So I encourage my colleagues here on the committee to join 
with Mr. Ehlers, Mr. Davis, Mr. Grijalva, Ms. Clarke, Mr. Hare, 
Mr. Payne and others in supporting this. Furthermore, having 
heard my colleagues talk about school construction from the 
point of view of realistic wages, prevailing wages, I would be 
remiss if I didn't say a word or two about Davis-Bacon.
    And they are very--I must say with respect--their 
shortsighted way of trying to save money by cutting the wages 
of school construction workers. Yes, this goes back to the 
Depression era. And I am proud to say that my father was very 
much involved in establishing wage standards back then.
    Davis-Bacon prevailing wage legislation has not only saved 
taxpayers money, it has produced better work. And you get more 
for your dollar.
    You know, a dozen states at one time or another have 
repealed their own prevailing wage laws. And the picture is not 
pretty. Repeal in those states has resulted in lower wages, a 
race to the bottom, fewer benefits for workers, reduction or 
elimination of apprenticeship training.
    Now, let me emphasize that. Through Davis-Bacon you get 
better work. Apprenticeship programs work. You don't have to do 
the job over again because you have skilled workers.
    It declines the quality of the workforce. There were 
increased injuries on the job and lower productivity. In other 
words, less for the taxpayer dollar.
    So, you know, my colleagues, Dr. Boustany, Mr. King want to 
save taxpayer money. So do we. And it has been demonstrated. 
And they will provide studies. I am happy to provide studies, 
too, of what has happened in states where they have cut 
prevailing wage. I am happy to provide studies, some of which 
were done in my own congressional district that show that 
Davis-Bacon is good.
    And it is not about organizing, although, you know, union 
organizing is not such a bad thing, Mr. King. But that is not 
what it is about.
    In fact, according to the Department of Labor, 72 percent 
of the wage determinations--in other words, how they calculate 
prevailing wage in the most recent determination that I could 
find, which was a half dozen years ago--were based on nonunion 
scales of labor. So, no, this is not--sure, unions like this. 
But it is not primarily a union effort.
    The union wage prevails only if the Department of Labor 
determines that that is the prevailing wage in the region. 
Again, I will emphasize productivity is improved when Davis-
Bacon is applied. And with that, I yield back my time. Thank 
you.
    [The statement of Mr. Holt follows:]

 Prepared Statement of Hon. Rush D. Holt, a Representative in Congress 
                      From the State of New Jersey

    Thank you Mr. Chairman and Ranking Member McKeon, and members of 
the Committee, for inviting me to speak today on The School Building 
Enhancement Act (H.R. 3197). I am pleased that this legislation is 
being considered as part of our discussion on investing in our public 
school facilities.
    As we on the committee know all too well, our nation's K-12 schools 
face a number of challenges due to both increasing student populations 
and increasing community expectations. However, schools are hampered 
from being able to achieve needed improvements because of constrained 
operating budgets, aging infrastructure and ever increasing energy 
bills.
    I introduced the School Building Enhancement Act in 2005 after 
learning that energy bills were the second-highest operating 
expenditure for schools after personnel costs. At that time schools 
were paying $6 billion annually on energy, more than the amount spent 
on textbooks and computers combined. In 2007, due to the sky-rocketing 
costs of energy, the annual spending by schools on energy had increased 
to $8 billion.
    Fortunately, there are ways for schools to offset the soaring price 
of energy. According to the Environmental Protection Agency, thirty 
percent of energy consumed in buildings is used unnecessarily or 
inefficiently. By understanding where energy is used unwisely and 
implementing simple changes in the operations and maintenance of school 
buildings, a school's operating costs can be reduced by 5-25 percent. 
Schools that are seeking even greater long term savings can retrofit 
their buildings with more efficient systems and replace old appliances. 
The $2 billion saved could be used for purchases that directly benefit 
our America's students--such as hiring 30,000 new teachers or 
purchasing 40 million additional textbooks annually.
    However, cash strapped school systems are often unable to find the 
necessary financial resources to invest in these energy efficient 
upgrades. My bill would assist schools in making these improvements by 
providing grants to states and local educational agencies through the 
Department of Education for energy efficiency upgrades. These 
improvements would need to follow the guidelines of the EnergySmart 
Schools Program of the Department of Energy or the Energy Star for K-12 
School Districts program at the Environmental Protection Agency.
    Schools that have already implemented energy efficiency measures 
have succeeded in achieving significant savings. For example, the 
Summerfield Elementary School in my home state of New Jersey has 
implemented energy efficiency measures which have reduced their 
consumption by 32 percent, allowing Summerfield to save $41,000 
annually on energy costs. Summerfield is just one of many schools that 
are being built to use energy smarter and more efficiently; according 
to the Environmental Protection Agency there are over 800 schools that 
have been Energy Star certified and are saving 40 cents per square foot 
in operating costs annually.
    Energy efficiency upgrades not only save schools money; there are 
potential health and learning benefits to students and teachers as 
well. For example, daylighting can dramatically decrease the use of 
energy in schools. According to a study by the National Renewable 
Energy Laboratory, students who learn in daylit classrooms have 5%-14% 
better test scores than those who learn in non-daylit schools. My 
colleague and friend Darlene Hooley and a cosponsor of H.R. 3197 has 
already testified about these benefits as the chair of the Green 
Schools Caucus.
    Twenty-six of our colleagues, including six of our fellow committee 
members,--Mr. Ehlers, Mr. Davis, Mr. Grijalva, Ms. Clarke, Mr. Hare and 
Mr. Payne--are cosponsors of the School Building Enhancement Act. I 
would like to invite all the members of the Committee to become a 
cosponsor of this important bill.
    Thank you again for inviting me to testify today and I look forward 
to answering any questions you might have.
                                 ______
                                 
    Chairman Miller. Thank you for your testimony. Thank you to 
all of the witnesses for their testimony.
    Are there any members of the panel that have questions? I 
am going to ask you to keep them to a minimum because we have a 
great opportunity to interact with our colleagues all the time, 
and we have a full panel coming up.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman. Just briefly to my 
friend, Mr. King from Iowa. You raised a point. I just want to 
disagree with you on a couple of areas. You said it is better 
to build five schools than four schools. I would rather see 
this bill build four schools with quality workers that know 
what they are doing that have been trained to do that type of 
work. I think that is terribly important, not only schools, but 
our roads and bridges.
    And the other thing you mentioned in your testimony that 
there has been $8.6 billion in costs to the taxpayers so we 
could hire 18,000 teachers. And while I like statistics as well 
as the next person, I would suggest to you, with all due 
respect, that if we could work together to stop the $160 
billion the president is asking for the war, we would have 
380,000 teachers.
    So I think when you are comparing these numbers, I think we 
want to be careful. I have found that the construction unions 
and the people trained in those unions to do that kind of work, 
go through the apprenticeships, have a very clear idea what 
they are doing. And if we are going to build schools for our 
children to be educated in, I want them safe, and I want them 
built by people that know what they are doing.
    So with all due respect, I would just disagree. I would 
rather err on the side of having skilled craftspeople do what 
they do best. And I think it is the least we can do for our 
construction workers.
    Mr. King. And in response, Mr. Hare, I would say that those 
workers that I have worked with and those whom I have hired and 
those professional contractors that have belonged to 
organizations like ABC and some of the AGC contractors--and the 
list goes on--they set a very high level of professionalism. 
And they would not take that viewpoint as a compliment.
    In fact, when I look at the work that I have been involved 
in throughout my entire career, I am proud of every single 
square foot, every cubic yard, whether it is concrete or 
whether it is dirt, every board, every nail. And we don't have 
a return on anything we do. And if so, we warranty it.
    We have an apprentice program that goes constantly because 
we can hire someone in as a laborer and they can do a whole 
variety of things until you find out what their aptitude is. 
And they can be a year-round worker with wages and benefits and 
health insurance, retirement, and vacation pay. You can't do 
that if you have to start people out with Davis-Bacon wage 
scale.
    And I think the point on the hiring more teachers is the 
weakest point that I made. I think the stronger point is do we 
want to build more schools and we should use our dollars as 
effectively as possible. And I think that behind this sets the 
difference in a legitimate philosophical disagreement in the 
approach of employers.
    Do employers really see their employees as assets to their 
company to be nurtured and trained and built and improved on 
their wages and benefits or do they see them as a tool or a 
machine to be pushed into the work, to be utilized and 
victimized? And I am of the view that my employees are part of 
our team, part of our family. And we put on our Christmas tree 
a little medallion for every employee and their spouse and 
every child so we get a sense of the full breadth of the 
dependency of all the people that work for us.
    And I am proud of that. There are a lot of companies that 
are that way. It is legitimate to have a different viewpoint. 
But I really regret the adversarial relationship that emerges 
between employers and employees because of the Davis-Bacon wage 
scale.
    Mr. Hare. And I appreciate that. And let me say to my 
friend from Iowa that we just do have--I think we are going to 
have to agree to disagree on this. I have yet to see--
particularly in my district--but any of the unionized 
construction trade people, any project that they have worked 
on, whether they have impact agreements and other things across 
my district.
    These people know what they are doing. They do it well. And 
I don't think we are pushing anybody in.
    As a matter of fact, I think the construction union workers 
in my district would tell you that they could always use more 
work. So I think it is important to remember that there is a 
purpose to all this training.
    And they have worked for the business community on these 
impact agreements and making sure that workers' averages don't 
get there. We have built community centers, schools, and 
bridges in my district. And hopefully we can do more.
    But I think every project that I have seen has been done 
where we have paid prevailing. Those are projects that I am 
very proud of and I think the workers that work on those are 
proud, too. So I guess we are just going to have to agree to 
disagree.
    I thank you, Mr. Chairman.
    Chairman Miller. Thank you. Again, I am really trying to 
diminish our questions. Obviously, the discussion between Mr. 
King and Mr. Hare can go on on the floor in committee and 
elsewhere. But we have a time problem with some of the members 
of the next panel is what my concern is. If it is urgent, dire, 
you want to put it on the record, put it on the record. But I 
am going to ask you not to take more than 1 minute.
    Anyone? All right. Thank you. Thank you very much for your 
testimony and again, for the legislation that many of you have 
introduced and for your comments and suggestions on this 
subject.
    I would like to now recognize our second panel. We will 
hear from Kathleen J. Moore, who is the director of the school 
facilities planning division for the California Department of 
Education; Judi Caddick, teacher, Illinois Education 
Association, Memorial Junior High School in Lansing, Illinois; 
and Mary Cullinane, who is the director of innovation and 
business development team for the Microsoft Corporation.
    And I think, Mr. Loebsack, you wanted to introduce our 
witness from Iowa.
    Then we will hear from Paul Vallas, who is the 
superintendent at the Recovery School District in New Orleans, 
Louisiana; Jim Waters, who is the director of policy and 
communications, Bluegrass Institute for Public Policy Solutions 
from Bowling Green, Kentucky; and Neil McCluskey, who is the 
associate director, Center for Educational Freedom from the 
CATO Institute in Washington, D.C.
    Mr. Loebsack?
    Mr. Loebsack. Thank you, Mr. Chair. It is my pleasure to 
introduce Dr. Paula Vincent today. Dr. Vincent is the 
superintendent of the Clear Creek Amana School District in 
Iowa. Two of the schools under her excellent guidance are in 
the 2nd District, which I represent. They are Clear Creek 
Elementary School and Clear Creek Amana High School.
    Dr. Vincent is also an alumna of a very distinguished 
university in the 2nd District, the University of Iowa. She 
received her bachelors degree, bachelor of arts degree in 
elementary education and special education with a science 
concentration summa cum laude, her master of arts in secondary 
education with a concentration in special education with 
distinction and her doctorate in educational leadership with a 
concentration in school finance with distinction.
    Dr. Vincent's academic successes are matched only by her 
distinguished career. In addition to serving as superintendent, 
she has taught in suburban Kansas City and rural Iowa. Dr. 
Vincent has also served as the director of special education in 
an Iowa area education agency and a central office 
administrator.
    I think it is safe to say that we are very lucky to have 
Dr. Vincent in Iowa and in particular, in the 2nd District. I 
think we are extremely lucky to have her and her as a strong 
advocate for education in our schools.
    And thank you for all you have done, Dr. Vincent, done so 
well. And I look forward to hearing your testimony. Thank you.
    Chairman Miller. Welcome to our entire panel.
    Dr. Vincent, that will not come out of your time.
    And let me explain the lighting system, as you may have 
observed. When you begin to testify, there will be a green 
light. That will be for 4 minutes. There will be an amber light 
telling you you have a minute to try to wrap up.
    We obviously want you to complete your thoughts in coherent 
sentences and all the rest of that. But we do, as you can see, 
want to have time for questions from the panel.
    I know that a couple of you have a time problem at the 
backend of this. So we will try to proceed in a most 
expeditious fashion. But I want you to make your points and get 
them on the record.
    Ms. Moore, we are going to begin with you. Welcome.

STATEMENT OF KATHLEEN MOORE, DIRECTOR OF THE SCHOOL FACILITIES 
     PLANNING DIVISION, CALIFORNIA DEPARTMENT OF EDUCATION

    Ms. Moore. Thank you, Chairman Miller, Congressman McKeon, 
and all members of the Education and Labor Committee for the 
opportunity to offer testimony regarding the federal investment 
in school facilities and to share the perspectives of one 
state, California.
    I am Kathleen Moore, director of the school facilities 
planning division of the California Department of Education. 
And my division is responsible for reviewing and approving 
school sites and design plans for all California schools, as 
well as administering the Qualified Zone Academy Bond Program.
    Prior to taking my position at the department, I was 
director of development and planning for the Elk Grove unified 
school district, one of the fastest growing school districts in 
the nation, where we built 27 new schools and modernized 22 
schools in 15 years.
    Chairman Miller and members of the committee, State 
Superintendent of Public Instruction, Jack O'Connell, fully 
supports H.R. 3021, 3902, 3197, and 2470, some of which were 
discussed here today.
    California has a staggering $9 billion need for new 
construction funds as well as $3.4 billion in modernization 
needs. The demand for new and renovated public school 
facilities is unprecedented in our nation's history.
    With this demand comes an opportunity to create 21st 
century learning environments that may look and operate very 
differently than our existing schools designed under the 19th 
century factory model. There is a growing body of research on 
the importance of school facilities conditions, design, and 
maintenance on student performance and teacher workplace 
satisfaction.
    Professor Earthman from UCLA indicates that between--there 
is a difference of between 5 and 17 percentile points between 
achievement of students in poor buildings and those students in 
above-standard buildings. Not surprisingly, building age, 
quality, and aesthetics make a difference.
    Research also indicates that student attitudes and behavior 
improve when the facility conditions improve. We know that for 
significant reform to be effective, design flexibility is 
necessary, particularly at the secondary level to allow for 
such programs as career technical education and organizational 
structures such as small learning communities to flourish.
    Also of note is the impact of school facilities on 
community vitality. School quality has a direct and positive 
impact on residential property values, can help revitalize 
distressed neighborhoods, can affect the ability of an area to 
attract business and workers.
    California serves a total of 6.3 million K-12 students and 
has passed some of the largest state bonds in our nation's 
history. And yet the unmet facility need is estimated at $6.9 
billion.
    In terms of modernization, assistance is needed to bring 
our older school facilities up to today's educational and code 
standards and to allow those facilities to be more energy 
efficient. At the direction of Governor Schwarzenegger, 
California is leading by example on energy efficiency and 
conservation, sustainability, green building and green 
purchasing practices. Our state is exploring the potential for 
grid neutrality. The success of this concept will rely on 
continued federal tax credits and accelerated depreciation of 
solar and other alternative energy equipment.
    In terms of the economic benefits of school construction, 
we found that the expenditure of funds for school construction 
will generate economic impact which greatly exceeds the direct 
construction expenditures. In our last two statewide bond 
cycles, 175,000 jobs were created, and the direct impact on the 
economy was approximately $20 billion.
    In terms of the federal role for school facilities, we ask 
for your assistance in ensuring all students, including those 
with special needs, have access to quality education supported 
by modern facilities that meet not only access and compliance 
requirements, the Americans with Disabilities Act, but are 
designed to support today's standards and curriculum, are 
constructed with quality and energy efficient materials that 
will stand the test of time, and are equipped with technology 
that will support and indeed enhance learning.
    The educational landscape is changing. Schools are more and 
more centers of community and they are expected to be available 
24/7.
    I would like to highlight two very successful federal 
programs that have assisted LEAs in meeting their facilities' 
demands. The first is the Qualified Zone Academy Bond program, 
and the second is the federal renovation program.
    California used nearly $500 million in these allocations. 
And the programs proved invaluable in providing resources to 
assist school districts in establishing and tailoring academy 
programs to improve student and career opportunities statewide.
    QZABs require a minimal federal investment while providing 
large school renovation results. And I provide some examples in 
the testimony. We encourage Congress to renew the QZAB program.
    And in conclusion, California has a $6.9 billion unmet 
school facilities need. Modernization of our older school 
facilities for educational and technological advances is 
particularly needed. The federal government has authorized two 
excellent facilities programs in the past, and the proposed 
legislation discussed here today will positively impact the 
physical and educational conditions of the nation's schools.
    We sincerely appreciate the opportunity to testify, and we 
stand ready to assist in any manner that we may. Thank you.
    [The statement of Ms. Moore follows:]

    Prepared Statement of Kathleen J. Moore, Director of the School 
    Facilities Planning Division, California Department of Education

    Thank you Chairman Miller, Congressman McKeon, Congressman Kildee, 
Congresswomen Woolsey, Davis, Sanchez and all members of the Education 
and Labor Committee for the opportunity to offer testimony regarding 
federal investment in school facilities and to share the perspectives 
and needs of California. I am Kathleen Moore, Director of the School 
Facilities Planning Division of the California Department of Education. 
My division is responsible for reviewing and approving school sites and 
design plans for all California schools as well as administering the 
Qualified Zone Academy Bond Program (QZAB) authorized by the Tax Payer 
Relief Act of 1997, P.L. 105-34. Prior to taking my position with the 
Department, I was Director of Development and Planning for the Elk 
Grove Unified School District, one of the fastest growing school 
districts in the nation at the time, where I had the privilege and 
responsibility to plan and finance over 27 new and 22 modernized 
schools in 15 years. I hope to bring a statewide as well as district 
perspective to the hearing here today.
    Chairman Miller and members of the committee, State Superintendent 
of Public Instruction Jack O'Connell fully supports the H.R. 3021 the 
21st Century High-Performing Public School Facilities Act introduced by 
Representative Chandler, along with yourself, Mr. Chairman, and the 
subcommittee chairman Kildee, H.R. 3902 Congressman Loebsack's Public 
School Repair and Renovation Act, H.R. 3197 the School Building 
Enhancement Act authored by representative Holt, as well as H.R. 2470, 
the American's Better Classrooms Act (ABC) sponsored by Ways and Means 
Committee Chair Rangel, Congressmen Ramstad, Etheridge and 216 House 
colleagues. The ABC bill provides financing though federal tax credits 
for $25 billion in bonds to build new schools and renovate and repair 
existing schools. The program provides a tax credit to the purchaser of 
the bonds saving the local school district the cost of the long 
interest of the bond.
    California has a staggering $9 billion need for new construction 
funds as well as $3.4 billion in modernization needs. We believe 
successful federal facilities programs such as the current QZAB program 
and the 2001 Federal Repair and Renovation Program serve as models for 
the type and quality of federal investment that is necessary to ensure 
that all students have safe and modern facilities that not only support 
but enhance student learning and achievement.
    The demand for new and renovated public school facilities is 
unprecedented in our nation's history. Los Angeles Unified School 
District, the second largest school district in the nation, is 
undertaking one of the largest public works programs in the nation to 
build and modernize schools. With this demand comes an opportunity to 
create 21st century learning environments that may look and operate 
very differently than many of our existing schools designed under the 
19th century factory model.
    My comments focus on four specific areas: (1) the impact of 
facilities on student achievement and teacher retention, (2) 
California's school facilities needs, (3) the economic benefits of 
school construction, and (4) successful federal facility programs and 
the need for continued and expanded federal assistance.
The Impact of Facilities on Student Achievement and Teacher Retention
    There is a growing body of research on the importance of school 
facility condition, design and maintenance on student performance and 
teacher workplace satisfaction. The National Clearinghouse for 
Educational Facilities (NCEF), created by the United States Department 
of Education in 1997, cites over 40 academic research papers on this 
subject. Professor Earthman from the University of California at Los 
Angeles finds that researchers have repeatedly found a difference of 
between 5-17 percentile points between achievement of students in poor 
buildings and those students in above-standard buildings, when the 
socioeconomic status of students is controlled.\1\ Similarly, in 2005, 
the Design Council of London published, in response to a national 
effort in the UK to create world class 21st century school buildings, a 
review of 167 sources which showed clear evidence that extremely poor 
environments have a negative effect on students and teachers and 
improving these have significant benefits.\2\ Poor building conditions 
greatly increase the likelihood that teachers will leave their 
school.\3\ Numerous studies have confirmed the relationship between a 
school's physical conditions and improved attendance and test scores, 
particularly in the areas of indoor air quality, lighting, thermal 
comfort and acoustics.\4\
    Not surprisingly, building age, quality and aesthetics also make a 
difference. Schneider (2002) found ``there is a consensus in the 
research that newer and better school buildings contribute to higher 
student scores on standardized tests.'' \5\ Research also indicates 
that student attitudes and behavior improve when the facility 
conditions improve. Teachers report that adequate space and access to 
technology are important variables to deliver curriculum. Facility 
directors report that new and renovated schools can provide better 
opportunities for small schools, joint use and spaces for community, 
classrooms outfitted for better technology, and ``green'' design.
    We know that for significant reform to be effective, design 
flexibility is necessary, particularly at the secondary level to allow 
for such programs as Career Technical Education and organizational 
structures such as small learning communities to flourish. A 2005 study 
of a large urban Texas School District concluded building design such 
as large group instruction areas, color schemes, outside learning 
areas, instructional neighborhoods, and building on a student scale had 
a statistically significant impact on performance.\6\
    Also of note is the impact of school facilities on community 
vitality. School quality has a direct and positive impact on 
residential property values,\7\ new or well-maintained school 
facilities can help revitalize distressed neighborhoods,\8\ and school 
quality helps determine localities' quality of life and can affect the 
ability of an area to attract businesses and workers.\9\
    In summary, the physical condition of school facilities impact 
student achievement and experience as well as teacher retention and 
community vitality. A quality school facility is but one component 
necessary for successful learning, alone it is no silver bullet, but 
together with rigorous standards, qualified teachers and system 
accountability, it can positively impact educational outcomes.
California School Facility Needs
    California serves a total of 6.3 million K-12 students and has 
passed some of the largest state bonds in the nation's history and yet 
the unmet facility need is estimated at $6.9 billion. Under the current 
School Facility Program, K-12 school districts must demonstrate the 
need for new or modernized facilities. The districts have identified a 
need to construct new schools to house over 600,000 pupils and 
modernize schools for an additional 1 million pupils. The cost to 
address these needs is estimated to be roughly $9 billion for new 
construction for which we currently have about $2.7 billion available 
and $3.4 billion for modernization for which we currently have $2.8 
billion available.
    In terms of modernization, assistance is needed to bring our older 
school facilities up to today's educational and code standards and to 
allow these facilities to be more energy efficient. We do a decent job 
of building new schools in California; however, modernization for 
educational program changes and improvements is just not occurring. Our 
state modernization dollars simply cover access compliance, paths of 
travel and systems upgrades. Many districts are being asked to choose 
between making American with Disability Act (ADA) improvements and 
completing other modernization work on the campus thus resulting in 
facilities that continue to have aging infrastructure.
    At the direction of Governor Schwarzenegger, California is leading 
by example on energy efficiency and conservation, sustainability, green 
building and green purchasing practices. Through Executive Order S-20-
04, known as the ``Green Building Initiative,'' and the accompanying 
Green Building Action Plan, the Governor calls for public buildings to 
be 20 percent more energy efficient by 2015 and encourages the private 
sector to do the same.
    California schools are also following suit. There is currently $100 
million available in High Performance Incentive Grants for California 
schools. The program will fund new construction, modernizations and 
relocatables that can be deemed environment-friendly if they are based 
on designs and materials that promote the efficient use of water, 
natural resources and energy, and also provide superior indoor air 
quality, acoustics, and lighting. California voters approved the 
incentive package under Proposition 1D in November 2006.
    Our state is exploring the potential for ``grid neutrality'' (i.e. 
zero net energy) in all new schools in California, a concept that means 
schools will not only self-generate all the energy they need, but will 
also put excess energy back into the grid. The success of this concept 
will rely on continued federal tax credits and accelerated depreciation 
of solar and other alternative energy equipment.
The Economic Benefits of School Construction
    Prior to the passage of our state's 2004 statewide facilities bond 
measure, an analysis was conducted to determine the economic benefits 
of such a bond measure on the California economy. The analysis found 
that the expenditure of funds for school construction will generate 
economic impact which greatly exceeds the direct construction 
expenditures. In the last two statewide bond cycles alone, the 
approximate $10 billion already expended created over 175,000 jobs and 
doubled the direct impact on the economy to approximately $20 billion 
because construction activity generates additional business and 
employment in sectors which provide the lumber, concrete, and many 
other goods and services which go into the construction and 
modernization of schools. These benefits would extend to federal 
construction funds as proposed in H.R. 3021 and 3902 and serve as an 
economic stimulus beyond the intrinsic value of new and modernized 
schools for students and staff.
The Federal Role in Facilities--Past, Present and Future
    We have been asked to comment on a federal facility role. I have 
discussed this with my colleagues and the members of the Californians 
for School Facilities, an organization made up of school districts, 
architects and construction professionals who tirelessly advocate on 
behalf of California's school facilities needs and thought back to my 
tenure in a fast growing school district. Resoundingly the needs were 
the same: assistance in ensuring all students, including those with 
special needs, have access to a quality education supported by modern 
facilities that meet not only access and compliance requirements 
(Americans with Disabilities Act) but are designed to support today's 
standards and curriculum, are constructed with quality and energy 
efficient materials that will stand the test of time, and are equipped 
with technology that will support and indeed enhance learning.
    The education landscape is changing. Schools are more and more 
centers of communities that are expected to be available 24/7 for after 
and before school programs, parent and community education, 
intervention programs, field areas--all of which place stress on the 
infrastructure. School leaders grapple with the increasing maintenance 
and modernization demands and costs.
    Further, California is deeply committed to closing the achievement 
gap and we believe that safe, up-to-date, quality facilities are part 
of the solution to this complicated problem.
    I would like to highlight two very successful federal programs 
which have assisted Local Educational Agencies (LEAs) meet their 
facilities demands.
    The first is the Qualified Zone Academy Bond (QZAB) program. The 
Qualified Zone Academy Bond Program has been a very popular program in 
California since its inception. The program permits LEAs serving large 
concentrations of low income families to benefit from interest-free 
financing to pay for building repair and renovation, invest in 
equipment and technology, develop challenging curricula, and train 
quality teachers. QZABs are bonds the federal government subsidizes by 
allowing bondholders to receive tax credits that are approximately 
equal to the interest that states and communities would pay holders of 
taxable bonds. As a result, issuers (LEAs) are generally responsible 
for repayment of just the principal.
    Since the first QZABs authorization in calendar year 1998 through 
calendar 2007 California has utilized nearly $500 million in 
allocations. This program has proven invaluable in providing resources 
to assist school districts in establishing and tailoring academy 
programs to improve student career opportunities statewide. The program 
leverages local business involvement by requiring a local business to 
make a contribution worth the equivalent of 10 percent of an actual 
bond sale. The financial investment provided by QZABs for school 
facilities also supports economic growth within California by assisting 
with the enhancement of school construction projects and increased job 
development.
    QZABs require a minimal federal investment while providing large 
school renovation results. Following are two examples of successful 
career academies that have benefited from the use of QZABs:
Clovis Unified School District/Fresno Unified School District
    The Clovis and Fresno Unified School Districts are located in urban 
areas of Fresno County. In the two districts together, there are 
approximately 115,000 students in 146 schools. Approximately 60 percent 
of the students qualify for free or reduced-price lunch. The districts 
jointly applied for QZAB authorization in the amount of $12 million. 
Funds were used to rehabilitate an existing warehouse/manufacturing 
plant to establish eleven technological academies of the Center for 
Advanced Research and Technology (CART). The technological laboratory 
suites are available to more than 1,600 students from the two school 
districts and provide relevant, specialized experiences in agriculture, 
biomedicine, chemistry, design/engineering, environment, financing, 
information, logistics/spatial, manufacturing, and telecommunications.
    The school's partners were Microsoft, Grundfos Pump Corporation, 
Johanson Transportation, and Richard Lake, CPA. These contributions 
from the business community, totaling $2 million, were well above the 
required 10 percent match.
Baldwin Park Unified School District
    The Baldwin Park Unified School District is located in Los Angeles 
County, 20 miles from the city of Los Angeles. The region is very 
urban, and 80 percent of its 19,000 students qualify for free or 
reduced-price lunch.
    The district requested $12 million under the QZAB program to 
establish two Computer Technology Academies at Sierra Vista and Baldwin 
Park High Schools. The academies focus on vocational technology, 
specifically through a service technician and the network technician 
certification programs. These two programs provide students with skills 
necessary to become certified as service and network technicians based 
on a worldwide standard of competency. Students have the opportunity to 
obtain industry-recognized certifications upon graduation that prepare 
them for ongoing technology education and careers. Teachers receive 
ongoing professional technology training with the most up-to-date 
equipment available. All high school students within the district are 
able to enroll in academy classes.
    The bond issued by Baldwin Park Unified was used to modernize the 
structure and technology of the two sites in order to support the 
programs. The schools' primary partner was Intel. JES & Co., a non-
profit education organization, also provided the academies with 
curriculum, materials, and teacher training.
    We encourage Congress to renew the QZAB program and to expand its 
support for the construction of new schools to support 21st century 
learning through Congressman Rangel's American's Better Classroom Act.
    The second successful federal program is the Federal Renovation 
Program. The U.S Department of Education Consolidated Appropriations 
Act of 2001 set aside $103.6 million for the urgent renovation and 
repair of existing school facilities in California. The uniqueness of 
this program allowed charter and non-profit private schools, in 
addition to public school districts and county superintendents of 
schools, to participate by applying for funds. The qualifying criteria 
were broken down into three funding categories as follows: high 
poverty, high poverty and rural, rural only and non-high poverty or 
rural.
    The number of LEAs that applied for the Federal Renovation Program 
funding in California was 783. A total of 410 LEA's applications 
received funding, which represented 52 percent of the total 
applications received. The funds accomplished some of the following: 
emergency repairs and renovations, modifications to comply with ADA, 
asbestos abatement and system upgrades. More importantly, California 
was able to distribute the funding expeditiously to schools for 
projects that had immediate impact on the economy. LEAs complemented 
the flexibility of the program to meet locally determined facility 
needs with minimal audit and record keeping--a model we strongly 
suggest. Congressman Loebsack's bill H.R. 3021 reestablishes this very 
successful program.
Conclusion
    California has a $6.9 billion unmet school facilities need. 
Modernization of our older schools for educational and technological 
advances is particularly needed. The federal government has authorized 
two excellent facilities programs in the past and the proposed 
legislation discussed here today will positively impact the physical 
and educational condition of the nation's schools.
    I sincerely appreciate this opportunity to testify before the 
Education and Labor Committee. We stand ready to assist you in crafting 
legislative language that will provide needed federal funding to 
support state and local efforts and to build and modernize school 
facilities. Our objective is to meet 21st century education standards 
and design so that our students can achieve and ultimately succeed in 
the global economy.
                                endnotes
    \1\ Glen I. Earthman, ``School Facilities Conditions and Student 
Academic Achievement.'' Report prepared for Williams v. State of 
California, University of California, Los Angeles, 2002, pp. 8-9.
    \2\ Steve Higgins and others, ``The Impact of School Environments: 
A Literature Review.'' Design Council, London, UK, 2005.
    \3\ Jack Buckley, Mark Schneider, and Yi Shang, ``The Effects of 
School Facility Quality on Teacher Retention in Urban School 
Districts.'' National Clearinghouse for Educational Facilities, 
Washington DC, 2004.
    \4\ Mark Schneider, ``Do School Facilities Affect Academic 
Outcomes?'' National Clearinghouse for Educational Facilities, 
Washington, D.C., 2002.
    \5\ Schnieder, 2002, p. 8.
    \6\ Stephanie Hughes, ``The Relationship Between School Design 
Variables and Student Achievement in a Large Urban Texas School 
District'', Baylor University, Waco, Texas, 2005.
    \7\ Thomas Kane and others, ``School Accountability Ratings and 
Housing Values'', The Brookings Institute, Washington, D.C., 2003
    \8\ Local Government Commission. ``New Schools for Older 
Neighborhoods: Strategies for Building our Communities' Most Important 
Assets.'' Sacramento, California, 2002.
    \9\ David Salveson and Henry Renski, ``The Importance of Quality of 
Life in the Location Decisions of New Economic Firms.'' Reviews of 
Economic Development Literature and Practice, No.15. Economic 
Development Administration, U.S. Department of Commerce, 2002.
                                 ______
                                 
    Chairman Miller. Ms. Caddick?

STATEMENT OF JUDI CADDICK, ON BEHALF OF THE NATIONAL EDUCATION 
                          ASSOCIATION

    Ms. Caddick. Chairman Miller and members of the committee, 
thank you for the opportunity to speak with you today about the 
urgent need to address our nation's public school 
infrastructure.
    I began my teaching career 19 years ago, and I have spent 
the last 17 years teaching math to sixth, seventh, and eighth 
graders at Memorial Junior High in Lansing, Illinois. For 
years, Lansing was a solid blue collar middle class suburb, 
many of whose residents worked in the area steel mills. With 
the decline of area manufacturing jobs, we have seen an 
increase in the number of students from low-income families.
    Four years ago, our student enrollment was approximately 
700, but rapid and significant increases have resulted in a 
current enrollment approaching 950. As a result, we have faced 
problems of overcrowding and outdated school facilities. In my 
experience, and the experience of my colleagues, school 
modernization enhances student learning in many ways.
    For example, it addresses concerns for overcrowding. It 
allows educators to plan an environment more conducive to 
curriculum integration, engaged learning, and technology 
integration, builds the infrastructure to support and meet the 
demands of modern technology, addresses safety and 
environmental concerns brought about from aging structures 
which used unsafe materials, such as asbestos, improves student 
and staff morale by establishing learning communities instead 
of isolated classrooms in a long hallway, adds to property 
values, thereby improving the community, improves the offering 
of extra curricular activities for students, giving them a 
constructive avenue for learning through teaming and physical 
accomplishments, improves the environment for offering after-
school learning activities to meet the needs of the community, 
such as tutoring services and clubs.
    I have seen these principles at work in my school. The 
original section of our building was built in 1945, and there 
were three subsequent additions. The age and condition of the 
building presented our teachers with many challenges.
    While the district was able to purchase new technology with 
grant money, it was difficult to use three computers, a 
printer, and a television hook-up for demonstration with only 
two outlets in each classroom. Our school board, anticipating 
an increase in enrollment and considering the limitations of 
the building, decided to build a new facility. The building is 
being constructed in phases with the sixth grade wing being 
completed in December 2006, and the seventh and eighth grades 
expected to be completed this year.
    Our enrollment increased so rapidly that the district had 
to hire seven additional teachers before any of the new rooms 
were ready. This meant the teachers had to travel from one room 
to another rather than having their own space.
    Our average sixth grade class size in 2006 was 36.3. In 
2007 it was 29.7, and this year we are back above 30. Had we 
not built the new building with the additional classrooms, our 
average class size would now be 39 students.
    We have seen an immediate, positive impact now that our 
sixth graders have moved to the new building. Hallways in the 
old building were so narrow and crowded that it was difficult 
to navigate from one classroom to another, especially if you 
were a tiny sixth grader trying to get through the eighth 
graders.
    There were frequent fights as students pushed and shoved or 
accidentally bumped into each other and tempers flared. 
Teachers often could not see incidents where adult intervention 
may have prevented bullying or harassment.
    In the new building, there is ample room for students to 
move freely, and teachers can more easily supervise behavior. 
The new classrooms have great lighting, new furniture, white 
boards, sufficient outlets spaced so that teachers and staff 
are not tripping over multiple extension cords.
    Our old building had carpeting in the special education 
classrooms, and the sewers had backed up numerous times 
flooding those rooms. Many of our students and staff have 
asthma and allergies that were exacerbated by the conditions in 
those classrooms. They are all breathing easier in the new 
building.
    As we walk from the old building into the new building it 
is like walking from a cave into sunlight. Adults and children 
alike have commented on how stressful it feels in the old 
building and how calm and safe it feels in the new one. We are 
fortunate to have these new facilities available to us, but so 
many schools across the nation are not so lucky.
    My written testimony outlines the national problem we are 
facing in ensuring safe, modern school facilities for every 
child, which my personal experiences clearly illustrate the 
necessity for. Simply put, America's schools are in desperate 
need of repair and renovation. And the research is clear. 
School conditions impact student learning.
    Ensuring all of our nation's students access to safe, 
modern schools that are not overcrowded requires a significant 
federal investment. Federal assistance is particularly needed 
to ensure targeting of resources to communities with the 
greatest needs.
    NEA strongly urges Congress to help meet these needs by 
creating a federal school renovation grant program targeted to 
communities that have struggled to fund needed repairs. We 
support the Public School Repair and Renovation Act introduced 
by Representative Loebsack and Senator Harkin and the 21st 
Century High-Performing Public School Facilities Act introduced 
by Representative Chandler. We also support legislation to 
provide tax credits for bonds for school modernization and new 
construction projects nationwide such as the America's Better 
Classroom Act introduced by House Ways and Means Committee 
Chairman Rangel, and Representatives Ramstad and Etheridge.
    And we support the School Building Enhancement Act 
introduced by Representative Holt. This bill would authorize 
grants to help schools become more energy efficient.
    Thank you for the opportunity to speak with you today. I 
would be happy to answer any questions.
    [The statement of Ms. Caddick follows:]

Prepared Statement of Judi Caddick, on Behalf of the National Education 
                              Association

    Chairman Miller and Members of the Committee: Thank you for the 
opportunity to speak with you today about the urgent need to address 
our nation's public school infrastructure.
    I began my teaching career 19 years ago and I have spent the last 
17 years teaching math to sixth, seventh, and eighth graders at 
Memorial Junior High in Lansing, Illinois. Lansing is located just 
south of Chicago on the Indiana border. For years, Lansing was a solid 
blue collar middle class suburb, many of whose residents worked in the 
area steel mills. With the decline of area manufacturing jobs, we have 
seen an increase in the number of students from low income families.
    Four years ago, our student enrollment was approximately 700, but 
rapid and significant increases have resulted in a current enrollment 
approaching 950. As a result, we have faced problems of overcrowding 
and outdated school facilities.
    I would like to focus my testimony today on my first-hand 
impressions of the impact of school conditions on teaching and learning 
in my community. In my experience, and the experience of my colleagues, 
school modernization enhances student learning in many ways. For 
example, it:
    <bullet> Addresses concerns for overcrowding--something we have 
seen in Lansing as our enrollments have grown.
    <bullet> Allows educators to plan an environment that is more 
conducive to curriculum integration, engaged learning, and technology 
integration.
    <bullet> Builds the infrastructure to support and meet the demands 
of modern technology.
    <bullet> Addresses safety and environmental concerns brought about 
from aging structures which used unsafe materials, such as asbestos.
    <bullet> Improves student and staff morale by establishing learning 
communities instead of isolated classrooms in a long hallway.
    <bullet> Enhances the inclusion of new cutting edge technology.
    <bullet> Adds to property values, thereby improving the community. 
However, without federal and state dollars, the tax burden is placed 
squarely on homeowners, many of whom are senior citizens on fixed 
incomes.
    <bullet> Enhances the school as a community center.
    <bullet> Improves the offering of extra curricular activities for 
students, giving them a constructive avenue for learning through 
teaming and physical accomplishments.
    <bullet> Improves the environment for offering after-school 
learning activities to meet the needs of the community, such as 
tutoring services, clubs, etc.
    I have seen these principles at work in my school. The original 
section of our building was built in 1945 and there were three 
subsequent additions. The age and the condition of the building 
presented our teachers with many challenges. While the district was 
able to purchase new technology with grant money, it was difficult to 
use three computers, a printer, and a television hook-up for 
demonstration with only two outlets in each classroom.
    Our school board, anticipating an increase in enrollment and 
considering the limitations of the building, decided to build a new 
facility. The building is being constructed in phases with the sixth 
grade wing being completed in December 2006, and seventh grade and 
eighth grades expected to be completed this year. The final phase is to 
be completed by September 2009 and will include a second gymnasium, new 
music room, and office space for our administrators.
    Our enrollment increased so rapidly that the district had to hire 
seven additional teachers before any of the new rooms were ready. This 
meant the teachers had to travel from room to room rather than have 
their own space. Our average sixth grade class size in 2006 was 36.3, 
in 2007 it was 29.7 and this year we are back above 30. Had we not 
built the new building with the additional classrooms, our class size 
average would now be 39 students.
    We have seen an immediate, positive impact now that our sixth 
graders have moved to the new building. Our students are amazed at 
their new school building. Hallways in the old building were so narrow 
and crowded that it was difficult to navigate from one classroom to 
another, especially if you were a tiny sixth grader trying to get 
through the eighth graders. There were frequent fights as students 
pushed and shoved or accidentally bumped into each other and tempers 
flared. Teachers often could not see incidents where adult intervention 
may have prevented bullying or harassment.
    In the new building, there is ample room for students to move 
freely and teachers can more easily supervise behavior. The new 
classrooms have great lighting, new furniture, white boards, and 
sufficient outlets placed so that teachers and staff are not tripping 
over multiple extension cords. It is so nice not to have to unplug the 
television where the PowerPoint presentation is displayed so that you 
can plug in a second computer for a student.
    Our old building had carpeting in the special education classrooms 
and the sewers had backed up numerous times, flooding those rooms. Even 
though our custodians cleaned the carpets as best they could, on hot 
days in September the odor was unmistakable. Many of our students and 
staff have asthma and allergies that were exacerbated by the conditions 
in those classrooms. They are all breathing easier in the new building.
    As we walk from the old building into the new building it is like 
walking from a cave into sunlight. Adults and children alike have 
commented on how stressful it feels in the old building and how calm 
and safe it feels in the new one.
    We are fortunate to have these new facilities available to us, but 
so many schools across the nation are not so lucky.
A Nationwide Problem
    My personal experiences clearly illustrate the necessity for 
meaningful federal assistance for school construction and 
modernization. This need reaches far beyond Illinois. It is a 
nationwide problem that demands nationwide attention.
    America's schools are in desperate need of repair and renovation. 
Across the country, students learn in overcrowded classrooms with 
peeling paint, leaking roofs, and faulty wiring. Some schools hold 
classes in ``temporary'' trailers, converted closets, and hallways. In 
fact, the Modular Building Institute estimated in 2003 that more than 
220,000 portable classrooms were in use by public school systems in the 
United States.
    Too many students attend schools that lack basic electrical and 
telecommunications equipment necessary for connection to the Internet 
or the use of new education technologies. Students attending public 
schools in less than adequate condition face not only direct impacts on 
their academic achievement, but also significant dangers to their 
personal health and safety.
    According to the National Clearinghouse for Educational Facilities, 
in 1998, the average public school building in the United States was 42 
years old. The mean age ranged from 46 years in the Northeast and 
Central states to 37 years in the Southeast. About one-fourth (28 
percent) of all public schools were built before 1950, and 45 percent 
of all public schools were built between 1950 and 1969. Seventeen 
percent of public schools were built between 1970 and 1984, and 10 
percent were built after 1985.
Impact on Student Achievement
    My personal experiences regarding the impact of school conditions 
on student learning are backed up by a growing body of research 
supporting the relationship between the condition of a school's 
facilities and student achievement.
    <bullet> A recent study (The Walls Speak: The Interplay of Quality 
Facilities, School Climate, and Student Achievement, 2006) found a 
positive correlation between a school facility's condition, school 
climate, and student achievement.
    <bullet> Another study (The Impact of School Environments, 2005) 
analyzed 25 years of research and found that the majority supported the 
relationship between school quality and student performance. 
Conversely, a study of Houston schools (The Wise Man Builds His House 
Upon the Rock, 2004) demonstrated how poor school conditions related to 
poor school performance.
    <bullet> A 1996 study by the Virginia Polytechnic Institute and 
State University found a significant difference in academic achievement 
between students in substandard classrooms and demographically similar 
children in a first-class learning environment.
    <bullet> Similarly, a 1995 study of North Dakota high schools found 
a positive correlation between school condition and both student 
achievement and student behavior. A 1995 study of overcrowded schools 
in New York City found students in such schools scored significantly 
lower on both mathematics and reading exams than did similar students 
in underutilized schools.
Modern Schools for the 21st Century
    Educational technology is a crucial element of a quality education. 
Technology in the classroom both enhances the educational experience 
and prepares students for employment in an economy growing increasingly 
dependent on technology. In the classroom, students who have daily 
access to cutting-edge technology perform better academically. Studies 
have found students who use technology in the classroom show more 
enthusiasm, have higher attendance rates, develop better writing 
skills, and display a greater capacity to communicate effectively about 
complex problems.
    Unfortunately, inadequate infrastructure limits access to classroom 
technology in many areas. The average school building in America was 
designed and built for a pre-technology era. Many schools are not ready 
to accommodate either basic connections to the Internet or the wider 
range of exciting educational technologies.
School Modernization and ``Green Schools''
    Modernizing our nation's schools is also critical to ensure 
students and educators a healthy environment. Twenty percent of the 
American population spends their days in school buildings, and one 
quarter of these students and school staff attend schools that are 
considered substandard or dangerous to occupant health.
    Every child and school staff person has the right to a school with 
healthy air to breath and conditions that foster learning. ``Green 
schools'' create a safe and healthy environment that is conducive to 
teaching and learning while saving energy, resources and money. 
Specifically, such schools provide an environment that has:
    <bullet> Superior indoor air quality
    <bullet> Superior acoustics
    <bullet> Daylight and views
    <bullet> Thermal comfort (temperature and humidity)
    <bullet> Mold prevention
    Studies demonstrate that green schools directly benefit student 
health and performance. These studies show that:
    <bullet> Daylight improves performance
    <bullet> Good indoor air quality improves health
    <bullet> Acoustics increase learning potential
    <bullet> Mold prevention decreases asthma incidences (asthma is the 
number one cause of school absenteeism due to a chronic illness)
    <bullet> Comfortable indoor temperatures increase occupant 
satisfaction
    Green schools serve to engage and inspire students and can be used 
as interactive teaching tools. For example, alternative energy sources 
such as solar panel roofs can be studied, organic vegetables can be 
grown and eaten at lunch, and ecosystems can be studied in constructed 
wetlands. Green schools also increase staff satisfaction, and they 
commonly report reductions in teacher absenteeism and turnover.
    If all new school construction and renovation used the ``green'' 
approach starting today, energy savings alone would total $20 billion 
over the next 10 years.
The Need for Federal Assistance
    Ensuring all of our nation's students access to safe, modern 
schools that are not overcrowded requires a significant federal 
investment. Although school construction is, and will remain, primarily 
a state and local responsibility, states and school districts cannot 
meet the current urgent needs without federal assistance. In 1995, the 
General Accounting Office estimated that just repairing existing school 
facilities would cost $112 billion.
    NEA's May 2000 report ``Modernizing Our Schools: What Will It 
Cost?'' estimated the nationwide cost of repairing, renovating, or 
building school facilities and installing modern educational technology 
at $322 billion--nearly three times previous government estimates, and 
roughly ten times what states currently spend.
    Federal assistance is particularly needed to ensure targeting of 
resources to communities with the greatest needs. The distribution of 
recent state and local investments has been overwhelmingly slanted to 
the most affluent communities, which are better able to fund new 
investments without outside assistance. A 2006 study released by the 
Building Educational Success Together (BEST) coalition found that the 
quality of children's schools is dependent upon their racial or ethnic 
background and whether they live in a rich or poor neighborhood. Local 
spending on school facilities in affluent communities is almost twice 
as high as in our most disadvantaged communities, as measured on a per-
pupil basis. The report also found that school districts with 
predominantly Caucasian enrollment benefited from about $2,000 more per 
student in school repair and construction spending than predominantly 
minority districts.
    NEA strongly urges Congress to help meet these needs by creating a 
federal school renovation grant program targeted to communities that 
have struggled to fund needed repairs. Specifically, NEA supports the 
Public School Repair and Renovation Act (H.R. 3902/ S.1492), introduced 
by Representative Loebsack and Senator Harkin. Under this legislation, 
states would receive funding based on their Title I allocation for 
grants to poor and rural school districts. States would have the 
discretion to require matching funds from the local district, bringing 
the potential funding to much more than the $1.6 billion federal 
investment.
    The Public School Repair and Renovation Act builds on the highly 
successful Emergency School Repair program Congress authorized and 
funded in 2000. This very effective program provided grants to states 
and local school districts to make emergency school repairs. The 
program, which funded $1 billion in repairs, was an excellent example 
of an appropriate federal-state partnership to renovate and repair 
schools.
    NEA also supports the 21st Century High-Performing Public School 
Facilities Act (H.R. 3021), introduced by Representative Chandler. This 
bill would require the Secretary of Education to make grants to school 
districts for the construction, modernization, or repair of 
kindergarten, elementary, or secondary schools to make them safe, 
healthy, high-performing, and technologically up-to-date. The bill 
would give priority to districts serving a high number or percentage of 
disadvantaged children and those whose public schools are in relatively 
poor condition.
    In addition to grant programs, NEA strongly supports legislation to 
provide tax credits for bonds for school modernization and new 
construction projects nationwide. The America's Better Classroom Act 
(H.R. 2470/ S. 912), introduced by House Ways and Means Committee 
Chairman Rangel, and Representatives Ramstad, and Etheridge, has 
received broad bipartisan support in the House over the last three 
Congresses and currently has 217 House cosponsors. The bill would 
provide for the issuance of more than $25 billion in such bonds. Under 
the bill, the federal government would provide tax credits to bond 
holders in lieu of interest payments, and the state or school district 
would only be responsible for repaying the principal. This would save 
millions of dollars in interest payments for states and districts and 
help communities stretch limited resources to pay for additional school 
facility projects and essential education programs.
    The America's Better Classrooms Act provides support for the 
building of new schools in America's urban, rural and suburban schools, 
and the renovation and repair of existing schools through the expansion 
of the Qualified Zone Academy Bond Program (QZAB). The small but well-
utilized QZAB program is another example of an effective federal 
program providing federal support for local school facility repair and 
renovation programs. Since the QZAB program was authorized in 1997, 
school districts across the country have used the bonds to renovate and 
repair schools to create new and innovative school educational centers 
at a minimal cost to the U.S. Treasury.
    We also support the School Building Enhancement Act (H.R.3197), 
introduced by Representative Holt. This bill would authorize grants to 
help schools become more energy efficient.
    Finally, NEA would support a proposal to amend the federal 
rehabilitation tax credit program to create a level playing field for 
rehabilitation/modernization projects for aging public schools. Under 
current law, an owner who wants to rehabilitate/modernize an older 
building can have such projects qualify for federal tax credits equal 
to 20 percent of the costs. With just a small change to the existing 
program, this program could apply to public school renovations. Under 
such a proposal, local governments would then be able to enter into a 
sale/leaseback arrangement with private developers on public school 
renovation projects using these federal tax credits.
    Thank you for the opportunity to provide this testimony. I urge 
Congress to act quickly to authorize school modernization programs that 
will help ensure every student in our nation the safe, modern learning 
environment so integral to success.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    I want to note that we have been joined by video 
conference, Superintendent Paul Vallas from the Recovery School 
District in New Orleans.
    And, Mr. Vallas, if you can hear me, we are going to hear 
from Ms. Cullinane and Dr. Vincent, and then you will come 
right after Dr. Vincent. So that should be about 10 minutes 
from now.
    Ms. Cullinane?

 STATEMENT OF MARY CULLINANE, DIRECTOR OF THE INNNOVATION AND 
        BUSINESS DEVELOPMENT TEAM, MICROSOFT CORPORATION

    Ms. Cullinane. Chairman Miller, Ranking Member McKeon, 
members of the committee, my name is Mary Cullinane, and I am 
the director of education innovation and business development 
for Microsoft. I also bring the perspective of a former 
teacher, director of technology, and administrator of a high 
school in New Jersey.
    Thank you for the opportunity to testify today regarding 
Microsoft's partnership with the school district of 
Philadelphia on our work to build a school of the future. The 
School of the Future is a unique public/private partnership 
initiated in September of 2003 and based on the question``What 
if?'' What if a committed school district and surrounding 
community, and a leading technology company came together to 
design a high school, one that was scaleable, could be 
replicated nationwide, built and operated on a standard budget 
meeting all state and district requirements?
    There exists today in West Philadelphia a 163,000 square 
foot high school that is gold LEED certified. My written 
testimony details the significant innovations both in the 
planning behind the school as well as the structure and 
environment that resulted from that process.
    We know that learning environments matter. Our attendance 
rate is far superior to the district average, our dropout rates 
lower and our climate safer.
    Yet I should emphasize that from the beginning we never 
focused solely on the structure or the gadgets. With an 
investment like this, too often the focus can be on the allure 
of a new building with shiny windows and the state-of-the-art 
technology, believing that improved education will immediately 
follow. At Microsoft we fundamentally disagree with this 
approach.
    Even in a state-of-the-art building, curriculum drives the 
technology, not the other way around. What we learned from 
building a school of the future is that there is no silver 
bullet to education reform. We learned that only rigorous, 
strategic planning, systematic and sustained community 
involvement, and committed partner engagement will drive 
change.
    So how did we go about building a school of the future? 
First, we determined that our goal, our vision was to build a 
learning environment that was continuous, relevant, and 
adaptive. While these words may sound simplistic, they are of 
tremendous consequence.
    Bringing together community stakeholders, including the 
district, higher education community, local community, and 
civil organizations, students, parents, and representatives 
from local businesses we developed the 6i process. This 
process: introspection, investigation, inclusion, innovation, 
implementation, and then again, introspection guided us through 
the entire development.
    Learning at the School of the Future is continuous. It is 
independent of time and place. Learning at the School of the 
Future is relevant to the students through tools used, content 
provided, and the environment of the school itself. And then 
finally, the learning environment at the school is adaptive.
    The School of the Future is a place that adapts to the 
individual needs of the learner. It is a place that is flexible 
and sustainable.
    As a result, our schedule is unusual, our building very 
different, and our pedagogy unique. Equally important is that 
the school works as an incubator for best practices to make 
this project scalable.
    Allow me to conclude by offering a few of the critical 
lessons and insights we have garnered from this process which 
continue today. First, we must encourage deeper, more sustained 
public/private partnerships. The problems faced by educators 
and learners alike are too big, and the challenges are too many 
to expect school districts themselves to build 21st century 
learning environments on their own.
    Second, we must permit learning communities to innovate. 
True innovators will experience success and failure. We must 
inspire others to do more than they think we can do. And we 
must call on a variety of stakeholders to make this happen.
    Third, we must ensure efforts are undertaken within a 
rigorous planning process with clearly identified critical 
success factors. We must answer essential questions before we 
start to build, and we must continue to reflect on these 
questions. Our schools should never be finished products.
    Is this hard work? Absolutely. But it shouldn't take a 
miracle to build a great school in an urban community. Today's 
children deserve learning communities that are inspirational, 
not just functional. Both governance structures and public 
policy should set high standards but then also provide the 
resources needed to achieve them.
    Members of the committee, I believe we need even more 
inspiration in our schools than already exists. We need to fill 
district offices, hallways, community centers, neighborhoods 
with a sense of hope. We need to communicate a message that we 
understand the challenges, but that we are ready to take them 
on.
    Thank you for the opportunity to testify today. And I look 
forward to answering your questions.
    [The statement of Ms. Cullinane follows:]

  Prepared Statement of Mary Cullinane, Director of the Innovation & 
            Business Development Team, Microsoft Corporation

    Chairman Miller, Ranking Member McKeon, Members of the Committee, 
my name is Mary Cullinane and I am the Director of the Innovation & 
Business Development Team in the Education Solutions Group at Microsoft 
Corporation. Thank you for providing me this opportunity to testify 
today. Prior to coming to Microsoft, I worked at Union Catholic High 
School in New Jersey as a teacher, technology director, and assistant 
principal. From 2003 to 2006, I served as project manager for the 
School of the Future (SOF), which is located in the western section of 
Philadelphia in Fairmount Park and was a joint project of Microsoft 
Corporation and the School District of Philadelphia.
I. The Current Environment
    Before discussing the School of the Future, I believe it would be 
useful to review the current structure of America's education system 
which in many ways still reflects the needs of the 19th century, when 
the vast majority of students left school after eighth grade and the 
`three R's' were adequate for workers to provide for their families. As 
we all know, the knowledge economy has long since supplanted the 
industrial, and though many institutions in our society have adjusted 
rapidly to that change, our educational system--in particular our K-12 
education system--has in some ways lagged far behind.
    A few points for your consideration: today's average U.S. student 
has as many as four or five email accounts and the fastest growing 
segment of computer users in the country are children ages five through 
seven. For these so-called `digital natives,' knowledge is the key 
differentiator--the `three R's' are no longer enough. Though vital, 
they are vastly insufficient to ensure success in our economy and our 
society. The knowledge economy requires employees who can solve 
problems, communicate effectively, and engage in ongoing decision 
making utilizing critical thinking skills and an understanding of 
complex systems. Those requirements, taken with an accelerating rate of 
change, require that we ask, and answer, new and different questions 
about our education system. What are the education requirements for the 
21st century citizen? What has changed? What needs to change? What 
should stay the same? It was in pursuit of answers to these questions 
that Microsoft partnered with the School District of Philadelphia to 
create the School of the Future.
    My testimony today will focus primarily on issues surrounding the 
process by which the school was literally built. A great deal could be 
said about curriculum and teaching practices, and I am happy to respond 
to any questions you may have on those issues, but let me summarize 
that aspect of the school by saying that at the School of the Future, 
curriculum extends beyond content to everything in the school--
organization, schedules, and even the building itself. Most notably, 
the curriculum utilizes a project-based learning model, where learners 
are asked to do more than master core skills. They explore their own 
ideas and are encouraged to raise questions about project topics and 
the best ways to learn about them. In addition, each project is multi-
disciplinary in order to be more relevant to the complex way learning 
happens in everyday life. In this model, educators play a very 
different role, using an individual approach with each child while 
providing support and guidance when it is needed.
            A. Microsoft's Commitment: Partners in Learning Program
    In 2003, Microsoft established a global initiative known as 
Partners in Learning. The goal of this $250 million investment was to 
work with governments and Local Education Authorities (LEA) to identify 
unique educational challenges that could be addressed through 
innovative public/private partnerships.
    Partners in Learning aims to leverage the transformative power of 
software to create innovative educational experiences that better 
connect students and teachers worldwide. Despite real improvements, 
many students and teachers still lack basic access to technology and 
training. The result is a widening skills gap that contributes to 
disparities in quality of life, competitiveness, and economic 
development--an issue this Committee has worked diligently to address.
    Three key programs within Partners in Learning have helped 
educators use technology throughout the learning process in an effort 
to enable students to achieve their learning goals. Partners in 
Learning's Innovative Schools program delivers expert guidance in 
comprehensive school reform and provides a roadmap for technology 
integration to help schools meet their education objectives. The 
Innovative Teachers program is designed to connect a global community 
of educators focused on 21st century learning and to recognize and 
reward their exemplary efforts to prepare students for the future. 
Finally, the Innovative Students program provides affordable, reliable 
software to qualifying governments purchasing Windows-based PCs for 
primary and secondary students' personal use at home. As part of the 
Microsoft Partners in Learning initiative, the School of the Future is 
an important example of our broader corporate commitment to education 
today. By providing tools and support we hope to enable educators and 
schools to deliver on the promise of technology in education.
II. The Evolution of the School of the Future: Planning and Processes
    In 2003, Microsoft was approached by the School District of 
Philadelphia's CEO, Paul Vallas, about the district's desire to build a 
School of the Future. After discussions with district leaders, both 
parties concluded that they could each bring significant value to the 
project, and that the process could yield important outcomes and 
lessons for the district, the children of Philadelphia, and schools 
nationwide. As part of the district's new initiative to reform urban 
high schools, the goal of this project was to build and redefine the 
`norm' for 9-12 urban education based on the recognition that the 
industrial model of education was obsolete. Fundamentally, our hope was 
to create a sustainable and replicable model that drove innovation and 
excellence in the multiple functions within a school, from business and 
administrative processes through the fundamentals of educational 
practices. We did not, however, seek to create a school that would only 
highlight the inadequacies of the current system. We sought to create a 
model process that could be replicated nationwide. With this goal in 
mind, the school operates and was built on a standard budget, and meets 
all state, district, and labor requirements.
    At the core of this initiative lies the belief that by downsizing 
high schools to ideally no more than 800 learners, and by upgrading the 
level of academic support through non-traditional and innovative 
models, students can make greater gains both academically and socially. 
Microsoft requested that the school be a reflection of the population 
served by the School District of Philadelphia. Therefore, all learners 
are selected via the same lottery used for other neighborhood schools 
in the system. If a student's name is submitted and selected, that 
student is able to attend regardless of their academic or disciplinary 
record. Seventy-five percent of SOF students come from the West 
Philadelphia neighborhood and 25% from the district as a whole.
    In defining the scope of the partnership the question was 
immediately raised, ``how much money will Microsoft donate?'' From the 
outset, the development team understood that the value of this endeavor 
relied on the ability of others to replicate our model both in process 
and in outcomes. If Microsoft and our partners simply donated millions 
of dollars, others around the country might view the School of the 
Future as something to which they could only aspire but not achieve 
given resource constraints they might face. We quickly concluded that 
the school's funding needed to flow from the system as it was in 
Philadelphia, and that those funds needed to be designated within the 
district's general school expansion capital plan.
    These resource constraints made the planning process, which I will 
outline shortly, all the more important. They also highlighted for us 
the vital role programs such as the Enhancing Education through 
Technology (EETT or ``E2T2'') play in helping school districts overcome 
the fiscal challenges that stand in the way of creating 21st century 
learning environments. This critical source of federal funding for 
public school technology is one that Microsoft strongly supports.
    Microsoft's primary commitment to the SOF was that of human 
capital. The district had access to Microsoft personnel, as well as 
research in areas such as data integration and management, 
collaboration and communication, streaming media, organizational 
efficiency, and leadership development. By sharing our best practices 
and providing insight and access to internal Microsoft resources we 
developed a framework for others to follow.
            A. School of the Future Development Team
    The first critical step was to identify individuals who would be 
part of the planning and execution process. This included 
representatives from the higher education community, the school 
district, Microsoft staff, local community and business leaders, 
students and educators. An international advisory board was also 
established to provide global relevance and input to the project.
            B. The ``6i'' Development Process
    Building the School of the Future required a process that would 
guide the development team and provide a rigorous framework for 
decision making. From this, the `6i' development process was born.
    The `6i' development process is the term used to describe the 
methodology the SOF development team utilized throughout what were six 
major stages of the project. In our view, the `6i' development process 
is a useful organizational tool that policymakers at all levels can 
utilize as they seek to create learning environments appropriate to 
their circumstances and those of their students and educators in their 
constituencies.
    1. The first stage of the development process was introspection. At 
the outset, our development team dealt with issues such as pedagogy, 
culture, project benchmarks, and overall success metrics. The 
introspection process demanded rigorous and objective self-analysis and 
was directed primarily toward identifying existing assets that could be 
leveraged by the development team as well as future resources and other 
requirements.
    2. Next was investigation. This stage was characterized by wide 
ranging research and consultation. During this phase of the SOF's 
development, the development team researched and identified best 
practices across a range of issues identified during the introspection 
process in addition to exploring innovations within other educational 
models. This process was led by an advisory council of education 
experts--including international thought leaders--who were tasked with 
reviewing and validating strategies and key decisions.
    3. The third stage was inclusion. This critical component of the 
SOF's creation saw the development team engage community leaders, key 
stakeholders from business, government, and other partners critical to 
the success of the School. As part of this stage, we drafted a 
community inclusion plan spearheaded by five key groups who were tasked 
with nurturing school development and providing organizational support.
    i. School Planning Team: This team, formed as part of a preexisting 
district practice, served as an advocate for various constituencies 
within Philadelphia neighborhoods and helped present the vision and 
approved plans for the school to the community at large.
    ii. Community Advisory Board: This board, comprising key community 
leaders within West Philadelphia, advised the School District of 
Philadelphia and Microsoft. This group augmented the School Planning 
Team's citywide viewpoint by offering a unique perspective that is 
specific to West Philadelphia.
    iii. Curriculum Working Committee: Consisting of education experts 
from the local district and around the world, this committee worked to 
define and develop the school mission in support of district goals, 
drove curriculum development, and ensured that all aspects of the 
school--from professional assets to physical spaces--supported 
curriculum goals.
    iv. District Planning Team: Made up of Cabinet-level district 
officials, this team set policy and actively governed the 
implementation of school development--including budget allocations and 
final design plan recommendations--while also serving as a liaison to 
the School Reform Commission and Pennsylvania's Department of 
Education.
    v. School of the Future Advisory Board: Led by national education 
leaders and organizational experts, this board reviewed and offered 
commentary on strategic plans, provided feedback and insight on design 
and development activities, and worked with community inclusion teams.
    Through ongoing dialogue with these stakeholders, the development 
team sought to drive awareness and understanding in an effort to build 
support for the project and to engage the community in a manner 
designed to ensure sustained involvement in the life of the School.
    4. The fourth stage was innovation. By integrating new ideas into 
every element of the process--from building design and information 
technology architecture to curriculum development and personnel 
selection--the SOF team utilized novel approaches and gained insights 
critical to the fifth stage of the development process, the 
implementation process. One such innovation was the introduction of a 
`competency wheel.' At Microsoft we use a competency wheel to support 
both self-guided professional development and the hiring process. 
Seeing a need for a similar tool in education, we facilitated the 
creation of an education competency wheel.
    Another example of our effort to build innovation into the system 
was in decisions made about the school's Performing Arts Center, or 
Auditorium. Auditoriums, due to their size, are often the most 
expensive and least utilized rooms in a school. The development team 
sought to make the space more conducive to regular use. So, while the 
total capacity of the SOF Performing Arts Center is 450, there are two 
round classrooms that rotate on hydraulics and seat approximately 100 
individuals each. These provide great flexibility to the space, 
allowing for multiple settings depending on the desired learning 
environment.
    5. Fifth was implementation: Using the first four stages of the 
development process, the team oversaw the implementation process 
including actual construction of the building, the training of selected 
educators and other personnel, and the build-out of the school's 
technical architecture. With the addition of a 2nd class in September 
2007, another wave of implementation was tackled as new learners and 
educators joined the community.
    6. Last, we return once again to introspection. The development 
team assessed and reviewed outcomes and formally created a plan to 
reflect on the execution and ongoing implementation of the overall 
strategy. A summit was held after the first year of the school's 
operation to review successes and opportunities. This ongoing process 
is designed to ensure that the school continues to evolve to meet the 
changing needs of its population.
            C. Critical Success Factors
    As a result of the work within the `6i' process the group 
identified and developed what we termed `Critical Success Factors.' 
Critical success factors refer to a short list of clearly defined and 
agreed upon criteria that would be used to drive resource allocation 
decisions. Over the course of a two month planning process, the 
development team sought to create a common language--an agreed upon set 
of definitions for each critical success factor in order to ensure 
clarity and so that rigorous and effective SWOT (Strength--Weakness--
Opportunity--Threat ) analysis could be undertaken during all phases of 
the process. The SOF development team identified five critical success 
factors.
              1. involved and connected learning community
    A learning community that is involved and connected acknowledges 
that all stakeholders--students, parents, community organizations, 
higher education, businesses, and others--must participate if we are to 
succeed. The learning community is a dynamic, vibrant society that 
incorporates and represents the voices of all constituents. Multiple 
means for communicating, sharing information, and soliciting input must 
be established. Digital tools and electronic and print media must 
support inclusion, eliminating language and socioeconomic barriers. 
Finally, the learning community must provide opportunities that promote 
learning as a lifelong process.
          2. proficient and inviting curriculum-driven setting
    The physical setting must support and be conducive to the 
continuous and changing needs of the learning community. The technical 
infrastructure must support current and future wireless and fixed 
technical equipment, and should enable the sharing of all data types. 
All learning spaces must provide the necessary elements that allow for 
instruction and learning at all times, and be mobile and flexible to 
adapt to changes in teaching and learning activities.
            3. flexible and sustainable learning environment
    A truly effective learning environment is one that is fluid and 
responsive to the ever-evolving needs of community members. Such an 
environment is adaptable, differentiated, and student-centered, 
allowing all students to realize their full potential. The learning 
environment must discourage dependency on time and place for 
instructional opportunities and must demonstrate instructional 
relevancy for students. Also, the environment created must be able to 
function independent of changes in faculty and administrative 
personnel.
      4. cross-curriculum integration of research and development
    To ensure a continuously evolving integrated curriculum, the 
professional staff, led by the director of research and innovation, 
must actively incorporate the latest findings in research and 
development from business, technology, and institutions of higher 
learning. In addition, the school must act as a learning laboratory, 
where staff and students can design, carry-out, and evaluate 
appropriate projects to enhance the teaching and learning.
                       5. professional leadership
    Professional leadership for the entire community encompasses the 
abilities to:
    <bullet> Positively impact instruction
    <bullet> Think strategically
    <bullet> Motivate and engage stakeholders
    <bullet> Use technology at every appropriate opportunity
    <bullet> Design professional development to address identified 
needs
    <bullet> Interact with the community
    <bullet> Demonstrate fiscal responsibility
    <bullet> Continuously evaluate and revise instructional programs in 
a collaborative manner
            E. Establishing the Vision for the Learning Environment
    A critical element of the planning process is being able to answer 
a few key questions, in particular, `what are you trying to create and 
who are you creating it for?' By rigorously answering these questions, 
institutions gain a greater opportunity to build learning environments 
that truly support the needs of students in the 21st century. After 
going through our introspection and investigation stages, we were 
determined to create a learning environment that was:
    <bullet> Continuous
    <bullet> Relevant
    <bullet> Adaptive
    These are the core principles, the `non-negotiables,' established 
for the project and the principles that drove all resource allocation 
decisions. Countless hours were dedicated to discussions surrounding 
this vision and during the three years leading up to the school's 
opening and since, this concept has proven a powerful tool in 
responding to suggestions that deviate from the original vision.
                             1. continuous
    Teaching should not be limited to the classroom alone. SOF is an 
environment powered by 1:1 access to the tools of the digital age to 
nurture anytime, anywhere learning. For example there was significant 
conversation during the construction process around whether to extend 
the wireless signal to the outdoor amphitheatre. Many thought the 
security issues were too great. However the decision was made that in 
order to maintain the `continuous' learning environment--learners 
should be able to walk outside the physical building and continue their 
work. 2. Relevant Learners are inspired by the connections they make 
between curriculum and the real world, so the SOF leverages community 
interaction and the latest instructional tools to increase relevance. 
One such example occurred in 2007 when a group of learners participated 
in a project at the Belmont Mansion, a local historical site that was a 
stop on the Underground Railroad, and created the content for public 
tours. This experience integrated national and local history, research, 
writing, presentation, and technology skills. 3. Adaptive Individual 
students learn in individual ways. The SOF is not a one-size-fits-all 
offering. Instead, we use technology and adaptive instructional models 
to effectively meet the needs of every learner. III. Building the 
Learning Environment: Constructing the School The 160,000 square-foot 
School of the Future is designated as a 9-12 high school for 800 
students. The building includes twenty general classrooms, five science 
rooms, art and music rooms, a fitness center, two gymnasiums, an 
Interactive Learning Center (media center), food court, special 
education spaces, and a Performing Arts Center (auditorium). The 
building and gathering areas are designed to promote interaction among 
students in on open, less rigid environment. Site orientation has 
proven to be a significant factor in the success of the School of the 
Future. Three major components were considered when deciding on 
location:
    <bullet> Relation to urban/community features
    <bullet> Integration into Fairmount Park/Centennial District Master 
Plan
    <bullet> Sustainability
            A. Sustainable Architecture
    Through energy and day light modeling, the School of the Future is 
sited to optimize daylight, energy use, mitigate the urban heat-island 
effect, and to ensure optimization of HVAC systems. These features, 
along with the thoughtful use of water through the use of Green Roof 
and a rain water catchment system, help to reduce the building's impact 
on the environment and infrastructure of Philadelphia, and help to 
create a learning environment that promotes attendance and enhances 
student performance.
    The school is LEED Gold Certified--Pennsylvania's first such high 
performing high school. The SOF received Gold LEED certification for 
the many green components incorporated into its design which over the 
life of the building are expected to save over $10M.\1\ Notable 
features include:
---------------------------------------------------------------------------
    \1\ See Appendix A for photographic examples of the SOF's 
architectural features.
---------------------------------------------------------------------------
    <bullet> Green Roof over the Performing Arts Center which reduces 
the energy needed to cool the space
    <bullet> Regulation of specific airflow and natural light in all 
spaces
    <bullet> A water system used to gather rain water for use in 
restroom toilets which in conjunction with high efficiency or no-flush 
fixtures reduce water use by as much 80%
    <bullet> Ice-cooling air conditioning system that cools air during 
non-peak hours and then makes it available during the school day
    <bullet> Photovoltaic window panels that gather sunlight and 
convert it into electricity usage for the school
    <bullet> Constructed wetlands designed to eliminate contaminant 
run-off from the school grounds
            B. Information Technology Architecture
    Early on we decided that the School must be focused on teaching and 
learning, not technology for its own sake. Although technology plays a 
critical role in the creation of a 21st century learning environment, 
the development team sought to ensure that technology deployments 
adhered to the vision of a continuous, relevant, and adaptive learning 
environment. That belief guided decisions on issues ranging from 
Internet access to security. The School of the Future was not conceived 
as a `Microsoft-centric' institution. Rather, the IT architecture was 
built to create a system that was as fully integrative as possible with 
the District's legacy systems so as to ensure that the core mission--
creating a continuous, relevant, and adaptive learning environment--
could be achieved.
    The School of the Future features a collection of interconnected e-
systems and Web-enabled services to facilitate student records, 
classroom management, electronic curriculum, procurement, environmental 
management, parental portals, and more. All these new systems required 
integration with key existing legacy systems that were often archaic. 
The lack of an effective data warehousing repository, the use of 
ineffective and `closed' database platforms, problems with database 
connectivity and data cleansing, and district-wide difficulties with 
data entry and ownership made the insertion of new technologies at 
times very difficult.
    When the technology services team at the School District of 
Philadelphia first set out to imagine, concept, and specify the School 
of the Future's IT infrastructure, they knew it would need to be 
`future-proof.' Imagining new technologies and how those technologies 
will be used in the future is a challenge shaped more by the unknown, 
making a focus on flexibility essential. Engineers and educators alike 
recognized they were designing a school that would open in 2006--but 
one that would need to be ready for 2016. The team effectively needed 
to plan 10 years into the future of networking and computing. At the 
same time, the team also realized that the school could not exist in a 
vacuum. The technologies at work in the School of the Future would have 
to align with standards established for all new schools in the district 
if they were to realize the vision of testing and evaluating new ideas 
in the new school so that other districts would replicate them. 
Moreover, the technologies would need to successfully interface with 
legacy systems at the district level. The team focused on keeping 
maintenance, support, and daily operational costs in check wherever 
possible. At the same time, the team carefully inserted `next-
generation' systems and infrastructure into the existing technology 
environments.
    The design and deployment of IT infrastructure needed to occur 
collaboratively alongside the design and construction of the building 
itself. To that end, the technology services team worked closely with 
the architects commissioned to build the School of the Future, 
exchanging ideas and understanding the implications of each group's 
design solutions. However, architectural sketches and drawings don't 
reveal the intricacies of the building until the school is actually 
constructed. So, although technical infrastructure and building 
architecture are ideally planned collaboratively and concurrently, the 
IT team was tasked with the significant challenge of imagining a fully 
finished building while still in the planning stages.
    The first meeting of the technology services team was a two hour 
brainstorm culminating in a wish list of 100 items for the School of 
the Future. During the next meeting, the team anticipated cost concerns 
and set out to trim any nonessential items from the wish list. Over the 
next few months, as the realities of budget constraints became more 
clear, the team weighed the complexities of up-front costs and long-
term operational costs--an exercise that forced them to focus on 
elements of the IT infrastructure that were vital to their vision. As 
with any other school, the technology team found themselves competing 
with advocates for other interests--from athletic facilities to 
landscape architecture to kitchen and dining areas. Given the 
inevitable budget constraints, the central challenge was not protecting 
their interests as technologists but understanding and communicating 
how each attribute of their technology plan aligned with the core 
functionalities of the school (instructional, operational, and 
environmental). In the beginning, there was a blurry line between what 
the team wanted and what the team needed. In the end, the budget helped 
them focus more clearly on the components of the infrastructure that 
are essential to the mission of the school.
IV. Lessons Learned
    Lessons large and small were, and continue to be learned as the 
School of the Future unfolds. As I mentioned earlier, we are in a near 
constant process of assessment and evaluation. It is through this 
process that we hope to engage all stakeholders--in particular parents, 
educators, and policymakers--in an ongoing but actionable dialogue 
about how to provide the learning environment most beneficial to 
students. Each of the many lessons we learned were important and 
continue to shape the work being done at the school, but I would like 
to highlight several points that I think can help you as you seek to 
drive change and innovation in learning environments across our nation.
            Our current systems do not support innovation
    To create truly innovative learning environments that will support 
learning in the 21st century, greater support, resources, flexibility, 
and vision must be provided to districts.
    Imagine if, in our schools, innovation was swimming downstream. 
Imagine how much further we could travel and how much faster we could 
get there. Unfortunately, in urban education, this is far from the 
case. In urban education, innovation is swimming upstream, encountering 
tides of policy and practice that slow its pace and prevent it from 
moving forward. And for those taking the trip: swimming upstream is 
tiring. In the past, the Federal Government has provided support for 
basic infrastructure through, for example, the `e-rate' and the E2T2 
programs and by other means. These programs have proven critical to 
ensuring our schools are able to at least access the power of 
technology. But, as I mentioned earlier, technology for its own sake 
misses the point. The Federal government should now seek to build on 
the success of basic infrastructure programs to drive support for 
innovative learning models so that the true power of technology can be 
leveraged by students and educators. We remain strong supporters of the 
E2T2 program, but we believe by supporting greater risk taking and 
innovation in school reform initiatives, the Federal Government can 
help school districts drive change on every level--from architecture to 
curriculum.
            True reform takes time
    Constructing new buildings, providing technology, creating new 
visions, and sticking to a rigorous process, are activities that alone 
will never ensure success or provide true transformation. For such an 
outcome to occur, communities and government organizations must 
recognize such reform will not happen overnight. The learners attending 
the School of the Future have had eight previous years of a different 
learning environment, to expect immediate change after a foundation of 
challenge is not realistic and we must set expectations and create 
systems that will support long term outcomes rather than short term 
gains.
    Learning communities must consist of the ENTIRE community in 
substantive ways.
    When building new learning environments we must encourage 
organizations to reach outside of their immediate systems and include a 
variety of stakeholders in the design, implementation, and day-to-day 
activities in order for reform and growth to be significant and 
sustainable.
    We at Microsoft are committed to the school's success. But our hope 
was to create something that could truly drive change and innovation in 
the way we educate all of our children, not just the 800 learners 
fortunate enough to be selected for the School of the Future via 
lottery. Early on we determined that part of our success measurement 
would revolve around the extent we were able to ensure that the lessons 
we learned were available to educators worldwide. Since our goal was to 
create a new norm for high school education, we have sought to provide 
tools and resources that schools and school districts nationwide and 
indeed globally, can utilize so that similar initiatives can be 
undertaken elsewhere. This effort is well underway and is detailed on 
our website www.microsoft.com/education/sof, but let me highlight some 
of the specific resources available to educators across the country and 
around the globe. They include:
    <bullet> So-called `Discovery briefs' that detail the 6i strategic 
planning process, our approach to building design, and to curriculum 
formulation
    <bullet> Training videos on the 6i development process and 
education competency wheel
    <bullet> A documentary and resource kit showcasing multiple 
perspectives on the School of the Future
    <bullet> Information about quarterly briefings at which educators 
can participate in interactive workshops regarding the creation of the 
SOF
    <bullet> A worldwide initiative, the Innovative Schools Program, 
which uses the School of the Future approach and aims to create 12 
regional examples of the best in schooling
    These are but of few of the ways the lessons we continue to learn 
from the School are being shared and members of the Microsoft team 
would be pleased to provide additional information.
V. Conclusion
    Building the SOF brought many challenges; some more significant 
than others. At critical points our ability to not only identify the 
person who could remove the obstacle, but also have a pre-existing 
relationship with them, was essential. I can't imagine what I would 
have done without the support and responsiveness of district leaders. 
It shouldn't take a miracle to build a great school in an urban 
community. It should not be an exhausting experience, leaving 
participants tired and frustrated. We need more agile learning 
organizations. We need to determine the correct balance between control 
and creativity. We need to create an environment that is inspirational, 
not just functional. We need governance structures and public policy 
that set high standards, but also provides the resources to achieve 
them. Chairman Miller, Ranking Member McKeon and Members of this 
Committee, I believe we need even more inspiration in our schools than 
already exists. We need to fill district offices, hallways, community 
centers, and neighborhoods with a sense of hope. We need to communicate 
a message that we not only understand the challenges, but that we are 
ready to take them on.
    Thank you for the opportunity to testify today. I look forward to 
answering your questions.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Dr. Vincent, welcome.

 STATEMENT OF PAULA VINCENT, SUPERINTENDENT OF SCHOOLS, CLEAR 
                        CREEK AMANA CSD

    Ms. Vincent. Chairman Miller, Ranking Member McKeon, and 
members of the committee, I am Paula Vincent, superintendent of 
schools in Clear Creek Amana, Iowa. Thank you for the 
opportunity to comment today on the experience at our school 
district and the experiences we have had with a small amount of 
federal dollars supporting our infrastructure improvements.
    We are a school district of just under 1,450 students, 
although I would say in Iowa we are about the same size or 
larger than a majority of the districts in our state. Federal 
support for school infrastructure projects has impacted our 
communities in several noteworthy ways. I would like to visit 
with you this morning about three of those that I think are 
most significant.
    These areas are public support for education, student 
achievement, and energy conservation. I will begin with the 
impact that federal support has had on the public in our area 
with regard to support for our public schools.
    We were fortunate in 2006 to receive what we fondly refer 
to as one of the Iowa demonstration construction grants. This 
grant was for $.5 million. It was a program that was proposed 
by Senator Tom Harkin of Iowa and began in 1998.
    Subsequently Congress authorized allocations annually with 
the final grant period ending in 2008. The purpose of this 
grant program was twofold. One was to help school districts 
with fire safety improvement and the other to help schools 
leverage local dollars to construct new schools or to modernize 
existing buildings.
    The Iowa Department of Education administered this 
competitive grant process and required a 75 percent local 
match. We believe the modest $.5 million from the Harkin grant 
was extremely helpful to our district in passing a $25.5 
million bond issue.
    Not only did we pass this issue the first time out, but we 
had tremendous voter support, breaking our own previous voter 
record. In Iowa this is not a small feat as we are subject to a 
super-majority for any bond referendums and require 60 percent 
approval.
    As we visited with our community following that successful 
bond issue, one of the key factors that came up over and over 
in our conversations was the impact of the federal dollars. And 
we believe this was a critical factor in our success.
    Not only were we able to secure funds to build two new 
schools, but the funding has led to increased partnerships in 
our communities. For example, the city of North Liberty 
provided the land for our new elementary school, provided the 
streets to lead to the new school, and it also brought all of 
the utilities to our school property. They also asked to 
partner with us in shared gym space and provided an additional 
$.5 million for this purpose.
    Likewise, the city of Tiffin and the Iowa Department of 
Transportation are partnering with us to widen the U.S. highway 
that runs in front of our new high school. Using conservative 
estimates, this $.5 million from federal support leveraged an 
additional $28 million in our school district.
    And while we know that having new buildings is an exciting 
thing and these schools are currently under construction in our 
district, what really matters is student achievement. And that 
is the point of my second section of comments.
    A growing body of research has linked student learning and 
their behavior as well as staff morale to the physical 
building. Several studies, which I have included in my written 
comments, would comment that as much as a 14 percent 
improvement in student achievement can occur when you have 
adequate school facilities. I will highlight just a couple of 
those here today.
    A study in the District of Columbia school system found 
when you control for other student factors such as social and 
economic status, students' standardized achievement scores were 
lower in schools with poor building conditions. For example, 
students that had the poorest conditions achieved 6 percent 
below those who were in buildings that had fair conditions, and 
a full 11 percent point difference between poor condition 
schools and those with excellent conditions.
    Another study that I would highlight comes from Georgia, a 
more recent study. And in this study they attributed the 
quality of school design to a 14.2 percent percentile 
difference on the Iowa test of basic skills. These are 
certainly incredible changes in achievement and worthy of our 
attention.
    Not only do we have studies that support the role of 
quality facilities on buildings and student achievement, but 
also on teaching. Many of you would be aware that the teacher 
is the most significant factor in student achievement outside 
of home factors.
    And, in fact, in one study that I will highlight, 
researcher Jerry Lowe interviewed state teachers of the year to 
determine which aspect of the physical environment affected 
teaching the most. These teachers pointed to the availability 
and quality of classroom equipment and furnishings as well as 
ambient features such as climate control, acoustics as the most 
important environmental factors affecting their teaching.
    Chairman Miller. Dr. Vincent, I am going to ask you if you 
could wrap up, please.
    Ms. Vincent. Thank you. In summary, I would just like to 
comment that modest amounts of federal dollars can lead to 
tremendous impacts and partnerships with communities, can build 
environments that our students can achieve in, and can bring 
factors of energy conservation to our schools, which are direly 
needed.
    We have experienced a significant benefit in Iowa, and we 
have every reason that our nation's schools can receive the 
same benefit from modest federal investment. Thank you for the 
opportunity to comment today.
    [The statement of Ms. Vincent follows:]

   Prepared Statement of Paula J. Vincent, Ph.D., Superintendent of 
                     Schools, Clear Creek Amana CSD

A View from a Rural Iowa School District
    Honorable Chairman Miller and Committee Representatives, I am Paula 
Vincent, Superintendent of the Clear Creek Amana Community School 
District. Thank you for the opportunity to comment on the experience 
our school district has had as a result of receiving federal funds to 
support school infrastructure improvements. We are a small, mostly 
rural, school district of about 1450 students, located in east central 
Iowa. Federal supports for school infrastructure projects have impacted 
our communities in several noteworthy ways. Three areas have had a 
significant effect and are the subject of my remarks today: 1) public 
support for education, 2) student achievement, and 3) energy 
conservation.
Public Support
    I will begin my comments with the impact federal support for school 
facilities has had on public support for education in our district. 
Clear Creek Amana was fortunate to receive one of The Iowa 
Demonstration Construction Grants for $500,000 in 2006. This grant 
program was proposed by Senator Tom Harkin of Iowa in 1998.
    Subsequently, the grant became known as the Harkin Grants with 
Congress authorizing annual allocations of $10,000,000, $9,249,813, 
$9,000,000, $50,000,000, $6,954,499, $6,958,699, and $14,880,000, with 
grant periods running through September 30, 2008. The purpose of this 
grant program was to help school districts correct fire safety problems 
and to help school districts leverage local resources to construct new 
schools or modernize existing buildings. The Iowa Department of 
Education administered this competitive grant process, requiring a 
seventy-five percent local match for any dollars awarded.
    We believe the receipt of the half million dollar Harkin grant was 
helpful to our district in successfully passing a twenty-five and a 
half million dollar general obligation bond referendum to build two new 
schools. In Iowa, school districts must receive a super majority (sixty 
percent approval) to pass any bond issues. Our community did not have a 
history of passing bond referendums for school improvement prior to 
this latest attempt and had never passed a bond referendum on the first 
vote. Not only did the community approve the bond referendum on the 
first vote, but also broke previous voter turnout records. The federal 
support was one of the factors members of our community listed as a 
reason they voted in favor of the proposed bond referendum.
    The positive success of the bond referendum led to additional 
community support from cities within the school district boundaries. 
For example, the City of North Liberty provided land for the new 
elementary school, street and utility access to the construction site 
and an additional half million dollars toward the construction of the 
new elementary school. Likewise, the City of Tiffin and the Iowa 
Department of Transportation are partnering with the district to widen 
the highway leading to the new high school. Using conservative 
estimates, the half million dollars of federal support leveraged an 
additional twenty-eight million dollars to improve the school 
facilities within the Clear Creek Amana District.
Student Achievement
    While it is exciting to have new schools under construction in our 
district, we all know that what really matters is the effect on student 
achievement. A growing body of research has linked student learning and 
behavior, as well as staff morale, to physical building conditions. In 
fact, several studies have attributed as much as a 5 to 14 percentage 
point difference in achievement on standardized tests between students 
in facilities with poor conditions and students in facilities with 
excellent conditions.
What the Research Says about School Facilities
    The Iowa Association of School Boards (IASB) compiled a summary of 
research addressing the impact of school facilities on student learning 
and concluded that good facilities appear to be important to student 
learning. A summary of this research is provided below.
Impact on Student Learning
    <bullet> A study of the District of Columbia school system found, 
after controlling for other variables such as a student's socioeconomic 
status, that students' standardized achievement scores were lower in 
schools with poor building conditions. Students in school buildings in 
poor condition had achievement that was 6 percent below schools in fair 
condition and 11 percent below schools in excellent condition. 
(Building Conditions, Parental Involvement and Student Achievement in 
the D.C. Public School System, Maureen M. Edwards, Georgetown 
University, 1992)
    <bullet> Another study examined the relationship between building 
condition and student achievement in small, rural Virginia high 
schools. Student scores on achievement tests, adjusted for 
socioeconomic status, were found to be as much as 5 percentile points 
lower in buildings with lower quality ratings. Achievement also 
appeared to be more directly related to cosmetic factors than to 
structural ones. Poorer achievement was associated with specific 
building condition factors such as substandard science facilities, air 
conditioning, locker conditions, classroom furniture, more graffiti, 
and noisy external environments. (A Study of the Relationship Between 
School Building Condition and Student Achievement and Behavior, Carol 
Cash, Virginia Polytechnic Institute and State University, 1993)
    <bullet> Similarly, a study of large, urban high schools in 
Virginia also found a relationship between building condition and 
student achievement. Indeed, the researcher found that student 
achievement was as much as 11 percentile points lower in substandard 
buildings as compared to above-standard buildings. (Building Condition 
and Student Achievement and Behavior, Eric Hines, Virginia Polytechnic 
Institute and State University, 1996)
    <bullet> A study of North Dakota high schools, a state selected in 
part because of its relatively homogeneous, rural population, also 
found a positive relationship between school condition (as measured by 
principals' survey responses) and both student achievement and student 
behavior. (Review of Research on the Relationship Between School 
Buildings, Student Achievement and Student Behavior, Glen Earthman, 
Council of Educational Facility Planners, International, 1995)
    <bullet> A recent study of 24 elementary schools in Georgia 
attributed quality of school design to a 14.2 percent difference in 
third grade achievement scores and a 9.7 percent difference in fifth 
grade achievement scores on the Iowa Test of Basic Skills. 
(Relationship of School Design to Academic Achievement of Elementary 
School Children, University of Georgia, 2000)
    <bullet> Heating and air conditioning systems appeared to be very 
important, along with special instructional facilities (such as science 
laboratories or equipment) and color and interior painting, in 
contributing to student achievement. Proper building maintenance was 
also found to be related to better attitudes and fewer disciplinary 
problems in one cited study. (``Facilities,'' by Carroll McGuffey, in 
Improving Educational Standards and Productivity, edited by Herbert 
Walberg, 1982)
    <bullet> Research indicates that the quality of air inside public 
school facilities may significantly affect students' ability to 
concentrate. The evidence suggests that youth, especially those under 
age 10, are more vulnerable than adults to the types of contaminants 
(asbestos, radon, and formaldehyde) found in some school facilities 
(Environmentally Related Health Hazards in the Schools, James Andrews 
and Richard Neuroth, paper presented to Association of School Business 
Officials International, 1988).
    <bullet> A research summary prepared by the University of Georgia 
in 1999 indicates several studies that show that adequate lighting and 
appropriate color choices play a significant role in the achievement of 
students, affecting their ability to interpret the written word and 
their attention span. (Summary by Elizabeth Jago and Ken Tanner, 
University of Georgia, April 1999, www.coe.uga.edu/sdpl/sdpl.html)
Impact on Teaching
    <bullet> Researcher Jerry Lowe interviewed state teachers of the 
year to determine which aspects of the physical environment affected 
their teaching the most. These teachers pointed to the availability and 
quality of classroom equipment and furnishings, as well as ambient 
features such as climate control and acoustics as the most important 
environmental factors. In particular, the teachers emphasized that the 
ability to control classroom temperature is crucial to the effective 
performance of both students and teachers. (The Interface between 
Educational Facilities and Learning Climate, Jerry M. Lowe, Texas A&M 
University, 1990)
    <bullet> A study of working conditions in urban schools concluded 
that ``physical conditions have direct positive and negative effects on 
teacher morale, sense of personal safety, feelings of effectiveness in 
the classroom, and on the general learning environment.'' Building 
renovations in one district led teachers to feel ``a renewed sense of 
hope, of commitment, a belief that the district cared about what went 
on that building.'' In dilapidated buildings in another district, the 
atmosphere was punctuated more by despair and frustration, with 
teachers reporting that leaking roofs, burned out lights, and broken 
toilets were the typical backdrop for teaching and learning.
    <bullet> The study also found that ``where the problems with 
working conditions are serious enough to impinge on the work of 
teachers, they result in higher absenteeism, reduced levels of effort, 
lower effectiveness in the classroom, low morale, and reduced job 
satisfaction. Where working conditions are good, they result in 
enthusiasm, high morale, cooperation, and acceptance of 
responsibility.'' (Working in Urban Schools, Thomas Corcoran et al., 
Institute of Educational Leadership, 1988)
    Note: Adapted from Impact of Inadequate School Facilities on 
Student Learning, U.S. Department of Education, 1999. Originally 
published in the IASB Compass, Volume VII, No. 1, Winter/Spring 2002
New Facility Impact at Clear Creek Amana
    Having resources to build new buildings allowed us to take 
advantage of the latest information regarding excellent school design. 
With the assistance of our architects and engineers and the cooperation 
of students, staff and community members we are confident that our new 
schools will provide improved learning environments for CCA students 
and staff. A few of our design features include:
    <bullet> increased student and staff access to technology;
    <bullet> updated science labs and equipment;
    <bullet> flexible teaching and learning spaces with planned areas 
for small and large group instruction;
    <bullet> common areas for teacher teams to plan, and study 
together;
    <bullet> shared school and community spaces such as preschool, 
library/media center, physical fitness areas, before and after school 
space and shared gym space;
    <bullet> and added safety features such as controlled building 
access with limited exterior door entry points, electronic door 
controls and sprinkler systems.
    Again, federal support through the school construction grants 
played a key role in making these improvements to the overall safety 
and quality of the learning environment in our schools possible.
Energy Conservation
    Finally, I will provide information regarding the positive results 
our new school construction projects will have on environmental 
concerns. We were able to incorporate multiple energy saving features 
into the design of the new buildings by participating in the Commercial 
New Construction Program provided by the Weidt Group (Minnetonka, 
Minnesota) and funded by the local utility companies. As a part of this 
program, the district was able to consider various energy design 
strategies while the buildings were being planned. The different energy 
strategies were bundled together to create virtual buildings. Each 
virtual building model was run through a computer simulation that 
estimated the energy use of the building as a whole during a weather-
normalized year and the results were compared to the same building as 
if it were building under the basic code standards. The data provided 
illustrated which strategies could offer the most savings in dollars, 
KWh and therms and the payback associated with each strategy.
    Using this information, we were able to select energy strategies 
that balanced energy efficiency with short term and long term costs. 
Some of the strategies we selected include natural lighting in all 
classrooms, geo-thermal heating and cooling, motion sensors for room 
lights, and highly rated insulation materials for the roofs, walls and 
windows. The selected energy strategies in our new buildings resulted 
in building performance models with a predicted 65% energy improvement 
compared with basic code standards
    The benefits of building an energy efficient building include a 
cash rebate from the utility companies of about $250,000 as well as 
lower operational costs for the lifetime of the new buildings. Many of 
the selected energy strategies also contribute to the quality of the 
learning environment (natural lighting, temperature controls in each 
classroom). We believe these energy-efficient strategies add 
significant investment value to the buildings and minimize many 
negative environmental impacts typically caused by new construction.
    In summary, we have experienced a significant benefit from a modest 
federal investment in school infrastructure. We have every reason to 
believe our students will benefit from the improved learning 
environment in our new schools and we expect we will see some of this 
benefit in higher student achievement. Higher achievement by our 
nation's children ultimately translates to a brighter future for all of 
us when these children take their place as contributing members of the 
workforce and of the educated citizenry essential for a democratic 
society.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Now we will hear from Superintendent Paul Vallas of the 
Recovery School District. Superintendent Vallas, can you hear 
me?
    Mr. Vallas. Good morning. Yes, I can.
    Chairman Miller. Okay. Proceed as you are most comfortable. 
And we can see you here.
    Mr. Vallas. Well, thank you. Well, thank you so much. Can 
you hear me?
    Chairman Miller. Yes, we can. Thank you.

STATEMENT OF PAUL VALLAS, SUPERINTENDENT, NEW ORLEANS RECOVERY 
                        SCHOOL DISTRICT

    Mr. Vallas. Okay. Well, first of all, let me start out by 
thanking Chairman Miller for his leadership on the RENEWAAL 
appropriation, which has been critically important to us 
incenting teachers to come here and to locate in New Orleans. 
We have been able to exceed our demand for teachers and at the 
same time, reduce class sizes. And again, we want to thank your 
leadership and the support of Congress.
    Let me welcome you all from New Orleans. I am joined by 
Quincy Jones, a tenth grade student who is going to take up a 
little bit of my time to make some comments and observations.
    Let me start out by saying I am speaking to you from Reed 
High School, which is one of 59 schools that are part of the 
Recovery School District of Louisiana, where I have the honor 
of serving as superintendent. Building schools is not easy. 
While superintendent in Chicago, we oversaw the building of 76 
new schools and the renovations of 350 schools for 6 years.
    In Philadelphia, we oversaw a school construction program 
of $1.7 billion, which included 14 new schools and the renowned 
Microsoft School of the Future. And it is nice to see Mary 
Cullinane, as always, in good form.
    In both Chicago and Philadelphia we were able to accomplish 
much with limited resources, well over 80 percent of both 
constructions were funded locally. The state of Illinois had a 
growing, state-funded school construction program. The state of 
Pennsylvania had a much smaller program. But only a fraction of 
the funding for both programs came in the form of federal 
support.
    When I arrived in New Orleans in July of last year, we had 
a great challenge before us. We estimated that the cost of 
Katrina-related damages to the school district's 106 school 
facilities--let me point out that 90 percent of the buildings 
could not be occupied or were in need of major renovation. But 
even with the most optimistic estimates, we felt that the 
district would run about $500 million short of what would be 
needed to completely replace the schools, build new schools, 
renovate existing schools.
    Let me point out that while a lot of that was due to 
Katrina-related damages, there was also well over $1 billion in 
deferred maintenance costs, which obviously added to the burden 
of revitalizing the district. And I do want to point out that 
our relationship with FEMA has been excellent. And FEMA has 
been extraordinarily cooperative as well as innovative at 
helping us secure the capital reimbursements in a timely manner 
so that we could begin to rebuild our buildings. So I certainly 
want to give that note of support.
    We have had to open up 59 traditional public and charter 
schools since 2005 using large rebuilding fund reimbursements 
from FEMA as well as federal Community Development Block Grant 
money. It is important to note that in the RSD, half of our 
schools are charters. And we provide school construction 
support for charters and traditional public schools, 
irrespective.
    It does not matter. We are a system of schools--rather than 
a school system. And we probably have a higher percentage of 
children in charter schools and privately managed schools than 
any other school district in the country. So we do not view 
charter schools as independent to the school system, but as 
part of our overall school design.
    Now, let me point out that to date we have spent $132 
million in FEMA funding on school construction and about $15 
million from Community Development Block Grant money, in 
addition to $54 million in operating funds in order to get our 
buildings rebuilt and up and running.
    Now, there are eight modular facilities fully funded by 
FEMA that will temporarily serve our students as we rebuild 
their permanent schools to replace the modular schools. Let me 
point out that the district has embarked upon the development 
of a facilities master planning program that will present its 
results or present its recommendations in May. And that plan is 
designed to identify needs of the district and to lay out ways 
that the long-term needs could be addressed through additional 
measures.
    But even that plan itself will probably come about 40 to 50 
percent short in terms of generating the necessary funds to 
replace all obsolete buildings and all damaged buildings and to 
obviously build schools where schools need to be built. But the 
plan will be finalized by May.
    But in order to get things jumpstarted, we have actually 
begun our work with FEMA secured instruments--to what we call 
our quick start program starting construction of five new 
schools, which we will break ground on or have broken ground on 
in a couple months. So the master plan is being finalized. But 
at least a component of that master plan, the quick start plan, 
is well underway.
    Let me point out that despite the limitations in our 
facilities, the use of modular classrooms, we have made a 
priority of investing in the individual classrooms as opposed 
to realizing it is going to take 4 or 5, 6 years to replace and 
to renovate all the buildings and to secure enough money to do 
that. Hopefully we will be able to do that. We did make it a 
priority this year to really concentrate on classroom 
modernization, on creating a classroom environment that was 
equal, if not superior, to that of even the more affluent 
suburbs.
    As Mary Cullinane likes to talk about the high school of 
the future, in our conversations we have often talked about 
creating the classroom of the future. So I am happy to point 
out that this year when we opened schools, while the buildings 
were limited, while the facilities were limited, while we have 
many, many modular campuses, all of our classrooms are superior 
learning environments. What do I mean by that?
    They were all painted and air conditioned. They all had 
modern furniture, modern textbooks. They all had standardized 
curriculum instructional models--every high school had 
Promethean boards installed and smart boards in every 4th 
through 12th grade core classroom. Installing 180 computer labs 
in the middle grades--4th through 10th grades. And all of our 
high school students have laptop computers.
    So we really worked to integrate technology to modernize 
our classrooms. So even though we have limited ability, we have 
limited facilities, when you walked into that classroom 
environment--we just didn't put technology into the classroom--
--
    Chairman Miller. Superintendent Vallas, if I could----
    Mr. Vallas [continuing]. Give teachers access to--integrate 
the technology into the classroom, enhance student learning, 
and provide students with a way to learn, a way to take in data 
in more visual and more audio ways. It also expanded school 
choice because we are dramatically increasing the number of 
course offerings despite our limitations and despite the small 
sizes of our high schools by, in effect, using----
    Chairman Miller. Superintendent Vallas, can you hear me?
    Mr. Vallas. And the technology is also helping us connect 
the family, because an ever-increasing number of our families 
now have home computers and laptop computers. And, of course, 
when you give all your high school----
    [The statement of Mr. Vallas follows:]

Prepared Statement of Paul Vallas, Superintendent, New Orleans Recovery 
                            School District

    Thank you for inviting me to speak to the committee today from Reed 
High School, here in New Orleans East, a neighborhood in New Orleans 
that received more than 10 feet of floodwaters in the wake of Hurricane 
Katrina.
    Reed is one of the 59 schools of the Recovery School District, 
where I have the honor of serving as Superintendent. Thank you for 
meeting today to discuss the important issue of school construction and 
classroom modernization.
    Building schools is not easy. While I was Superintendent in 
Chicago, we oversaw the building of 76 new school buildings and 
renovated 350 schools over six years. In Philadelphia, we built eight 
new schools, including the renowned Microsoft School of the Future.
    In both Chicago and Philadelphia, we were able to accomplish much 
with limited resources, specifically tax and bond revenues used to fund 
school construction.
    When I arrived in New Orleans in the summer of 2007, it became very 
clear to me early on that building schools here is a tremendous 
challenge--we have an unheard of amount of work to do and a small 
amount of money to do it with. And this money does not come from 
traditional capital fund sources, but primarily from FEMA.
    Currently, we estimate the cost of Katrina-related damages to the 
district's 106 school facilities and their contents will exceed $700 
million once FEMA completes its full and updated assessments. On top of 
the costs of storm damage, prior to Katrina, New Orleans public school 
facilities already had approximately $1 billion in deferred 
maintenance.
    The RSD rebuilt its 59 traditional public and charter schools 
beginning in late 2005 using rebuilding funds from FEMA and federal 
Community Development Block Grant funding. It is important to note that 
in the RSD, we have the highest percentage of charter schools of any 
urban school district, and in facilities maintenance and building 
schools we make no distinction between charter and RSD-operated 
schools.
    The RSD has spent more than $132 million in FEMA funding, more than 
$15 million in federal Community Development Block Grant (CDBG) 
funding, and more than $53.5 million in operating funding during this 
effort to rebuild the district's schools.
    Among our schools, there are eight modular facilities fully funded 
by FEMA that will temporarily serve our students as we rebuild their 
permanent schools.
    As we move forward, we plan to build additional schools in New 
Orleans. Our ``Quickstart'' effort is a $140 million initiative, 
principally funded by FEMA, with construction currently underway to 
bring online an additional five new schools by fall 2009.
    Our facilities master plan, which will guide the rebuilding and 
renovation of permanent public school facilities in New Orleans, will 
be released in May 2008.
    Our students attend class in improved school facilities, use humane 
restrooms, enjoy hot food, and use the most modern technology-based 
instructional tools available.
    Despite our past victories and future plans, however, our struggles 
remain substantial.
    While the approximately $90 million in CDBG rebuilding funds 
allocated by the State of Louisiana are substantial--and our 
cooperative work with FEMA has yielded significant dividends--we will 
not bring our school facilities to more superior condition with these 
funds alone.
    In fact, even when combined, our anticipated total obligated FEMA 
funds and our CDBG funds will still leave our district more than $500 
million short of being able to bring our facilities up to superior 
condition.
    Despite our fiscal constraints, we are aggressively using the 
unique opportunity of rebuilding school facilities in the wake of 
Hurricane Katrina to build the best facilities this district has ever 
had.
    And this effort includes a superior level of classroom 
modernization previously unheard of in New Orleans. Among such upgrades 
include:
    <bullet> Installing a Promethean Board in every 4th-12th grade core 
classroom, a total of 496 boards in RSD-operated schools;
    <bullet> Providing a take-home Epic laptop computer to every high 
school student, a total of approximately 4,500 laptops;
    <bullet> Providing a take-home Dell laptop computer to every 
teacher and administrator, a total of approximately 2,000 laptops;
    <bullet> Installing Read 180 computer labs, with eight computers 
each, in every 4th-10th grade English classroom, a total of 132 new 
computer labs;
    <bullet> Installing e-Rate funded internet access in all of our 
schools, both wireless and LAN connections.
    Next year we plan to expand the distribution of laptops to the 
middle grades, give all students email addresses, build a virtual 
school for students throughout the state out of Reed High School, and 
employ a technology integrationist at all schools focused solely on 
helping teachers integrate technology into instructional practices.
    Twenty-first Century educators know that it is not about the 
hardware and software--or the basic training it takes to use them in 
the classroom--that create 21st Century learners. It is instead the 
innovative uses of these products by teachers that push students to 
build strong literacy skills and engage in higher levels of learning.
    To encourage these teaching practices the RSD is taking steps to:
    1) Ensure that technology is used to establish a relationship 
between the home and school environments;
    3) Use technology to enrich parental involvement in the school 
community;
    4) Create small teaching and learning communities at each school 
where the integration of technological approaches to teaching and 
learning are discussed and encouraged;
    5) Setting up student-organized and managed Technology Resource 
Centers at each of our high schools.
    Technology improves students' academic achievement because it 
enables self-directed learning and provides immediate benchmarking 
data. The vast majority of our students are two or more years below 
grade level in reading and math, and these students benefit from the 
district's technological interventions.
    We can only continue our monumental efforts to reform education in 
New Orleans with further federal resources to cover significant start-
up and one-time costs.
    Just like RENEWAAL funding last year helped the district to attract 
hundreds of high-quality teachers by allowing us to pay all teachers 
bonuses and launch a performance-based pay initiative, we need federal 
funding in New Orleans to sustain our efforts to build 21st Century 
schools to continue sparking the rebuilding of the New Orleans region.
    Thank you for the opportunity to testify to the committee today and 
I am happy to answer any questions.
                                 ______
                                 
    Chairman Miller. This is better than I thought. If 
Superintendent Vallas can hear me, I want to thank him for his 
testimony. We are running a series of votes here in the 
Congress, and I would like to get our next two witnesses in 
before members of the panel have to leave.
    And we are having a little bit of trouble with the audio on 
this end. Ms. Cullinane is going to take care of that during 
the break, and we will get a Congress of the future here. But I 
don't want to have Superintendent Vallas wait around because of 
the vote.
    So with that, we are going to proceed, Mr. Waters, to you.

STATEMENT OF JIM WATERS, DIRECTOR OF POLICY AND COMMUNICATIONS, 
        BLUEGRASS INSTITUTE FOR PUBLIC POLICY SOLUTIONS

    Mr. Waters. Very good. Thank you. Good morning, ladies and 
gentlemen. Greetings from Kentucky where celebrations are 
underway commemorating the birth of the--the bicentennial of 
the birth of our nation's 16th president. My name is Jim 
Waters. I am director of Policy and Communications for the 
Bluegrass Institute for Public Policy Solutions.
    We like to describe ourself as Kentucky's free market think 
tank. We offer free market ideas to Kentucky's most pressing 
problems in light of the ideals that we think our founders had 
who believed in individual liberty, economic prosperity, 
personal responsibility, and a respect for the lives and 
property of others. And with all due respect to the Congressman 
Chandler from Kentucky, I do not believe that the founders 
would have been involved in more federal involvement in our 
education system at the state and local level.
    The prevailing wage law provides an example, I think, of a 
well-intentioned policy that has gone awry. Originally modeled 
after the federal Davis-Bacon Act, Kentucky lawmakers also 
wanted to ensure that contractors and workers on state 
projects, that they received a fair, but not a rock bottom 
wage. However, during the past decades, Kentucky's prevailing 
wage law, which is based largely on the federal policy of the 
same idea, has become a huge boondoggle.
    And I would like to suggest that before the federal 
government gets more involved in spending more of our hard-
earned dollars on repairing school buildings and building new 
schools we at least need to consider more market participation 
in the education process, more choices for parents, for 
students, for local communities, for states to make their own 
decisions about how to address their needs for new school 
buildings and to repair crumbling schools.
    The law prevents state government from receiving the most 
value for every dollar spent on public projects in Kentucky. 
Forcing the government to pay union-like wages drives up the 
cost of roads, school buildings, and infrastructure systems by 
a very conservative 10 to 15 percent.
    In recent weeks, a bid was accepted for $61 million to 
build a new middle and high school in Bowling Green, Kentucky. 
It is the Joseph Warren--it will be the Joseph Warren Middle 
and High School. Research commissioned by the Bluegrass 
Institute has found that the negative trickle-down effect of 
Davis-Bacon in states like Kentucky has driven up the cost of 
public projects by hundreds of millions of dollars. Our own 
legislative research commission, which is a non-partisan 
research arm of our legislature, says it added $137 million to 
the cost of public projects, construction projects in the year 
of 2002.
    Even our department of education officials, which aren't 
known for enthusiastic support of fiscally sound policies, 
recognize and really despise our state's prevailing wage 
policy. The department claims that prevailing wage requirements 
add 11 percent to the cost of building schools.
    That would mean that the new school in Bowling Green will 
cost an additional $6.7 million just because of the prevailing 
wage rate alone. That would be enough to build another new 
elementary school even at prevailing wage rates.
    There is no question as we have heard today, our schools 
are crumbling. Many of our states' proverbial checkbooks are 
overdrawn. And yet plumbers and pipe fitters for this new 
Warren school are going to get $41.35 an hour.
    I checked with an experienced contractor in the region who 
bid on the project but couldn't keep up with those rates. He 
said that workers would receive a rate of about $18 an hour on 
a similar job in the private sector. But the gap in wages, the 
$100 million estimate, doesn't even include the cost of the 
labor bureaucracy charged with overseeing our prevailing wage 
policy.
    What is the cost for inspections, hearings, and paperwork? 
Who knows? We see how easy it is for government to spend 
someone else's money, the taxpayers' money, with little 
accountability for how that money is spent.
    And in our labor cabinet's prevailing wage categories for 
Warren County it states that water boys get $18.07 an hour and 
$8.79 in benefits. So water boys--and that is how they are 
listed--working on the Warren schools will get paid more than 
the usual rate earned by experienced, professional plumbers 
working on homes, offices, and churches.
    A favored defense of maintaining prevailing wage borne out 
of the desperate days of the Great Depression is that 
prevailing wage rates result in safer, higher quality work. But 
this thinking is outmoded and antiquated just like the Davis-
Bacon Act itself.
    According to the Kentucky Legislative Research Commission, 
96 percent of Kentucky's 176 school superintendents answered no 
when asked if they increased cost incurred by prevailing wage 
resulted in discernible higher quality. Besides, how is it that 
contractors build quality office complexes, large custom homes, 
investment properties, and corporate facilities without being 
coerced by some kind of forced wage policy? These contractors 
don't even have to be told the quantity and quality of people 
needed to accomplish a task.
    But many contractors don't even participate in public 
projects in Kentucky. Prevailing wage rates are so complicated, 
vary widely from place to place, are established according to 
federal rates in some areas, state rates in others, and can be 
at the whims of even local unions that it is too daunting for 
many private contractors. We believe that an increase in 
participation in the process would drive down the cost of 
public projects.
    In order to free up badly needed money to build new schools 
and repair and update existing ones, it is time for Davis-Bacon 
and prevailing wage to be relegated to the history of public 
policies that have long outlived their usefulness either to 
schools or taxpayers. Thank you very much.
    [The statement of Mr. Waters follows:]

       Prepared Statement of Jim Waters, Director of Policy and 
    Communications, Bluegrass Institute for Public Policy Solutions

    Good morning ladies and gentlemen.
    Greetings from Kentucky, where celebrations got underway earlier 
this week, commemorating the 200th birthday of the nation's 16th 
president.
    My name is Jim Waters. I am director of policy and communications 
at the Bluegrass Institute for Public Policy Solutions, Kentucky's 
free-market think tank. We offer free-market ideas to Kentucky's most 
pressing problems in light of the ideals of our founders, who believed 
in: individual liberty, economic prosperity, personal responsibility 
and a respect for the lives and property of others.
    The ``prevailing wage'' law provides an example of a well-
intentioned policy gone awry. Originally modeled after the federal 
Davis-Bacon Act, Kentucky lawmakers wanted to ensure contractors 
working on state projects paid workers a fair, but not rock-bottom, 
wage.
    However, during the past 20 years, Kentucky's prevailing-wage 
policy has become a huge boondoggle.
    The law prevents state government from receiving the most value for 
every dollar spent on public projects. Forcing government to pay union-
like wages drives up the cost of roads, school buildings and 
infrastructure systems by 10 to 15 percent.
    In recent weeks, a bid was accepted for $61 million to the new 
Joseph Warren middle and high schools in Bowling Green, Kentucky.
    Research commissioned by the Bluegrass Institute and conducted by 
experts like respected labor analyst Paul Kersey, has concluded that 
the negative, trickle-down effect of Davis-Bacon drives up the cost of 
public projects by as much as $100 million each year.
    Even Kentucky Department of Education officials, which aren't 
exactly known for endorsing fiscally sound policies, recognize--and 
despise--the state's prevailing-wage policy. The department claims 
prevailing-wage requirements adds 11 percent to the cost of building 
schools--$6.7 million on the Warren County schools project alone. That 
would be enough to build another new elementary school, even at 
prevailing-wage rates!
    Schools are crumbling. The state's proverbial budget checkbook is 
overdrawn. Yet plumbers and pipe fitters for the new Warren middle and 
high schools are going to get $41.35 an hour. I checked with an 
experienced contractor in the region, who said these workers would 
receive a rate of about $18 an hour on a similar job in the private 
sector.
    But the gap in wages--the $100-million estimate--does not even 
include the cost of the labor bureaucracy charged with overseeing 
Kentucky's prevailing-wage policy. What is the cost for inspections, 
hearings and paperwork? Who knows? We see how easy it is for government 
to spend someone else's money--taxpayer--with little accountability for 
how that money is spent.
    On Page 4 of the state Labor Cabinet's prevailing-wage categories 
for Warren County, it states that ``water boys'' get $18.07 an hour and 
$8.79 in benefits. So ``water boys'' working on the Warren schools get 
paid more than the usual rate earned by experienced, professional 
plumbers working on homes, office buildings and churches.
    Just to put this in perspective, this weekend, the Holiday Inn 
University Plaza--the premier convention-center hotel in Bowling Green, 
Kentucky--will host 1,200 people who will use four of its luxury-laden 
ballrooms in a classroom-style setting at a cost of $1,600.
    The school district could rent those rooms at that rate for 200 
days, which includes instructional days plus personal preparatory days 
for teachers for $320,000. Even if those rooms were rented every single 
day of the year--365 days--at that rate, the district would still spend 
only $584,000. Allow another half-million for salaries, supplies, 
transportation and so forth, and you still are a far cry from the Taj 
Mahal-like prices being charged by taxpayers.
    A favored defense of maintaining this labor policy, borne out of 
the desperate days of The Great Depression, is that simply requiring 
prevailing-wage rates result in safer, higher-quality work. But this 
thinking is outmoded and antiquated--just like the Davis-Bacon Act 
itself.
    According to the Kentucky Legislative Research Commission, 96 
percent of Kentucky's 176 school superintendents answered ``no'' when 
asked if the increased costs incurred by prevailing wage resulted in 
discernible higher quality.
    Besides, how is it that contractors build quality office complexes, 
large custom homes, investment properties and corporate facilities 
without being coerced by some kind of forced wage policy? These 
contractors don't even have to be told the quantity and quality of 
people to hire to accomplish a task!
    But many contractors don't even participate in public projects. 
Prevailing-wage rates are so complicated, vary widely from place to 
place, are established according to federal rates in some areas, state 
rates in other areas and can be at the whims of even local unions that 
it's too daunting for many private contractors.
    Kentucky is not only known for Lincoln. It's also known for 
Corvettes. All Corvettes are now made at the GM plant in Bowling Green 
plant. Across the street from the plant is the National Corvette 
Museum, which contains many of the past relics of the great Corvette.
    While the museum is a great place--car and history buffs love it--
it's at the plant across the street where the new models are coming 
out, which build and improve on past models.
    In order to free up badly needed money to build new schools and 
repair existing ones, its' time for Davis-Bacon to be relegated to the 
history of public policies that have long outlived their usefulness, 
either to schools or taxpayers.
    Thank you very much.
                                 ______
                                 
    Chairman Miller. Mr. McCluskey?

  STATEMENT OF NEAL MCCLUSKEY, ASSOCIATE DIRECTOR, CENTER FOR 
            EDUCATIONAL FREEDOM, THE CATO INSTITUTE

    Mr. McCluskey. Chairman Miller, Ranking Member McKeon, and 
members of the committee, thank you for the opportunity to 
testify today. My name is Neal McCluskey, and I am the 
associate director of the CATO Institute's Center for 
Educational Freedom.
    CATO is a nonprofit research institute that seeks to 
broaden the parameters of public policy debate to allow 
consideration of traditional American principles of limited 
government, individual liberty, free markets, and peace. Along 
those lines, I will discuss the best federal role in school 
facility maintenance and construction and explain why school 
choice is the key to building and maintaining high-quality 
schools.
    I must begin by noting that the Constitution gives 
Washington no authority in education outside of prohibiting 
discrimination by states and local districts. Nowhere in the 
enumerated powers is the word education found. And the 10th 
Amendment leaves all powers not delegated to the federal 
government to the states or people.
    I should also add that the general welfare clause does not 
change this. It confers no authority on its own, but simply 
introduces the specific enumerated powers that follow it. As 
James Madison wrote in Federalist Number 41, ``For what purpose 
could the enumeration of particular powers be inserted if these 
and all others were meant to be included in the preceding 
general power? Nothing is more natural nor common than first 
use of general phrase and then to explain and qualify it by 
recital of particulars.''
    Despite this, Washington has been heavily involved in 
education for decades. It has never, though, had a major role 
in funding most school facilities. Indeed, for compelling 
reasons of fairness and effectiveness, it should have no role 
at all.
    Well, what are the fairness issues? The first is the 
unfairness of redistributing funds from taxpayers in districts 
that have maintained their schools to districts where 
maintenance has been allowed to slide. As U.S. Department of 
Education report, ``Condition of America's Schools Facilities 
1999'' notes, district officials attributed declining 
conditions primary to insufficient funds resulting from 
ultimately very costly decisions to defer needed maintenance 
and repairs.
    Next, whatever increase in federal aid might be proposed 
will likely be targeted to high-poverty districts, on the 
grounds that those districts are under-funded. But this is not 
accurate.
    Department of Education data show that per people 
expenditures are indeed higher in the districts with the lowest 
quintile of poverty, the wealthiest populations, as expected. 
But the second highest spending is in the quintile with the 
highest concentration of poverty. Meanwhile the three middle 
quintiles are well below both. As a result, it is likely that 
much of the federal money that would support construction in 
high-poverty districts would actually come from taxpayers whose 
own districts are well outspent by the recipients.
    How about efficiency? The major reason that buildings are 
poorly maintained is not insufficient funds. According to the 
Organization for Economic Cooperation and Development, we spend 
more per pupil than almost any other industrialized nation. 
Overall, real public school per pupil funding increased from 
about $4,000 in 1965 to $11,000 in 2003.
    Regarding facilities construction, from 2000 to 2006, 
districts completed projects totaling more than $145 billion, 
according to School Planning and Management's 2007 construction 
report. That is an amount exceeding the 1996 GAO estimate that 
$112 billion would be needed to bring all schools to good 
overall condition and a 1999 Education Department estimate of 
$127 billion. Even accounting for inflation, $145 billion 
should have ended the facilities problem with $1 billion or so 
left over. But apparently it didn't.
    Ultimately, the facilities problem is one of inefficiency. 
Many districts are bureaucratically hide-bound, adversely 
affecting maintenance and construction. The anecdotal evidence 
abounds, but consider just one example. And there are more in 
my written testimony.
    The Washington, D.C. public schools have rampant 
maintenance failures despite per pupil expenditures exceeding 
$14,000. This is a problem that Chancellor Rhee has attributed 
largely to central office bureaucracy. Pushing more federal 
money at schools won't change this. It will only add more 
bureaucracy.
    In addition to necessary maintenance and construction not 
getting done, much of the basis for assessing facilities comes 
from districts self-reporting. And it is at least possible that 
some districts might overestimate problems. At the very least, 
the assessments are subjective and likely inconsistent from 
school to school. There is also considerable anecdotal evidence 
that when new schools are built it isn't necessarily with cost 
control or core academic needs in mind.
    There is good reason to be doubtful that any funding 
mechanism in our current system will result in effective 
construction and maintenance. But there is a solution.
    Washington must stay out of school construction. But 
members should exhort their states and districts to let 
parental control of education funding to enable that by taking 
it to any--let the parents take it to any school they wish, 
public or private. School choice is the key to good school 
buildings.
    Consider when a school gets funding regardless of building 
dilapidation, the incentives to conduct adequate maintenance 
are limited. Certainly, the building might not be a great place 
to work, but a paycheck is coming nonetheless, and getting 
problems fixed can be very hard. When schools don't compete, 
they don't have to care as much about their buildings as 
schools that have to attract and earn customers.
    Chairman Miller. Mr. McCluskey, I am going to ask you to--
because Mr. McKeon and I have got to try to make a vote here. I 
am going to ask you to wrap up----
    Mr. McCluskey. I am almost done.
    Chairman Miller. Okay.
    Mr. McCluskey. The other problem with top-down controls is 
that large organizations have big, slow bureaucracies with 
autonomy. In contrast, schools can respond quickly to their 
needs, not having to fight to get work approval, supplies, and 
maintenance personnel.
    We have evidence that private schooling better provides 
buildings. And it----
    Chairman Miller. I am going to ask you to wrap up. I have 
no choice. The clock is running.
    Mr. McCluskey. Okay. So what should Congress do to ensure 
that the nation has the best possible schools? We should be 
funding the states and districts and exhort them to enact 
school choice.
    [The statement of Mr. McCluskey follows:]

 Prepared Statement of Neal McCluskey, Associate Director, Center for 
                Educational Freedom, the Cato Institute

    Chairman Miller, Ranking Member McKeon, and Members of the 
Committee: Thank you for the opportunity to provide testimony today on 
investing in school facilities. My name is Neal McCluskey, and I am the 
Associate Director of the Cato Institute's Center for Educational 
Freedom. Cato is a non-profit public policy research institute that 
seeks to broaden the parameters of public policy debate to allow 
consideration of the traditional American principles of limited 
government, individual liberty, free markets and peace. Along those 
lines, today I would like to discuss the best role that the federal 
government can play in school facility maintenance and construction: 
That is, no role. I would also like to explain why widespread school 
choice is the key to efficiently building and maintaining high-quality 
school facilities.
    I must begin by stating Constitutional principles: the Constitution 
gives the federal government no authority to make policy in education 
outside of prohibiting de jure discrimination by states and local 
districts. Nowhere in the enumerated powers listed in the Constitution 
will you find the terms ``school'' or ``education,'' and of course the 
Tenth Amendment makes clear that ``the powers not delegated to the 
United States by the Constitution, nor prohibited by it to the States, 
are reserved to the States respectively, or to the people.'' In 
addition, contrary to the perception of some jurists and legislators, 
the ``general welfare'' clause does not change this. It confers no 
authority on its own, but simply introduces the specific, enumerated 
powers that follow it. As James Madison wrote in Federalist no. 41, 
``For what purpose could the enumeration of particular powers be 
inserted, if these and all others were meant to be included in the 
preceding general power? Nothing is more natural nor common than first 
to use a general phrase, and then to explain and qualify it by a 
recital of particulars.''
    Of course, constitutional problems notwithstanding, the federal 
government has been heavily involved in education since passage of the 
Elementary and Secondary Education Act in 1965. Thankfully, though, 
while it has had some involvement in school construction and 
maintenance--especially through Impact Aid programs for districts 
affected by federal installations, which will not be the focus of my 
remarks--it has never had a major role in funding school facilities not 
eligible for Impact Aid. It would not be advisable for Congress to 
expand its current, limited role. Indeed, for compelling reasons of 
both fairness and, more importantly, effectiveness, it should have no 
role at all.
What are the fairness issues?
    The first is the unfairness of redistributing funds from taxpayers 
in districts that have dutifully maintained their schools to districts 
where maintenance needs have been allowed to slide until small problems 
have become big ones. As the U.S. Department of Education report 
Condition of America's School Facilities: 1999 noted:
    [D]istrict officials attributed declining conditions primarily to 
insufficient funds, resulting from decisions to defer maintenance and 
repair expenditures from year to year. However, maintenance can only be 
deferred for a short period of time before school facilities begin to 
deteriorate in noticeable ways. Without regular maintenance, equipment 
begins to break down, indoor air problems multiply, and buildings fall 
into greater disrepair. * * * The lack of regular maintenance can also 
result in a host of health and safety problems, including exposure to 
carbon monoxide and risk of physical injuries. Additionally, deferred 
maintenance increases the cost of maintaining school facilities; it 
speeds up the deterioration of buildings and the need to replace 
equipment. * * *
    It is important to note that such a redistribution is likely to 
occur whether the federal government expands Qualified Zone Academy 
Bonds (QZABs)--in which federal taxpayers cover the interest on school 
construction bonds--or direct federal construction assistance.
    Most likely, whatever increase in federal aid might be proposed 
will be targeted, at least at the outset, at districts with high 
concentrations of poverty, and justified on the grounds that those 
districts are underfunded and hence most in need of aid. This, at least 
rhetorically, drives most federal education policy, but is inaccurate, 
and any initiative that takes money from presumably better-off 
taxpayers and gives it to high-poverty districts on the grounds that it 
will equalize education spending rests on a crumbled foundation.
    Using data from the 2005 and 2007 editions of the Department of 
Education's annual Condition of Education report, we see that, as 
expected, per-pupil expenditures are highest in the districts in the 
lowest quintile of poverty--meaning, the districts with the wealthiest 
population. In the 2003-04 school year (the most recent with available 
data), those districts spent on average $10,857 per-student, a figure 
which includes capital costs. The surprising statistic is that the 
second highest spending is in the quintile with the highest poverty 
level, where $10,377 was spent per-pupil. Meanwhile, the three middle 
quintiles are well below the districts with the highest poverty, and 
this has been the case since at least the 1989-90 school year, the 
earliest for which the Condition of Education has data. As a result of 
this distribution, it is highly likely that much of the federal tax 
money that would support construction and maintenance in high-poverty 
districts would come from taxpayers whose own districts get well 
outspent by those very districts they are being forced too subsidize.
How about efficiency?
    First of all, the major reason that buildings are poorly 
maintained, especially in large, urban districts, is not a lack of 
funds. In addition to the telling statistics about which districts 
actually spend the most money, we know that overall, American education 
is not underfunded. According to the Organization for Economic 
Cooperation and Development's Education at a Glance: OECD Indicators 
2006, we spend more per-pupil in elementary and secondary education 
than any member country save Luxembourg, Norway and Switzerland. 
Overall, according to U.S. Department of Education Statistics, real K-
12 public school per-pupil funding nationwide increased from $4,077 in 
1965 to $11,016 in 2003, a 170 percent increase.
    And the increases are not just in the aggregate. Using data from 
the 2007 Education Department report An Historical Overview of Revenues 
and Expenditures for Public Elementary and Secondary Education, by 
State: Fiscal Years 1990-2002, we see that real facilities acquisition 
and construction expenditures per pupil rose from $481 in 1990 to $903 
in 2002, an 88 percent increase. From 2000 to 2006 districts completed 
construction projects totaling more than $145 billion according to 
School Planning and Management's 2007 Construction Report, an amount 
exceeding both a 1996 GAO estimate that $112 billion would be needed to 
bring all school facilities to ``good overall condition,'' and a 1999 
National Center for Education Statistics estimate of $127 billion. Even 
accounting for inflation from the 1999 estimate, $145 billion should 
have ended the facilities problem with a billion-or-so left over. Yet, 
apparently, it didn't.
    Ultimately, the facilities maintenance and construction problem is 
largely one of inefficiency, waste, and mismanagement. As researchers 
like John Chubb, Terry Moe, and William Ouchi have well established, 
many districts--especially large, urban districts--are hopelessly 
hidebound by bureaucracy, slow to move and incredibly inefficient when 
they do. The negative results have been seen most concretely in 
stagnant academic achievement despite massive infusions of money, and 
while aggregate, systemic data about construction and maintenance 
success is not available, it stand to reason that district dysfunction 
affects maintenance and construction much like it affects academics. 
The anecdotal evidence abounds in cities all over the country, but 
consider just two examples. The Washington, DC, public schools have 
rampant maintenance failures and a lengthy job backlog despite per-
pupil expenditures well in excess of $14,000, a problem Chancellor Rhee 
has attributed largely to central office bureaucracy. Or witness the 
Belmont Learning Complex project in Los Angeles, which from the start 
was plagued by community conflicts over its use and design, but really 
fell apart after half the school was built and it was discovered to be 
on an environmentally unacceptable old oil field. The school was 
eventually completed, but not without gigantic cost overruns.
    In far too many cases, the money that should be reaching engineers, 
electricians and plumbers--just like the money that should be reaching 
students--simply doesn't get there.
    In addition to the very real problem of necessary maintenance and 
construction not getting done, there is a good chance that at least 
some of the deficiencies we see reported are overstated, and some of 
the construction and spending that is done is unnecessary. Concerning 
the former, it is important to note that much of our basis for 
assessing national school facility need comes from principal and 
district self-reporting. Both Condition of America's Public School 
Facilities: 1999 and Public School Principals Report on Their School 
Facilities: Fall 2005 use self-reported data on school conditions, and 
it is at least possible that some people who run schools and work in 
them will overestimate problems. At the very least, the assessments are 
subjective and almost certainly inconsistent from one school to 
another. There is also considerable anecdotal evidence that when new 
schools are built, they aren't necessarily done with cost-control or 
core academic needs in mind. Consider the new T.C. Williams High School 
in Alexandria, Virginia, of Remember the Titans fame. Opened this year 
$25 million over budget, the new T.C. Williams boasts television 
studios, a black-box theater, and a planetarium--hardly basic needs.
    It is important to note that states are not necessarily good 
stewards of construction funds any more than districts are. New Jersey 
recently had a major scandal concerning its School Construction 
Corporation, which was established to build schools in low-income, so-
called Abbott districts. This entity made such moves as paying local 
governments more than $67 million to buy land already owned by the 
public; selecting sites on which to build schools containing heavy 
environmental contamination; and paying private contractors more than 
$217 million above originally contracted amounts.
    There is very good reason to be highly skeptical that any funding 
mechanism in our current education system will result in efficient and 
effective school construction and maintenance. But as much as it may 
seem like it, I am not here to simply tell you what's wrong in school 
construction and maintenance, exhort you to do nothing about it, and 
then go on my merry way. I have a solution. Congress must cease federal 
intervention in school construction, refrain from getting more deeply 
involved, and individual Members of Congress should exhort their states 
and local districts--which have proper authority over education--to let 
all parents control education funding for their children by taking it 
to any school they wish, public or private. School choice--letting 
markets work--is the key to getting good, safe school buildings, just 
as it is the key to academic success.
    First, consider basic, human motives. When a school gets funding--
and its employees get paid--regardless of whether or not the school 
building is in good condition, the incentives to vigilantly conduct 
painstaking maintenance are small. Sure, the building might not be a 
great place to work, but a paycheck is coming regardless, and getting 
tough problems fixed and regular preventative maintenance done can 
often be very hard. When schools don't have to compete they don't have 
to care nearly as much about their buildings as schools that have to 
earn customers, and have to look, sound, and smell as conducive to 
effective learning as possible. A visit to Eastern Europe offers 
plentiful examples of how poorly construction and maintenance worked 
under non-competitive incentive structures.
    As touched on earlier, the other problem with top-down control is 
that large organizations invariably have big bureaucracies, and big 
bureaucracies invariably make action inefficient and slow. In a system 
of choice with autonomous schools, in contrast, schools can respond 
very quickly to their needs, not having to perpetually fill out 
extensive paperwork to get work approvals, supplies, and maintenance 
personnel from huge, distant home offices.
    The superiority of private provision of education when it comes to 
facilities is not just theoretical--it has been established both in the 
United States and abroad. Here are just three examples:
    <bullet> In Arizona, the director of Cato's Center for Educational 
Freedom, Andrew Coulson, found that when asked the same core questions 
as were asked of public school officials in Condition of America's 
Public School Facilities: 1999, private school operators reported that 
their schools were in much better condition than public schools 
nationwide (Arizona public school data was not available). And this was 
not a result of having ``better'' students--Arizona's private schools 
reported better conditions of such things as foundations, ventilation, 
and electrical power which could not be easily affected by such student 
behaviors as vandalism. Perhaps most impressively, the private schools 
were able to do this despite spending much less per pupil than their 
public counterparts (taking into account all sources of revenue, not 
simply tuition).
    <bullet> In New Orleans, by early November after Hurricane Katrina 
three private schools were back up and running in the city's especially 
hard-hit East Bank, and eight of the city's Roman Catholic schools were 
operating. None of the city's traditional public or charter schools, in 
contrast, had yet reopened. By the Spring of 2006 nearly 20,000 
students were enrolled in private schools, well above the number in 
public schools.
    <bullet> Extensive research by British professor James Tooley has 
documented that private schools found throughout some of the most 
impoverished slums in the world provide superior conditions compared to 
government-run schools. Tooley has found that private schools in places 
like Hyderabad, India, Ga, Ghana, and Lagos, Nigeria, are more likely 
to provide such things as drinking water, fans, electricity, toilets, 
and libraries than government schools. Similar findings have been 
reported for these and other countries by other researchers. Why? The 
private schools have to compete for students.
    So what should Congress do to ensure that the nation has the best 
possible school facilities? Essentially, nothing. The best things that 
Congress as a whole can do is leave school facility funding and policy 
making to states and local districts, and the best thing that 
individual members of Congress can do is take up the bully pulpit and 
exhort your states and districts to enact widespread school choice. 
Then, all school managers will have the incentives to keep up with 
necessary maintenance, and when new buildings truly are needed, they 
will be built with maximum efficiency and effectiveness.
    Thank you again for the opportunity to provide testimony, and I 
look forward to your questions.
                                 ______
                                 
    Chairman Miller. Thank you. Thank you. Because we have a 
series of votes which we were not aware of when we scheduled 
this hearing or started this hearing, I am not going to hold 
you here because I think it is going to be almost an hour 
before we return. I want to thank you for your testimony.
    I have some questions, but I will send them to you, submit 
them to you in writing. And I would appreciate--I have some 
questions about leveraging the federal funds in California. I 
have some questions about the replication of the School of the 
Future and also some questions about leveraging in Iowa.
    I want to say to the members you have 14 days to submit 
their testimony. And if you have questions, we will compile 
them and give them to the witnesses in writing. Thank you very 
much. I am sorry for this, but I think your time is more 
valuable than waiting around for another hour before we return 
from the four votes.
    The meeting is adjourned. Thank you.
    [Additional questions to witnesses submitted by Mr. Miller 
follow:]

                               [VIA FACIMILE TRANSMISSION],
                                                 February 15, 2008.
Judi Caddick,
c/o Memorial Jr. High School, Lansing, IL.
    Dear Ms. Caddick: Thank you for testifying at the February 13, 2008 
hearing of the Committee on Education and Labor on ``Modern Public 
School Facilities: Investing in the Future''.
    Representative Yvette Clarke (NY-11), a member of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following question:
    1. As you are aware, Congress is in the process of reauthorizing No 
Child Left Behind. Accountability, in the form of a school's annual 
yearly progress (AYP), is an important component of NCLB. In your 
testimony, you mentioned the correlation between newer and better 
schools and standardized test scores. My question is two fold: first, 
can you discuss, how substandard school facilities could impact a 
school's ability to make AYP; and second, do you believe that 
integrating a child's immediate environment into their core curriculum 
could aid in their achievement?
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green Building Council's standards 
for LEED certification or other comparable standards? How should the 
federal government encourage more K-12 schools to invest in sustainable 
construction activities? What is the preferable approach for 
encouraging more schools to use energy and environmentally friendly 
construction methods--federal incentives (e.g., matching funds, tax-
exempt bonds, or grant funds) or federal mandates? Related to this, I 
would also appreciate insights on how to encourage schools to engage in 
sustainable (``green'' certified) remodeling projects.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business Monday, February 
25, 2008--the date on which the hearing record will close. If you have 
any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Response from Ms. Caddick follows:]

                                                 February 25, 2008.
Chairman George Miller,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: Thank you for the opportunity to testify at 
your committee's February 13, 2008 hearing on ``Modern Public School 
Facilities: Investing in the Future.'' While I welcome the opportunity 
to amplify my comments, I am a classroom teacher, not an expert in 
school construction. The responses to the questions below from 
Representatives Yvette Clark and Vern Ehlers are based on information 
provided by NEA subject matter experts.
    Clark: As you are aware, Congress is in the process of 
reauthorizing No Child Left Behind. Accountability, in the form of a 
school's annual yearly progress (AYP), is an important component of 
NCLB. In your testimony, you mentioned the correlation between newer 
and better schools and standardized test scores. My question is 
twofold: first, can you discuss how substandard school facilities could 
impact a school's ability to make AYP * * *
    ``Adequate yearly progress'' (AYP) is a measure of progress toward 
the goal of 100 percent student achievement of state academic standards 
in reading/language arts and math, at a minimum. Every student's 
performance impacts AYP. In turn, the teaching and learning 
environment, including the physical condition of the school building, 
impacts student achievement.
    Poor indoor air quality (IAQ) is associated with absenteeism among 
teachers and students alike--it makes them sick, and sick students and 
teachers can't perform as well as healthy ones. Temperature, humidity 
and ventilation contribute to IAQ. Data gathered by the U.S. General 
Accountability Office, going as far back as 1996, indicates that 
schools serving poor and minority students suffer disproportionally 
from poor IAQ. The federal government is encouraging further 
investigation of the consequences. No Child Left Behind, for example, 
calls for more research on the relationship between IAQ and student 
achievement.
    Lighting and acoustics also affect teaching and learning. Studies 
show that appropriate lighting improves test scores and reduces off-
task behavior. Levels of classroom noise and reverberation correlate 
with reading and spelling ability, behavior patterns, attention spans, 
and overall achievement in children.
    On the one hand, the age, quality and aesthetics of school 
buildings have all been linked to student behavior problems, including 
vandalism, absenteeism, suspensions, tardiness, racial incidents, and 
smoking. On the other hand, capital investments in schools have been 
linked to higher student achievement, teacher motivation, school 
leadership, and the time students spend learning.
    A substantial body of research documents how substandard school 
facilities adversely affect student performance and teacher 
effectiveness, thereby undermining a school's ability to make AYP. 
Specifically:
    <bullet> Students who attend schools in better physical condition 
outperform students in substandard schools by several percentage 
points. Overcrowding makes it harder for students to learn, especially 
students from families of low socioeconomic status. (School Facility 
Conditions and Student Academic Achievement, 2002. Glen I. Earthman, 
Virginia Polytechnic Institute and State University. Published by 
UCLA's Institute for Democracy, Education, & Access. (Available at 
http://repositories.cdlib.org/idea/wws/wws-rr008-1002.)
    <bullet> Space, noise, heat, cold, light, and air quality all bear 
on students' and teachers' performance. What is needed--clean air, good 
light, a comfortable and safe learning environment--can be achieved 
with existing technology if funding is adequate and design competent. 
(Do School Facilities Affect Academic Outcomes? 2002. Mark Schneider, 
National Clearinghouse for Educational Facilities. Available at http://
www.edfacilities.org/pubs/outcomes.pdf.)
    <bullet> On Virginia's Standards of Learning examinations at the 
middle school level, a higher percentage of students attained passing 
scores in English, mathematics, and science in standard buildings than 
in substandard buildings. (The Relationship between School Building 
Conditions and Student Achievement at the Middle School Level in the 
Commonwealth of Virginia, 2007. Calvin Bullock, Virginia Polytechnic 
Institute and State University. Available at http://scholar.lib.vt.edu/
theses/available/etd-08212007-163313.)
    <bullet> The Ysleta Independent School District, a high-performing, 
high-poverty school district in Texas, found that from 1994 to 2001, 
the percentage of students who passed the Texas Assessment of Academic 
Skills varied with the age, condition, and cleanliness of school 
buildings. (A Study of the Effect School Facility Conditions Have on 
Student Achievement, 2003. Susan Lair, University of Texas. Available 
at http://wwwlib.umi.com/dxweb, Report No: 3116105.)
    <bullet> Green Schools: Attributes for Health and Learning, 
published by the National Academies Press in 2007, explores the 
relationship between the overall condition of school buildings and 
student achievement, and provides an analysis of--and recommendations 
for--planning and maintaining green schools. (Available at http://
books.nap.edu/catalog/11756.html.)
    Clark: * * * and second, do you believe that integrating a child's 
immediate environment into their core curriculum could aid in their 
achievement?
    Integrating the immediate school environment into the core 
curriculum would encourage students to take a greater interest in their 
physical surroundings and to become responsible environmental stewards. 
This approach, called ``service-learning'' (a form of experiential 
education based on a cycle of planning, action and reflection) has 
proven effective in community settings. Students acquire knowledge and 
skills, apply what they have learned, and experience the consequences--
literally and emotionally. Research confirms that service learning 
approach can be an effective strategy for enhancing student 
achievement.
    Ehlers: To what extent do public schools use public-private 
partnerships when funding school construction projects?
    The United States has been slow to adopt the Public-Private 
Partnership (PPP) model for funding school construction projects. 
President Bush's tax cut bill, the Economic Growth and Tax Relief 
Reconciliation Act of 2001, promised towns and cities that forming PPPs 
with real-estate developers and investors would enable them to build 
schools faster, better and less expensively. Few have done so, for good 
reason. The law sets a nationwide ceiling of $3 billion on private 
bonds for school construction. Moreover, U.S. Treasury regulations do 
not allow investors and developers involved in such projects to claim 
depreciation.
    The PPP model has been used to finance construction of two high 
schools in the Houston Independent School District; charter schools in 
Florida and Michigan; and to finance renovation of vacant, privately 
owned commercial space for school use in Arizona, Florida, New Jersey, 
and North Carolina.
    Ehlers: To what extent would it be reasonable to expect schools to 
raise a certain amount of funding in order to receive a federal 
incentive or matching payment?
    In a few cases, school districts have had to raise construction 
funds to qualify for matching funds provided by the state--in 
California, for example. On the federal level, the Qualified Zone 
Academy Bond (QZAB) program, introduced in 1997, most closely 
approximates this approach. QZABs allow schools serving low-income 
students to reduce interest payments on tax-exempt bonds or loans used 
to finance capital improvements, usually about half the cost of 
renovating a school. The schools repays the entire amount borrowed; the 
lending institution receives a tax credit in lieu of interest payments.
    To qualify for the QZAB program, a school must be located in a 
federal Empowerment Zone or Enterprise Community, or at least 35 
percent of the students must be eligible for free- or reduced-price 
lunches. Participating schools partner with private businesses that 
contribute cash, goods or services worth at least 10 percent of the 
borrowed amount.
    Ehlers: My congressional district may be home to the most 
Leadership in Energy and Environmental Design (LEED) certified schools 
in the nation (four schools as of January 13). To what extent has 
recent school construction complied with the U.S. Green Building 
Council's standards for LEED certification or other comparable 
standards?
    The U.S. Green Building Council reports that since April 2007, when 
it launched LEED for schools, on average one school per day has 
registered for certification. More than 75 schools have been certified 
to date and 600 are in the pipeline.
    Ehlers: How should the federal government encourage more K-12 
schools to invest in sustainable construction activities?
    To encourage more K-12 schools to invest in sustainable 
construction activities, Congress should fund the green schools 
research authorized by the Energy Independence and Security Act of 
2007. No existing federal study focuses on the correlation between the 
indoor environmental quality of green schools and students' health and 
performance. Funding such a study would fill this research gap and 
provide crucial information for local decision-makers.
    Ehlers: What is the preferable approach for encouraging more 
schools to use energy and environmentally friendly construction 
methods--federal incentives (e.g., matching funds, tax-exempt bonds, or 
grant funds) or federal mandates?
    The federal government should provide grants and other financial 
incentives to encourage school districts, especially those in less 
affluent areas, to use energy and environmentally friendly construction 
methods.
    Ehlers: Related to this, I would also appreciate insights on how to 
encourage schools to engage in sustainable (``green'' certified) 
remodeling projects.
    Going ``green'' does not necessitate building a new school or even 
major renovations. Schools can go green gradually, starting with 
cleaning and purchasing policies, and installing high-performance 
lighting. Green performance contracting may be a good approach when 
capital and operating budgets are limited. The U.S. Green Building 
Council plans to release a guidance document specifically for schools 
later this year. In the meantime, schools can consult the Council's 
LEED for existing buildings.
    In closing, I thank you again for the opportunity to address these 
issues critical to the future of our children and our nation as a 
whole. I urge Congress to act quickly to authorize school modernization 
programs to help ensure that all our children have the safe, modern 
learning environments so integral to success.
            Sincerely,
                                              Judi Caddick.
                                 ______
                                 
                               [VIA FACIMILE TRANSMISSION],
                                                 February 15, 2008.
Mary Cullinane,
Director, Innovation and Business Development Team, Microsoft 
        Corporation, New York, NY.
    Dear Ms. Cullinane: Thank you for testifying at the February 13, 
2008 hearing of the Committee on Education and Labor on ``Modern Public 
School Facilities: Investing in the Future''.
    Representative Yvette Clarke (NY-11), a member of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following question:
    1. In your testimony you discussed the ``knowledge economy'' and 
the importance of preparing students for careers in the 21st Century. 
How does project based learning and experiential learning prepare our 
students to be competitive in the global market? What is your position 
on standardized testing and its ability to prepare our students for 
careers that require critical thinking skills, effective communication, 
and problem solving?
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green Building Council's standards 
for LEED certification or other comparable standards? How should the 
federal government encourage more K-12 schools to invest in sustainable 
construction activities? What is the preferable approach for 
encouraging more schools to use energy and environmentally friendly 
construction methods--federal incentives (e.g., matching funds, tax-
exempt bonds, or grant funds) or federal mandates? Related to this, I 
would also appreciate insights on how to encourage schools to engage in 
sustainable (``green'' certified) remodeling projects.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business Monday, February 
25, 2008--the date on which the hearing record will close. If you have 
any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

            Mary Cullinane Responses to Follow-Up Questions

    Representative Yvette Clarke (NY-11), a member of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following question:
    1. In your testimony you discussed the ``knowledge economy'' and 
the importance of preparing students for careers in the 21st Century. 
How does project based learning and experiential learning prepare our 
students to be competitive in the global market?
    Project based learning prepares students for the global marketplace 
in several key ways. First, it much more closely mirrors the work they 
will do upon graduation in the workplace. Second, it encourages them to 
consider their community, their world and question what they see, read, 
and hear. Third, it teaches them to work collaboratively and in doing 
so highlights the importance of communication, delegation, and even 
accountability for their share of projects undertaken.
    All these critical elements of the learning process more closely 
reflect life and work in a post-industrial, information based, 
knowledge intensive economy. At the School of the Future, project-based 
learners are asked to do more than master core skills. They are 
encouraged to raise generative questions--questions that create more 
questions--about project topics and the best ways to learn about them. 
In addition, each project is multi-disciplinary and thus more relevant 
to the complex way learning happens in the world in which they live. In 
this model, educators play a very different role, using an individual 
approach with each child to draw learning out of them, while providing 
support and guidance when it is needed.
    During any given day, learners at the School of the Future will 
find out more than just the answer to a multiplication problem or 
grammar question. Through project based learning, they'll discover 
something about who they are, establishing a frame of reference that 
makes each piece of curriculum relevant to their world. Rather than 
moving through a day of regimented, discrete classes, each student is 
involved for several months in projects that combine different 
educational disciplines. For example, a project entitled Money and 
Rights lets students discover how money came into existence (history), 
helps them understand budgets (mathematics), and gives them a chance to 
develop theories on the role of money in their own community (social 
studies). Collaboration and presentation are key-parts of every 
project, helping learners gain competencies in teamwork, problem 
solving, and communication, including writing and public speaking. In 
each project, generative questions from students begin the specific 
discussion. ``How did that happen?'' leads to research. ``Why didn't 
they do it this way?'' generates an experiment. Even ``Why do we need 
to learn this?'' helps establish relevance for a topic. And the form of 
the project always follows function--instead of marching through a 
learning sequence, it evolves organically, with input from students. 
What they discover on Monday will influence their tasks on Tuesday and 
beyond, and in many cases the scope of the project (and its
    findings) can exceed the original expectations of school educators. 
As the projects evolve, educators are continually observing and 
assessing project teams to ensure that required content is being 
covered, and learners are acquiring and developing fundamental skills. 
If there is a need for reinforcement of certain material, or students 
need extra help with skills, educators can approach them on an 
individual level to give them the help and resources they need. Because 
a School of the Future learner's day is not as structured as a typical 
student's, this often can be accomplished through supplementary 
instruction or practice, without significantly interrupting the flow of 
the project.
    Project-based learning helps students understand topics, rather 
than just memorizing facts. These children can extend their learning to 
new subjects in school, and eventually to their futures outside the 
classroom. That is why the majority of students' projects involve real-
world connections outside the school property, both physical and 
virtual. Students may visit the adjacent Philadelphia Zoo, to make a 
real connection to the biology they study; or go to a museum, to see 
what was left behind by the cultures they're exploring; or meet with 
local leaders and community members to gain perspective on the 
environment in which they live; or use the advanced technology at the 
School to conduct research. Each new project involves a reorganization 
of students, and results in groups of children from different 
communities, middle schools, and backgrounds. Additionally, students 
are not ``sorted'' by proficiency, as in many high schools; rather they 
are challenged to work with new faces and personalities in order to 
succeed in teams and as individual learners.
    What is your position on standardized testing and its ability to 
prepare our students for careers that require critical thinking skills, 
effective communication, and problem solving?
    Although Microsoft has never taken a position on specific 
standardized tests or their implementation, we believe they are one 
component that can be utilized to gauge student achievement. 
Fundamentally, ``testing''--meaning a substantive assessment of 
educational progress--is more important than ever if we are to ensure 
that students graduate with ``21st Century skills'' in such critical 
areas as communication, critical thinking, and problem-solving. Without 
effective measurement, no educational endeavor is likely to be as 
effective as it might be since this is a critical element in 
identifying ways in which to drive improvement and enhance achievement. 
We are in a state of nearly constant evaluation at the school and we 
believe this should serve as a model for policymakers to consider. Our 
experience also indicates that funding for new data systems and support 
for initiatives such as the Data Quality Campaign and the State 
Education Data Center are important.
    The assessment system at the School of the Future ensures its 
students meet the same state educational standards (the annual 
Pennsylvania System of School Assessment (PSSA)) as their peers in 
Philadelphia. But helping students to succeed in a traditional, content 
based assessment does not have to mean approaching it in a traditional 
way. Each curriculum plan for the School of the Future begins with a 
state standard, which are matched with student competencies, as
    determined by school leadership. In turn, these competencies map to 
``lenses''--the foundation of the project-based model at the school--
which go beyond subject matter to look at ways of thinking about 
learning. At the student level, the curriculum focus is on 
understanding: the level of understanding which children begin; the 
milestones of understanding they reach during learning; and the 
culmination of their understanding at project end. Assessment of 
student competency and understanding does not take the shape of A's, 
B's or C's. Rather, at the close of each project, each student receives 
a 17-page assessment portfolio, which documents and measures their work 
and competencies against a rubric. It is the responsibility of each 
student to deliver this portfolio to their parents for acknowledgement 
and signature. Student responsibility takes other forms as well. In 
addition to having to take and pass the 11th grade PSSA, every student 
at the School of the Future must apply to a university or college to 
qualify for graduation.
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    There is tremendous opportunity for schools to leverage the power 
of public-private partnerships and much more needs to be done to ensure 
this occurs. Our experience indicates that there is a richness that can 
result from the right fit, the right kind of partnership--and one not 
based strictly on financial support but that utilizes the breadth of 
competencies particularly private entities can bring to bear. We 
brought a deep knowledge of the power of software to create a rich 
learning environment as well as management and other competencies to 
the process. A combination of entities may offer unique partnering 
opportunities and resources.
    Although many schools may well be in a position to raise a certain 
amount of funding, so many more simply will not--a fact that could in 
some instances exacerbate difficulties already seen in the system. We 
would urge that you consider how to develop a policy framework that 
provides greater incentives for deeper, more sustained private sector 
involvement--beyond monetary--and providing schools and LEA's with 
guidance as to how to engage more effectively with the private sector. 
This could take the form of different kinds of management and 
leadership training for school and district leaders; exchange program 
incentives, and other types of engagement model support.
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green
    Building Council's standards for LEED certification or other 
comparable standards? How should the federal government encourage more 
K-12 schools to invest in sustainable construction activities? What is 
the preferable approach for encouraging more schools to use energy and 
environmentally friendly construction methods--federal incentives 
(e.g., matching funds, tax-exempt bonds, or grant funds) or federal 
mandates? Related to this, I would also appreciate insights on how to 
encourage schools to engage in sustainable (``green'' certified) 
remodeling projects.
    The issue of federal encouragement for sustainable construction 
requires significant and swift investigation as evidence regarding the 
impact of sustainable building practices on academic achievement 
emerges. In our view, a key lesson learned was the critical role 
architectural, aesthetics, and environmental issues played in the 
development of School of the Future's critical success factors.
    The average School of the Future classroom is 800 square feet and 
features controlled daylight, consisting of sufficient natural light 
from windows and supplemental artificial lighting to reduce computer 
glare. Windows at the School of the Future are equipped with screens 
that can be easily raised and lowered to prevent sun glare and diffuse 
the controlled daylight. These investments in optimal lighting are well 
spent. Research indicates that student performance on math and language 
tests can increase more than 25% simply through the implementation of 
natural lighting (see The New York Times, Beyond the Bulbs: In Praise 
of Natural Light).
    In existing facilities, modular furniture can transform traditional 
classrooms into flexible environments capable of responding to changing 
needs. Wireless technologies are often simple to add as ``last mile'' 
solutions on top of existing hardwire infrastructure. For example, the 
School District of Philadelphia, concurrent with developing the School 
of the Future, is completing over 50 renovations of individual 
classrooms throughout the district using wireless technologies. Even 
lighting, perhaps the hardest design feature to retrofit into an 
existing footprint, can be optimized through updated LED fixtures and 
window screens that gently diffuse daylight and reduce glare. The 
``Green Roof'' over the Performing Arts Center; the gathering system 
for rain water for internal use; and the photovoltaic window panels 
that gather sunlight and convert it into electricity usage for the 
school, are the kinds of innovations that when integrated into the 
planning process, can help LEA's meet both budget requirements and 
sustainability objectives.
    Regardless of the specific policies Congress chooses to enact, we 
would urge you to strongly consider the impact of environmental factors 
on student achievement and develop a policy framework that provides 
greater incentives for significant private sector involvement in the 
architecture of 21st century learning environments. Buildings, like 
curricula, must reflect the needs of 21st century learning environments 
of which sustainability is a critical element.
                                 ______
                                 
                               [VIA FACIMILE TRANSMISSION],
                                                 February 15, 2008.
Mr. Neal McCluskey,
Associate Director of the Center for Educational Freedom, CATO 
        Institute, Washington, DC.
    Dear Mr. McCluskey: Thank you for testifying at the February 13, 
2008 hearing of the Committee on Education and Labor on ``Modern Public 
School Facilities: Investing in the Future''.
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green Building Council's standards 
for LEED certification or other comparable standards? How should the 
federal government encourage more K-12 schools to invest in sustainable 
construction activities? What is the preferable approach for 
encouraging more schools to use energy and environmentally friendly 
construction methods--federal incentives (e.g., matching funds, tax-
exempt bonds, or grant funds) or federal mandates? Related to this, I 
would also appreciate insights on how to encourage schools to engage in 
sustainable (``green'' certified) remodeling projects.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business Monday, February 
25, 2008--the date on which the hearing record will close. If you have 
any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                               [VIA FACIMILE TRANSMISSION],
                                                 February 15, 2008.
Kathleen J. Moore, Director,
School Facilities Planning Division, California Department of 
        Education, Sacramento, CA.
    Dear Ms. Moore: Thank you for testifying at the February 13, 2008 
hearing of the Committee on Education and Labor on ``Modern Public 
School Facilities: Investing in the Future''.
    Representative Yvette Clarke (NY-11), a member of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following questions:
    1. In your testimony you discuss how extremely poor environments 
have a negative effect on students and teachers. Has your department 
done studies on the effects of green building and its impact on student 
performance? And if so, what were the results?
    2. As you are aware, Congress is in the process of reauthorizing No 
Child Left Behind. Accountability, in the form of a school's annual 
yearly progress (AYP), is an important component of NCLB. In your 
testimony, you mentioned the correlation between newer and better 
schools and standardized test scores. My question is two fold: first, 
can you discuss, how substandard school facilities could impact a 
school's ability to make AYP; and second, do you believe that 
integrating a child's immediate environment into their core curriculum 
could aid in their achievement?
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green Building Council's standards 
for LEED certification or other comparable standards? How should the 
federal government encourage more K-12 schools to invest in sustainable 
construction activities? What is the preferable approach for 
encouraging more schools to use energy and environmentally friendly 
construction methods--federal incentives (e.g., matching funds, tax-
exempt bonds, or grant funds) or federal mandates? Related to this, I 
would also appreciate insights on how to encourage schools to engage in 
sustainable (``green'' certified) remodeling projects.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business Monday, February 
25, 2008--the date on which the hearing record will close. If you have 
any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                               [VIA FACIMILE TRANSMISSION],
                                                 February 15, 2008.
Mr. Paul Vallas, Superintendent,
Recovery School District, New Orleans, LA.
    Dear Mr. Vallas: Thank you for testifying at the February 13, 2008 
hearing of the Committee on Education and Labor on ``Modern Public 
School Facilities: Investing in the Future''.
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green Building Council's standards 
for LEED certification or other comparable standards? How should the 
federal government encourage more K-12 schools to invest in sustainable 
construction activities? What is the preferable approach for 
encouraging more schools to use energy and environmentally friendly 
construction methods--federal incentives (e.g., matching funds, tax-
exempt bonds, or grant funds) or federal mandates? Related to this, I 
would also appreciate insights on how to encourage schools to engage in 
sustainable (``green'' certified) remodeling projects.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business Monday, February 
25, 2008--the date on which the hearing record will close. If you have 
any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                               [VIA FACIMILE TRANSMISSION],
                                                 February 15, 2008.
Dr. Paula Vincent,
Clear Creek Amana School District, Oxford, IA.
    Dear Dr. Vincent: Thank you for testifying at the February 13, 2008 
hearing of the Committee on Education and Labor on ``Modern Public 
School Facilities: Investing in the Future''.
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green Building Council's standards 
for LEED certification or other comparable standards? How should the 
federal government encourage more K-12 schools to invest in sustainable 
construction activities? What is the preferable approach for 
encouraging more schools to use energy and environmentally friendly 
construction methods--federal incentives (e.g., matching funds, tax-
exempt bonds, or grant funds) or federal mandates? Related to this, I 
would also appreciate insights on how to encourage schools to engage in 
sustainable (``green'' certified) remodeling projects.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business Monday, February 
25, 2008--the date on which the hearing record will close. If you have 
any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                               [VIA FACIMILE TRANSMISSION],
                                                 February 15, 2008.
Mr. Jim Waters, Director of Policy and Communications,
Bluegrass Institute, Bowling Green, KY.
    Dear Mr. Waters: Thank you for testifying at the February 13, 2008 
hearing of the Committee on Education and Labor on ``Modern Public 
School Facilities: Investing in the Future''.
    Representative Vernon Ehlers (MI-03), a member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and the 
Higher Education, Lifelong Learning, and Competitiveness Subcommittee, 
has asked that you respond in writing to the following questions:
    1. To what extent do public schools use public-private partnerships 
when funding school construction projects? To what extent would it be 
reasonable to expect schools to raise a certain amount of funding in 
order to receive a federal incentive or matching payment?
    2. My congressional district may be home to the most Leadership in 
Energy and Environmental Design (LEED) certified schools in the nation 
(four schools as of January 13). To what extent has recent school 
construction complied with the U.S. Green Building Council's standards 
for LEED certification or other comparable standards? How should the 
federal government encourage more K-12 schools to invest in sustainable 
construction activities? What is the preferable approach for 
encouraging more schools to use energy and environmentally friendly 
construction methods--federal incentives (e.g., matching funds, tax-
exempt bonds, or grant funds) or federal mandates? Related to this, I 
would also appreciate insights on how to encourage schools to engage in 
sustainable (``green'' certified) remodeling projects.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business Monday, February 
25, 2008--the date on which the hearing record will close. If you have 
any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, for holding this hearing on public 
school construction needs. I also want to thank my colleagues on both 
sides of the aisle that will testify today. I appreciate your time and 
your insights on this important topic.
    Modernizing our nation's schools is a critical component of 
improving the education system in this country. A 2005 survey found 
that 52 percent of schools had no science laboratories, 30 percent had 
no art rooms, 19 percent had no music rooms, and 17 percent had no 
gymnasium. Even more troubling, anecdotal evidence suggests that many 
schools have basic infrastructure needs that have not been addressed 
leading to environments that are not conducive to learning and, at 
times, unhealthy. As one might expect, schools with disproportionately 
high percentages of low-income students face the greatest 
infrastructure challenges.
    Due to our public schools' construction needs, I have cosponsored 
the America's Better Classroom Act of 2007 (HR 2470). This legislation 
will provide $22 billion in interest free bonds for public schools to 
rehabilitate and modernize their facilities. I know that several other 
members, who we will hear from today, have introduced additional 
legislation that will help address the construction needs of our public 
schools. I look forward to hearing from these members and to working 
with them on this issue.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The statement of Mr. Courtney follows:]

 Prepared Statement of Hon. Joe Courtney, a Representative in Congress 
                     From the State of Connecticut

    Chairman Miller and Ranking Member McKeon, I want to thank you very 
much for convening this very important hearing today. I look forward to 
hearing from my colleagues and the rest of the distinguished panel.
    As I travel around the district visiting elementary, middle and 
high schools, I hear first-hand the problems faced by administrators 
dealing with aging infrastructure and high energy costs. In order to 
raise awareness and promote the benefits of green school construction, 
I have joined the newly established Green Schools Caucus. Aging schools 
have a detrimental effect on the lives of students, teachers, 
administrators and support staff.
    In June 2006, the Institute for Sustainable Energy (ISE) at Eastern 
Connecticut State University prepared an Energy Efficiency Study of 
Connecticut Schools. One of the most striking findings was that total 
energy costs for Connecticut schools for the 2005-2006 year rose to 
over $160 million, a 35 percent increase over the previous year. 
Unfortunately, as these costs escalate, school districts must look at 
ways to reduce spending in education, extracurricular activities, 
maintenance and hiring.
    Over 90 percent of Connecticut's 1026 public schools were built 
before 1978 and 68 percent of them were built between 1950 and 1978. 
These schools were built in an era of rapid growth and low energy 
prices and with building codes that gave little or know thought to 
smart, healthy, energy-efficient design. Therefore, most of Connecticut 
schools are energy inefficient although many have participated in 
programs to upgrade their lighting systems.
    The Department of Energy has found that schools built before 1978 
are designed and constructed in such a way to make them inherently 
energy inefficient and wasteful. Insulation levels are minimal; single 
level buildings often do not contain vapor barriers, thus leading to 
mold; and something as simple as making optimal use of outdoor lighting 
was rarely incorporated.
    Conversely, many of the schools built before 1950 seem to be 
performing better than their later-built counterparts. Often, these 
structures were multi-story and constructed of heavier mass that allow 
them to distribute heat better and weather extreme winter conditions. 
In addition, some of these older buildings have actually been renovated 
in the last 10 years, taking advantage of energy efficient heating and 
lighting structures.
    The ISE found that if Connecticut brought all of its schools up to 
the national average--50 on the Energy Star scale, energy use could be 
reduced by nearly 30 percent and annual savings in 2005 dollars would 
approach $34 million.
    The problem facing school districts in eastern Connecticut is the 
cost associated with these upgrades. While there are some incentives 
for new construction, there are few incentives for retrofitting and 
other upgrades to existing structures.
    The federal government must do more to assist local school 
districts in this country if we are serious about reducing our fossil 
fuel consumption and improving the education of students today and in 
the future.
    I am a cosponsor of the America's Better Classroom Act (H.R. 2470) 
which amends the Internal Revenue Code to allow a tax credit for 
investment in qualified public school modernization bonds for the 
construction, rehabilitation or repair of a public school facility.
    I am also cosponsoring the School Building Enhancement Act (H.R. 
3197) that will help bring resources to those school districts that 
want to either embark on new construction or retrofit existing 
buildings.
    I look forward to hearing the testimony today.
                                 ______
                                 
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    No child should have to go to a school that is falling down around 
him or her. No child should have to wear a winter coat in the classroom 
while trying to learn because the heat isn't working. Schools shouldn't 
have to close on a hot day because there is no working air 
conditioning. Our children deserve the best opportunities in life and 
that starts with a quality education in a building where they can focus 
on learning, not their healthy or safety. To provide a positive 
learning environment, students must have great teachers and sound 
facilities. This Committee is finding ways to work with states and 
school districts to ensure that schools are renovated or built in a way 
that promotes learning for our students.
    Several of the witnesses discussed green building and how this is 
becoming the wave of the future. Well, the future is already here in my 
district. Not only are our schools being planned and constructed to be 
more environmentally friendly, they are saving money on energy costs. 
As more and more states face budget shortfalls and school districts try 
to deal with budget cuts, green energy and green building will make a 
difference for school districts. By doing the right thing, we are 
actually benefiting our children, schools, and districts.
    As the Chairwoman of the Workforce Protections Subcommittee, I 
would like to address some of the witnesses' criticisms of the Davis-
Bacon Act. Davis-Bacon is as relevant today as it was when it was 
passed 75 years ago. The payment of prevailing wages---as required 
under the Act---ensures stabilized wages that are not artificially 
depressed by competition for federal construction contracts. When 
prevailing wages are in place, all contractors are forced to compete on 
an equal basis and cannot undercut other bids that are based on finding 
the cheapest workforce, a workforce that is easily exploited, and not a 
workforce that can do the best job. These prevailing wages benefits the 
community and the families and students that come from that community.
    In addition, studies have proven a direct correlation between wage 
levels and productivity, and projects with high skilled labor often 
mean that they cost less and not more. If construction is shoddy, 
costly repairs and delays run up the costs of a project---so the 
premise that Davis-Bacon costs the Federal Government more is faulty. 
Add to that safety, community development and other economic forces, 
and Davis-Bacon is actually a cost-saver and not a cost spender. 
Besides which, not paying prevailing wages will result in the decline 
of apprenticeship training programs. My own belief is that we need more 
skilled workers in this country, not less.
    I also need to emphasize that prevailing wages are not union wages. 
They are based on the usual wages and benefits paid for construction 
work in the local community. Twelve (12) states have repealed their own 
prevailing wage laws assuming that this would have benefits to 
taxpayers. Instead, these repeals have led to dismal consequences. For 
example, a study in Iowa found that contractors, by paying less than 
prevailing wages, did not pass savings onto the taxpayers, but enriched 
themselves instead.
    Our children deserve the best possible school buildings and we 
shouldn't undercut wages or construction costs at the risk of a 
building that isn't the safest and best learning environment for our 
children.
                                 ______
                                 
    [Additional submissions from Ms. Hooley follow:]
    [``Daylighting in Schools,'' may be accessed at the 
following Internet address:]

     http://edlabor.house.gov/testimony/2008-02-13-Daylighting.pdf

                                 ______
                                 
    [``Greening America's Schools Costs and Benefits,'' by 
Gregory Kats, may be accessed at the following Internet address 
by searching for the title:]

                    http://www.buildgreenschools.org

                                 ______
                                 
    [``Green Building Smart Market Report,'' McGraw-Hill, 2007, 
may be purchased at the following Internet address:]

     http://greensource.construction.com/resources/smartMarket.asp

                                 ______
                                 
    [Letter submitted by Mr. Kildee follows:]

                       National Parent Teacher Association,
                         Council of The Great City Schools,
                            National Education Association,
                           American Federation of Teachers,
             American Association of School Administrators,
                        National School Boards Association,
      National Association of Elementary School Principals,
       National Association of Secondary School Principals,
                                                     NAACP,
        National Association of Federally Impacted Schools,
                          American Institute of Architects,
             Organizations Concerned About Rural Education,
                      National Rural Education Association,
                        Californians for School Facilities,
                                                 February 11, 2008.
Hon. George Miller, Chairman,
Education and Labor Committee, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: Rebuild America's Schools appreciates the 
Education and Labor Committee hearing on Modern Public School 
Facilities: Investing in the Future. Rebuild America's Schools believes 
there is an imperative need for Congress and the federal government to 
support the efforts of state and local communities to provide the 
modern schools our nation's students need to achieve and succeed in the 
21st century.
    Well-documented estimates such as the Government Accounting Office 
1995 Report and the National Education Association 2000 Report place 
the need for building new schools to educate record student enrollments 
and renovating and repairing existing school buildings as high as $300 
billion. While some of these construction needs have been met, local 
school districts in every state are delaying priority school 
construction projects as they struggle to secure local and state 
financing. Federal support with the financing of local school facility 
projects is effective. Both the highly successful Emergency School 
Repair program and the Qualified Zone Academy Bond program demonstrate 
that Congress can provide financial support to local school districts 
without interfering with the state and local decision making processes.
    New, modernized and technologically equipped schools provide the 
learning environments students and teachers need to be more effective. 
Simply put, better school facilities advance student achievement and 
increase the likelihood of students succeeding academically and in 
life.
School Facility Legislation Pending in the House of Representatives
    Rebuild America's Schools supports a number of bills before the 
House: Ways and Means Committee Chairman Rangel's bipartisan America's 
Better Classrooms Act, HR 2470 with the support of Congressmen Ramstad, 
Etheridge, Kildee, yourself and over two hundred of your other 
colleagues provides federal support through federal tax credits for $25 
billion in state and local school construction bonds. The bonds provide 
a federal tax credit in lieu of interest, saving local school districts 
almost 50% of the total cost of the bonds.
    The America's Better Classrooms Act (HR 2470/S 912) will help 
underwrite over $25 billion in school construction bonds at a cost to 
the U.S. Treasury of $1.67 billion over five years; $6.7 billion over 
ten years for the entire $25 billion program. Components of the ABC 
bill would cost even less. Currently 217 members in the House support 
and cosponsor this legislation.
    Congressman Loebsack and Senator Tom Harkin's legislation, HR 3902/ 
S. 1942, the Public School Repair and Renovation Act provides $1.6 
billion in grants to communities that continue to struggle to fund 
needed school facility repairs. This legislation builds on the 
Emergency School Repair Program which was funded at $1.2 billion when 
Congress first authorized it in 2000. Under the Emergency School Repair 
Program, states and school districts successfully used $1.2 billion to 
repair and renovate public schools in 2001 and 2002.
    Congressman Ben Chandler's bill H.R. 3021, the 21st Century High-
Performing Public School Facilities Act, authorizes $32 billion in 
grants and loans over a 5-year period for school repair and 
modernization. Additionally, the bill authorizes $1 billion for school 
technology infrastructure.
    These bills provide three approaches to federal support for the 
efforts state and local communities are undertaking to provide the 
educational settings students need to learn and to compete successfully 
in this century's global economies. A federal commitment to support 
school facilities recognizes the national imperative that the academic 
success of our students represents the economic and political future of 
our country.
    When local communities build, renovate and repair schools to 
provide safer, more modern school facilities they are also responding 
to the call from Congress and the Administration to raise student 
achievement. An added dimension of federal support for school 
facilities is that the federal financial assistance contributes to 
local economies and generates local jobs. Congressional authorization 
of programs for school facilities will generate economic activity in 
every state. School construction projects will generate thousands of 
jobs in the construction industry, and among the many suppliers, 
ranging from architects and engineers to roofing contractors and other 
workers, who design and build our nation's schools.
    Thank you Mr. Chairman and Members of the Education and Labor 
Committee for considering school facility needs as a critical 
investment in America's educational, political and economic future. 
Better schools improve the opportunity for students to succeed and will 
advance student achievement in urban, rural and suburban communities in 
every state in our nation.
    We respectfully request that this letter be included as part of the 
hearing record.
            Sincerely,
                                         Robert P. Canavan,
                                                             Chair.
                                 ______
                                 
    [Whereupon, at 12:24 p.m., the committee was adjourned]

                                 <all>

</pre></body></html>
